<html>
<title> - H.R. 1006 and H.R. 1472</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 1006 and H.R. 1472

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             June 12, 2003

                               __________

                           Serial No. 108-25

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-680              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Madeleine Z. Bordallo, Guam
    Carolina                         Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 12, 2003....................................     1

Statement of Members:
    Dingell, Hon. John, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................    30
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     7
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    McKeon, Hon. Howard ``Buck'', a Representative in Congress 
      from the State of California...............................     7
        Prepared statement of....................................     9
    Miller, Hon. George, a Representative in Congress from the 
      State of California, Prepared statement of.................   106
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................    17
        Prepared statement of....................................    19
    Pallone, Hon. Frank, a Representative in Congress from the 
      State of New Jersey........................................     3
    Peterson, Hon. Collin C., a Representative in Congress from 
      the <plus-minus>State of Minnesota.........................     9
        Prepared statement of....................................    16
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     5
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................     3

Statement of Witnesses:
    Baughman, John, Executive Vice-President, International 
      Association of Fish and Wildlife Agencies..................    42
        Prepared statement of....................................    44
     Estill, Elizabeth, Deputy Chief, Programs, Legislation and 
      Communications, Forest Service, U.S. Department of 
      Agriculture................................................    40
        Prepared statement of....................................    41
    Haleen, Stephen J., National Bear Hunting Defense Task Force.    94
        Prepared statement of....................................    96
    Hedren, Tippi, President, The Roar Foundation................    57
        Prepared statement of....................................    60
    Hogan, Matt, Deputy Director, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................    35
        Prepared statement of....................................    37
    Horn, William P., Director, Federal Affairs, U.S. Sportsmen's 
      Alliance...................................................    97
        Prepared statement of....................................    99
        Letter submitted for the record..........................   111
    Jonkel, Dr. Charles, Co-Founder and President, Great Bear 
      Foundation.................................................    79
        Prepared statement of....................................    82
    Marlenee, Hon. Ron, Director of Legislative Affairs, Safari 
      Club International.........................................    75
        Prepared statement of....................................    77
        Juneau Empire article submitted for the record...........    79
    Miller, Eric, D.V.M., Director of Animal Health and 
      Conservation, St. Louis Zoo, American Zoo and Aquarium 
      Association................................................    63
        Prepared statement of....................................    67
    Pacelle, Wayne, Senior Vice President, Humane Society of the 
      United States..............................................    84
        Prepared statement of....................................    87

Additional materials supplied:
    Albert, Thomas L., Vice President, Government Relations, Feld 
      Entertainment, Letter submitted for the record.............   114
    Amand, Wilbur, V.M.D., Executive Director, American 
      Association of Zoo Veterinarians, Statement submitted for 
      the record.................................................    64
    Congressional Sportsmen's Caucus, Letters submitted for the 
      record by The Honorable Collin Peterson....................    12
    Etter, Dwayne R., Ph.D., Wildlife Research Biologist, 
      Wildlife Division, Michigan Department of Natural 
      Resources, Letter submitted for the record.................   100
    International Fund for Animal Welfare, Statement submitted 
      for the record on H.R. 1006................................   107
    Michigan House of Representatives, Letter submitted for the 
      record on H.R. 1472........................................   112
    Minnesota Department of Natural Resources, Letter submitted 
      for the record on H.R. 1472 by The Honorable Collin 
      Peterson...................................................    10
    National Rifle Association, Letter submitted for the record 
      on H.R. 1472...............................................   108
    New Hampshire Fish and Game Department, Letter submitted for 
      the record on H.R. 1472....................................    32
    North American Bear Foundation, Statement submitted for the 
      record on H.R. 1472........................................    13
    Wisconsin Department of Natural Resources, Letter submitted 
      for the record on H.R. 1472................................   109


    LEGISLATIVE HEARING ON H.R. 1006, A BILL TO AMEND THE LACEY ACT 
  AMENDMENTS OF 1981 TO FURTHER THE CONSERVATION OF CERTAIN WILDLIFE 
SPECIES; AND H.R. 1472, A BILL TO REQUIRE THE ADOPTION AND ENFORCEMENT 
OF REGULATIONS TO PROHIBIT THE INTENTIONAL FEEDING OF BEARS ON FEDERAL 
   PUBLIC LANDS IN ORDER TO END THE HUNTING PRACTICE KNOWN AS ``BEAR 
   BAITING'' AND REDUCE THE NUMBER OF DANGEROUS INTERACTIONS BETWEEN 
                            PEOPLE AND BEARS

                              ----------                              


                        Thursday, June 12, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Members Present: Representatives Gilchrest, Young, Saxton, 
Gallegly, Pombo (ex officio), Pallone, and Bordallo.
    Also Present: Representatives Kind and Moran.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order. Good 
morning, everyone. Welcome to the hearing and to Washington. 
Collin, Jim, welcome, this morning.
    Mr. Moran. Thank you, Wayne. Nice to see you.
    Mr. Gilchrest. We will hear testimony on two wildlife bills 
this morning, H.R. 1006, the Captive Wildlife Safety Act, and 
H.R. 1472, the Don't Feed the Bears Act. That sounds like a 
good story.
    Mr. Gilchrest. The first bill, H.R. 1006, introduced by our 
colleague Buck McKeon, would amend the Lacey Act Amendments of 
1981 to designate certain large exotic cats as prohibited 
wildlife species. Many of us, including myself, are cosponsors 
of this measure and feel it is appropriate to restrict the 
ownership or possession of certain large cats, such as lions, 
tigers, and leopards, to those organizations who have expertise 
to properly care for them.
    I want to thank and compliment Congressman McKeon for his 
leadership on this legislation, and I note that one of our 
witnesses today, Tippi Hedren, is not only a famous Hollywood 
actress, but also has dedicated her life to saving and caring 
for dozens of animals that have been mistreated or abandoned.
    The second bill, H.R. 1472, has been introduced by our 
Committee colleague, Elton Gallegly, of California. I look 
forward to hearing the testimony and the witnesses' thoughts on 
how this measure could impact some of the sportsmen and ethical 
issues it raises, including the management of bear populations 
on Federal lands and the traditional long-standing interaction 
between State Fish and Wildlife agencies, Federal land managers 
and their constituents.
    I look forward to hearing from our distinguished witnesses 
on both sides of pieces of this legislation, and we look 
forward to the hearing today. The hearing will, in all 
likelihood, be interrupted about 11 or 11:15 for possibly a 
series of votes. So just be ready to anticipate that.
    I look forward to the testimony the witnesses will give on 
both of these pieces of legislation. We are here to preserve, 
to a great extent, the long-standing practices of understanding 
nature, of the importance of wildlife, the importance of 
habitat, the importance of States rights, and the importance of 
ethical treatment of all of God's creatures.
    At this point I will ask for a UC. I will recognize the 
gentleman from New Jersey, but before doing that I ask 
unanimous consent that Mr. Gallegly and Mr. Miller be allowed 
to sit with the Subcommittee for the purposes of opening 
statements and asking questions.
    Without objection, so ordered. And I now recognize the 
distinguished gentleman from New Jersey, Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
 on Fisheries Conservation, Wildlife and Oceans, on H.R. 1006 and H.R. 
                                  1472

    Good morning, today the Subcommittee will hear testimony on two 
wildlife bills, H.R. 1006, the Captive Wildlife Safety Act and H.R. 
1472, the Don't Feed the Bears Act.
    The first bill, H.R. 1006, introduced by our Colleague Buck McKeon 
would amend the Lacey Act amendments of 1981 to designate certain large 
exotic cats as ``prohibited wildlife species.'' I am a co-sponsor of 
this measure and feel it is appropriate to restrict the ownership or 
possession of certain large cats such as lions, tigers and leopards to 
those organizations who have the expertise to properly care for them.
    I would like to compliment Congressman McKeon for his leadership on 
this legislation and I note that one of our witnesses today, Tippi 
Hedren, is not only a famous Hollywood actress but also a person who 
has dedicated her life to saving and caring for dozens of animals that 
have been mistreated or abandoned.
    The second bill, H.R. 1472, has been introduced by our Committee 
Colleague Elton Gallegly of California. I look forward to hearing the 
testimony and the witnesses' thoughts on how this measure could impact 
some of the sportsman and ethical issues it raises including: the 
management of bear populations on Federal lands; and the traditional 
and long-standing interaction between State Fish and Wildlife Agencies, 
Federal land managers, and their constituents.
    I look forward to hearing from our distinguished witnesses on both 
of these pieces of legislation.
    I now recognize the gentleman from New Jersey but before doing that 
I ask unanimous consent that Mr. Gallegly and Mr. Miller be allowed to 
sit with the Subcommittee for the purpose of an opening statement and 
asking questions. Without objection, so ordered. Mr. Pallone.
                                 ______
                                 

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to welcome all 
our colleagues and the panelists, and if I could just ask 
unanimous consent to enter into the record a statement by Mr. 
Stupak.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Stupak follows:]

 Statement of The Honorable Bart Stupak, a Representative in Congress 
                from the State of Michigan, on H.R. 1472

    Mr. Chairman and Members of the Subcommittee thank you for allowing 
me to submit my testimony in opposition to the Don't Feed the Bears 
Act, H.R. 1472.
    H.R. 1472 seeks to end the hunting practice of bear baiting. I am 
opposed to this bill because it is unnecessary and counterproductive to 
managing the growing Black bear population in this country. H.R. 1472 
would limit the ability of states like Michigan, along with the eight 
other states which allow bear baiting, to manage their bear population 
and to effectively reduce the number of bear--human conflicts.
    The World Wildlife Fund has conducted population surveys that show 
a significant increase in the Black bear population. In every state the 
Black bear has historically inhabited, the population of this animal is 
either increasing or stable. From 1988 to 1996, the number of Black 
bears in the country has increased from an estimated range of 253,000 - 
375,000 to 339,000 - 465,000.
    Wildlife officials in my state of Michigan have estimated that the 
Black bear population has increased to an estimated population range of 
15,000 to 19,000 animals. This is up from the 12,000 animals state 
officials estimated in 1996. In just six years this population has 
increased by at least 25 percent from its 1996 population estimate. 
Doesn't it make sense to leave in place a highly effective hunting 
technique like baiting to manage this growing population? A ban on bear 
baiting would prevent state wildlife officials from using this 
population management tool and may actually lead to a further increase 
in the number of bear - human conflicts.
    In Michigan a ban on bear baiting would be especially harmful to 
the management of these animals because our forests are dense and 
visibility is extremely low. Bear baiting provides hunters with the 
chance to identify that the bear they are hunting is not a sow with 
cubs. This means that hunters can selectively harvest these animals 
ensuring the cubs have a mother to nurture them through development. 
Bear baiting promotes a healthy growing bear population. Banning this 
practice would only lead to out of control bear populations and more 
problem bears foraging for human food.
    The fact is that bear baiting works in states like Michigan. In the 
most recent harvest, of the estimated 2000 animals taken, 82 percent of 
those animals were harvested through bear baiting. This form of hunting 
provides state wildlife officials an effective technique to manage a 
healthy and growing population of Black bears. The federal government 
should not attempt to usurp the states'' authority to manage their 
wildlife.
    Finally, consider the fact that in my state of Michigan the voters 
soundly defeated an anti- bear baiting proposal that was on the ballot 
in the 1996 general elections. If Congress enacts a national anti-
baiting measure it would disregard the will of millions of voters in my 
state.
    I hope the committee will not agree to this anti-hunting measure. 
We should leave wildlife management where it belongs, with the states, 
and preserve bear baiting.
    Thank you for allowing me to submit my testimony.
                                 ______
                                 
    Mr. Pallone. Thank you. I am pleased that you have 
scheduled this morning's hearing to allow us to reassess 
certain aspects of the important relationship we share with 
wildlife. H.R. 1472, sponsored by our Committee on Resources 
colleague Mr. Gallegly, seeks to ban bear baiting on Federal 
lands. This legislation was introduced in March and currently 
has 86 cosponsors, including myself, and six other members of 
this Subcommittee from both sides of the aisle.
    Bear baiting is a controversial hunting practice whereby 
large quantities of human food or animal remains are placed in 
a 55-gallon drum or piled directly on the ground in order to 
lure bears out into the open. Hunters then hide near the drum 
and kill the bears attracted to the bait. As you know, Mr. 
Chairman, it is Federal policy to allow State law to govern 
wildlife management on Federal lands so long as it does not 
conflict with Federal law. Given that nine States allow bear 
baiting, the practice is also allowed on certain Federal lands 
within those States and, obviously, H.R. 1472 seeks to change 
that circumstance.
    I want to be clear, Mr. Chairman. We do not oppose the 
principle that State laws should govern wildlife management on 
Federal lands where appropriate, nor do we oppose hunting on 
Federal lands, as some will no doubt charge. Rather it appears 
this is an instance where a particular hunting practice 
conflicts with prudent and necessary Federal policy and should 
be curtailed. Each of the four land management agencies 
included in this legislation have core policies prohibiting 
visitors from feeding wildlife whether they are bears or any 
other species. Such a policy protects the health and safety of 
the animals as well as the human visitors. Given the obvious 
prudence of this policy, it is inconsistent to allow hunters to 
feed bears as a hunting practice.
    Enactment of H.R. 1472 will not ban hunting, nor will it 
trample States rights; rather it will resolve an obvious 
conflict between Federal and State policies in a very small 
number of States in favor of a Federal policy that will better 
protect both bears and people on Federal land.
    Now, with regard, Mr. Chairman, to the second bill to be 
considered this morning, I just want to commend our colleague 
from California, Congressman McKeon, for introducing his 
legislation, H.R. 1006, to amend the Lacey Act to make it 
illegal to own lions, tigers, or other large exotic cats as 
pets. Evidence indicates that few, if any, private owners have 
the ability or financial resources to adequately protect the 
requisite needs of these large animals at maturity. 
Furthermore, large predatory cats present an unacceptable 
threat to public safety that cannot be ignored.
    The private ownership of exotic large cats is an 
extravagance out of step with the times and with our ethics of 
wildlife conservation. Wildlife should remain wild, and H.R. 
1006 is sensible legislation that recognizes this simple truth. 
This issue, I think, is worth our thoughtful consideration. 
Again, I thank you for having the hearing this morning.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Saxton.

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman. I would just like to 
put in my two cents here to kind of frame this discussion, if I 
may.
    It just seems to me that, first of all, I think this bear 
baiting bill is a bad idea and I want to say why. I am not very 
fond of the notion of luring some species of wildlife into a 
trap for the purpose of slaughtering it, but I think there are 
some very important issues here that I am sure we will hear 
more about from our colleagues and from others, but the issue 
of wildlife management is really at the heart of this issue.
    Wildlife management means one thing in a State like New 
Jersey and another in a State like Wyoming or Alaska or any of 
the other 50 States. So in terms of wildlife management and 
States rights, this is an enormously important issue. Let me 
just give one example from my experience. I am from New Jersey, 
of course, and for whatever reason the deer population in the 
northeastern part of the country over the last several decades 
began to grow, and it grew and grew and grew to the point where 
deer were sleeping in suburban backyards, and ruining shrubs 
and gardens. And with the coming of, what is the tick fever, 
Lyme disease from deer ticks, they became a health problem, 
but, of course, deer baiting in New Jersey was never allowed. 
But the New Jersey Division of Wildlife, Fish and Game, I guess 
it is, finally came to the conclusion that something had to be 
done to control the deer herd. So today, in New Jersey, during 
deer hunting season, deer baiting is permitted as a wildlife 
management tool.
    It seems to me that the same concept holds true to bears 
when we talk about States rights and designing a wildlife 
management plan for the needs of that State.
    There is another issue here too that has to do with 
wildlife management, and I suspect that some of the support for 
this bill comes from people who are against hunting at all, and 
I understand that, but I think that should be made part of the 
record, too. There is some of that at play here. But for those 
folks who have been in the woods bear hunting, it is important, 
just as there are bag limits and seasons for whitetail deer in 
the Northeast, there should be a way to discriminate between 
the bears you want to kill and the bears you don't want to 
kill.
    Now, for those of you who have been bear hunting and seen a 
bear in the wild, they do not often stand still when there is a 
hunter around. And so when a bear or several bears become 
concerned about people being around, they run. And if you have 
ever seen a family of bears running, you cannot tell the mother 
from the father from the cub. It is impossible. So while most 
people who hunt understand that there are some among the 
species that you would not want to kill and hunt, if you can't 
tell the difference, oftentimes the wrong bears get killed.
    With regard to reducing the size of the bear population, 
therefore, with a general hunting permit we kill the wrong 
kinds of bears, but when bear baiting is used a hunter can 
discriminate between big bears and little bears and sometimes 
between males and females. So as a wildlife management tool and 
States rights issues, this issue is of immense importance. And 
this bill, therefore, in my view, is wrongheaded to outlaw in 
all States bear baiting.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Saxton. Mr. Pombo.
    Mr. Pombo. Pass, Mr. Chairman.
    Mr. Gilchrest. Mr. Gallegly.

   STATEMENT OF THE HON. ELTON GALLEGLY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Gallegly. Thank you very much, Mr. Chairman. Mr. 
Chairman, I am pleased that you have scheduled this hearing 
today on H.R. 1472 to develop a consistent policy on Federal 
lands with respect to the feeding of bears.
    I have long served on the Subcommittee of National Parks, 
Recreation and Public Lands, and I have had the privilege and 
pleasure of visiting a large number of national parks 
throughout this country. In parks inhabited by bears, the 
National Park Service goes to great efforts to educate visitors 
about the perils of feeding bears. The Park Service strictly 
enforces the anti-feeding law. While the Forest Service and 
Bureau of Land Management issues similar warnings to visitors 
about not feeding the bears, they do not consistently apply 
this principle in the field. In fact, they allow bear baiting 
on Federal lands in States that permit the practice, 
undermining their very own warnings about the damages of 
intentional feeding of bears. If it is wrong and reckless to 
feed bears in parks, it is also wrong to do so in national 
forests and on BLM lands.
    Bears fed by humans can be dangerous, regardless of where 
they are fed, be it in parks, forests, refuges or BLM lands. 
Once fed, the bears, we are told by the experts, are more 
likely to lose their natural weariness of people and to 
confront them in search of food. This can only result in 
dangerous encounters for both bears and people.
    Baiting is not needed on Federal lands. We know the 
majority of States ban bear baiting on all their lands, public 
and private, and maintain successful bear hunting programs, 
including in my home State of California, where over 25,000 
bears live in a State with 34 million people. However, should 
law enforcement need to use baiting, my bill provides for 
exceptions in those circumstances.
    I want to emphasize that in no way am I opposed to the 
practice of hunting, and I am an advocate of sportsmen's 
rights, but the rights have responsibilities. We will hear 
testimony today that reveals after voters put a stop to baiting 
in Colorado, Oregon, and Washington, hunters in these States 
adapted and learned quickly to pursue bears in a more 
sportsmanlike manner. What is more, the sale of bear licenses 
dramatically increased after the baiting bans were imposed, 
returning more revenues to the State.
    I have introduced this legislation to protect bears and, 
moreover, to protect the people. It is a common-sense approach. 
I urge my colleagues to join in supporting this legislation. I 
appreciate the opportunity to be here today, Mr. Chairman.
    [The prepared statement of Mr. Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
               from the State of California, on H.R. 1472

    Mr. Chairman, I am pleased that you have scheduled a hearing on 
H.R. 1472, the bill I introduced, with my colleague Jim Moran of 
Virginia, to develop consistent policies on Federal lands with respect 
to the feeding of bears. I have long served on the Subcommittee on 
National Parks, Recreation and Public Lands, and I have had the 
privilege and pleasure of visiting parks throughout our great country.
    In parks inhabited by bears, the National Park Service goes to 
great effort to educate visitors about the perils of providing food to 
bears. The Park Service strictly enforces an anti-feeding law. While 
the Forest Service and the Bureau of Land Management issue similar 
warning to visitors about not feeding bears, they do not consistently 
apply this principle in the field. In fact, they allow bear baiting on 
Federal land in states that permit the practice, undermining their very 
own warnings about the dangers of intentional feeding of bears.
    If it is wrong and reckless to feed bears in parks, it is also 
wrong to do so in national forests and on BLM lands. Bears fed by 
humans can be dangerous regardless of where they are fed, be it on 
parks, forests, refuges, or BLM lands. Once fed, the bears, we are told 
by experts, are more likely to lose their natural wariness of people 
and to confront them in search of food. This can only result in 
dangerous encounters for both the bears and people.
    Baiting is not needed on our Federal lands. We know that the 
majority of states ban bear baiting on all of their lands--public and 
private--and maintain successful bear hunting programs, including in my 
home state of California, where over 25,000 bears live in a state with 
34 million people. In no way am I opposed to the practice of hunting 
and I am an advocate of sportsmen's rights, but with rights come 
responsibilities.
    We will hear testimony today that reveals that after voters put a 
stop to baiting in Colorado, Oregon, and Washington, hunters in these 
states adapted and learned quickly to pursue bears in a more sporting 
manner. What's more, the sale of bear hunting licenses dramatically 
increased after the baiting bans were imposed, returning more revenues 
to the state.
    I have introduced this legislation to protect bears and moreover, 
to protect people. It is a common sense approach, and I urge my 
colleagues to support this legislation.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Gallegly.
    Mr. Gilchrest. We will now hear from the witnesses on the 
legislation dealing with the Lacey Act, introduced by Mr. 
McKeon, and I guess I will go to McKeon, the author of the 
legislation, unless Mr. Peterson or Mr. Moran, who were here 
first, have a time conflict.
    Mr. Moran. This is going to take less time, I imagine, so 
let's go ahead.
    Mr. Gilchrest. All right. Gentlemen, thank you, we look 
forward to your testimony. Mr. McKeon, you may begin.

      STATEMENT OF THE HON. HOWARD P. ``BUCK'' McKEON, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McKeon. Thank you, Chairman Gilchrest, and I thank Mr. 
Moran and Mr. Peterson for letting me go first. I apologize for 
being late.
    I want to thank you, Mr. Chairman, and also Ranking Member 
Pallone, the distinguished members of the Subcommittee on 
Fisheries Conservation, Wildlife and Oceans for holding this 
important hearing to discuss the problems associated with the 
private ownership of exotic cats, such as lions, leopards, 
tigers, cheetahs, and cougars. I also want to thank the 
Subcommittee for giving me the opportunity to talk about H.R. 
1006, the Captive Wildlife Safety Act, that my friend and 
colleague, George Miller, and I introduced earlier this year, 
which would put an end to the attacks, hopefully, by these 
animals that bring harm and danger to our families and 
communities. I also want to thank Chairman Pombo for his help 
in moving this legislation forward. I appreciate that help.
    I would also like to acknowledge Tippi Hedren, who has been 
leading this fight for many years. She is a good friend and 
constituent and I understand will be testifying later before 
the Committee.
    The Captive Wildlife Safety Act makes necessary 
improvements to the Lacey Act, which originally was enacted to 
prohibit the ability to import, export, transport, sell, 
receive, acquire, or purchase reptiles, fish, amphibians, 
plants, and other animals taken, possessed, transported or sold 
in violation of U.S. or State law. The law, however, does not 
include these dangerous exotic cats.
    Some estimates state that there are more than 5,000 tigers 
in captivity in the United States. While some are held in 
zoological institutions and preserves, most of these animals 
are maintained as pets, caged in backyards, basements, or 
closets. This problem is not isolated to tigers, as the 
unregulated commercial trade of big cats is flourishing 
throughout the country. These animals can now be purchased at 
auctions or on Web sites that advertise and sell exotic 
animals.
    Lions and tigers are not domesticated animals like your 
family dog or your playful cat, and are inherently hard-wired 
to hunt, attack and defend themselves with brutal force when 
feeling threatened. It is for this reason that the U.S. 
Department of Agriculture, the American Veterinary Medical 
Association, the American Zoo and Aquarium Association, and The 
Humane Society of the United States have taken public stands 
against keeping dangerous carnivores as pets.
    The dangers these big cats pose to people are self-evident 
and well-documented. In Loxahatchee, Florida, last February, a 
58-year-old woman was bitten in the head by a 750 pound pet 
Siberian-Bengal tiger mix. In Lexington, Texas, in October of 
2001, a 3-year-old boy was killed by his stepfather's pet 
tiger. This past April alone, two people fell victim to tiger 
attacks, a 35-year-old woman in Adair, Oklahoma, and a 32-year-
old man in Hennepin, Illinois. Both these tigers were being 
held at unaccredited animal parks. And as you can see, the 
result is all too clear.
    These animals require trained personnel equipped with the 
proper tools and facilities to ensure that they are kept in an 
environment where the probability of an attack is dropped to 
the lowest possible level. How can we expect a person with no 
experience in caring for a tiger or lion to have the knowledge 
and education to take the necessary safeguards to prevent an 
attack? People in neighborhoods and communities all across the 
country should no longer have to take that risk.
    This legislation would add the big cats to the Lacey Act to 
prevent these animals from being sold or purchased in 
interstate or foreign commerce. This, I believe, will greatly 
decrease the commercial aspect of wanting to keep these tigers 
and transport them and, I think, will help lessen the danger of 
an attack.
    In closing, I urge the Subcommittee to quickly consider 
H.R. 1006, the Captive Wildlife Safety Act, which already has 
the bipartisan support of over 40 Members of Congress to 
protect our families and communities from any further terrible 
attacks. I again want to thank the Subcommittee for your 
attention to this issue and once again for inviting me to 
testify today. I appreciate this very much.
    Thank you.
    [The prepared statement of Mr. McKeon follows:]

Statement of The Honorable Howard P. ``Buck'' McKeon, a Representative 
         in Congress from the State of California, on H.R. 1006

    Thank you, Chairman Gilchrest, Ranking Member Pallone and the 
distinguished members of the Subcommittee on Fisheries Conservation, 
Wildlife and Oceans for holding this important hearing to discuss the 
problems associated with the private ownership of exotic cats, such as 
lions, leopards, tigers, cheetahs and cougars. I also want to thank the 
Subcommittee for giving me the opportunity to talk about H.R. 1006, the 
Captive Wildlife Safety Act, that my friend and colleague George Miller 
and I introduced earlier this year, which would put an end to attacks 
by these wild animals that bring harm and danger to our families and 
communities.
    This Captive Safety Wildlife Act makes necessary improvements to 
the Lacey Act, which originally was enacted to prohibit the ability to 
import, export, transport, sell, receive, acquire, or purchase 
reptiles, fish, amphibians, plants and other animals taken, possessed, 
transported or sold in violation of U.S. or state law. The law, 
however, does not include these dangerous exotic cats.
    Some estimates state that there are more than 5,000 tigers in 
captivity in the United States. While some are held in zoological 
institutions and preserves, most of these animals are maintained as 
pets caged in backyards, basements, or closets.
    This problem is not isolated to tigers as the unregulated 
commercial trade of big cats is flourishing throughout the country, as 
these animals can now be purchased at auctions or on web sites that 
advertise and sell exotic animals.
    Lions and tigers are not domesticated animals like your family dog 
or your playful cat and are inherently hard-wired to hunt, attack and 
defend themselves with brutal force when feeling threatened. It is for 
this reason that the U.S. Department of Agriculture, the American 
Veterinary Medical Association, the American Zoo and Aquarium 
Association and The Humane Society of the United States have taken 
public stands against keeping dangerous carnivores as pets.
    The dangers these big cats pose to people are self-evident and well 
documented. In Loxahatchee, Florida, last February, a 58-year-old woman 
was bitten in the head by a 750-pound pet Siberian-Bengal tiger mix. In 
Lexington, Texas, in October 2001, a three-year-old boy was killed by 
his stepfather's pet tiger. This past April alone, two people fell 
victim to tiger attacks: a 35-year-old woman in Adair, Oklahoma and a 
32-year-old man in Hennepin, Illinois. Both these tigers were being 
held at unaccredited animal parks and, as you can see, the result is 
all too clear.
    These animals require trained personnel equipped with the proper 
tools and facilities to ensure that they are kept in an environment 
where the probability of an attack is dropped to the lowest possible 
level. How can we expect a person with no experience in caring for a 
tiger or lion to have the knowledge and education to take the necessary 
safeguards to prevent an attack? People in neighborhoods and 
communities all across the country should no longer have to take that 
risk.
    In closing, I urge the Subcommittee to quickly consider H.R. 1006, 
the Captive Wildlife Safety Act, to protect our families and 
communities from these heinous attacks.
    I again want to thank the Subcommittee for your attention to this 
issue and, once again, for inviting me to testify today on the dire 
need for the transaction of these animals to cease once and for all.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Buck. Mr. Peterson.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I am not sure if I 
am a cosponsor, but add me on because I had an issue like this 
in my district and I support and commend what you are doing.
    But I came here today to testify on H.R. 1472. But before I 
begin, Mr. Chairman, I would like to submit for the record 
extraneous material from the Minnesota Department of Natural 
Resources, the Congressional Sportsmen's Caucus, which I am a 
former co-chairman of, and also the North American Bear 
Federation, if that is possible.
    Mr. Gilchrest. Without objection, so ordered.
    [The letters referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T7680.001
    
    [GRAPHIC] [TIFF OMITTED] T7680.002
    
    [GRAPHIC] [TIFF OMITTED] T7680.003
    
    [GRAPHIC] [TIFF OMITTED] T7680.004
    

              Statement of Brian Bachman, President/CEO, 
                     North American Bear Foundation

    The North American Bear Foundation (NABF) wants to thank 
Representative Collin Peterson for testifying on the behalf of 
responsible management of our natural resources. We believe that the 
states are responsible for managing the wildlife within their borders.
    Minnesota has always used baiting for black bears in their 
management program. Since black bears came under protection and listed 
as a big game species in 1971 in Minnesota their population has 
steadily risen. It is now estimated that around 25,000 black bears now 
inhabit the state up from as little as 8000 animals by estimates in the 
early 1980's. This is at or above the goal that the Department on 
Natural Resources has set as a desired level. Because of the dense 
vegetation in the majority of the black bear range, other hunting 
techniques are not as effective as they are in other parts of the 
country- Baiting allows a hunter to get close to the animal making for 
positive identification and proper shot placement thereby reducing the 
chance of wounding loss. With this being said, baiting of black bears 
is nowhere near a sure thing. Of the 14,639 licensed hunters in 2042 
only 1915 bears were harvested with a hunter success rate of 14%. 
Application permits have fell off this year with fewer applying than 
the number of licenses available. There is some speculation as to the 
reasons for this, but the low hunter success has to play a role. 
Without baiting you will see hunter success decline to where the 
majority of the black bears killed will be nuisance bears. The North 
American Bear foundation does not want the black bear to be return to 
varmint status as they had been for many years.
    Most people will agree that we need black bears inhabiting our 
forests, but when they show up in their yards they are sometimes not so 
supportive. As bear populations continue to rise and people move out 
into natural areas, human/bear conflicts will increase. Hunting helps 
reduce these conflicts by keeping populations stable and instilling the 
natural fear of humans. Minnesota has found the use of baiting a 
valuable tool in managing their black bears. As a point of interest, 
baiting for black bears is not a vanishing method for hunting them, in 
fact after the NABF consulted with the State of Arkansas in 2001 they 
chose to allow baiting for black bears to help manage their increasing 
black bear population. They have been very pleased with the results 
over the last 2 years.
    State wildlife departments have the knowledge and ability to manage 
our wildlife effectively and humanely, keeping the balance between the 
wildlife and the people that inhabit their states.
    Thank you, if you have further questions please do not hesitate to 
contact me.
                                 ______
                                 
    Mr. Peterson. Thank you, Mr. Chairman. As you know, 1472 
would prohibit the use of bear baiting on Federal public land, 
and my home State of Minnesota is one of 10 States that allow 
bear baiting.
    I have been involved in this issue for some time, not 
directly on baiting, but I served in the Minnesota Senate for 
10 years and was chairman of the Fish and Wildlife Committee 
and we had many go-rounds over bear hunting. Back in 1977, we 
set up the current quota system where we split the State into 
areas so that we could better manage the population, and it has 
been fairly successful. Although at the time we started, back 
in 1971, they changed the bear from a varmint, basically, that 
could be shot any time it was causing problems, it was 
basically not protected, we made it a big game animal and set 
up the possibility for hunting seasons. I think in 1977 we set 
up the quota. But at the time we made it a big game animal 
there were 8,000 bear in Minnesota. Today, there are 25,000 
bear. So what has happened, through the management and paying 
attention to the bears, we have actually tripled the population 
in Minnesota.
    In Minnesota, because of the cold weather and the early 
winter and so forth, there is really no other way to hunt bears 
other than baiting. You are not going to see them. They go to 
their dens early. Having a longer season is not going to solve 
it. We have 400,000 deer hunters in the woods every fall for a 
week or 10 days and they see very few bear. So if we didn't 
have this ability to manage, we would not be able to hunt or 
have any way to control the population.
    Now, with 25,000 bears we are actually now above the level 
that the Department has used as an optimum population. Last 
year, the people that applied for permits was down considerably 
because the year before that the success rate went down to 100 
out of seven being successful. And because they had such a poor 
harvest, the Department actually gave everybody a second bear 
permit to try to increase the harvest. This year, the people 
that applied went from 22,000 down to 14,000. So we are having 
problems getting enough hunters into the field and being able 
to manage these bears the way it is without having this extra 
burden put on top of us.
    As Mr. Saxton said, it would be a very bad policy for the 
Federal Government to get involved in managing species that are 
not migratory and are native to the State. That is something 
the States are much better at. They know what the situation is. 
And there is no way you can have a Federal rule that is going 
to work in all the different States.
    What has been the big issue in Minnesota over the years 
when I was there, we had a bunch of people that wanted to hunt 
them with dogs and we made a decision that hunting with dogs 
was a much less preferable way and less humane than baiting, 
because they actually start off with a feeding situation, they 
start the dogs there and then run them all over through the 
woods and then run them up a tree and shoot them, which I would 
argue is not, at least we decided in Minnesota that this is not 
the way that things should be done. Some States allow running 
them with dogs still. I think there are five or six States that 
do that.
    In terms of feeding the bears, this whole idea that this is 
going to cause some kind of problem, unfortunately, we have 
people that feed bears. They are not supposed to but they do. 
We also have bears, especially when we get this many bears, 
where they get into people's groceries. They break into these 
cabins that are not occupied all the time, and these bears 
become a problem because they become less afraid of humans and 
they are the ones that interact and can cause problems. We also 
have a lot of bears ending up in garbage dumps feeding out of 
that.
    Bears are very much sensitive to human scent and the ones 
that have not been fed and have not been around humans are 
unlikely to come into the bait if there is any kind of human 
scent around. The bears that you are going to harvest are more 
likely the bears that have been fed by people or have been in 
garbage dumps or have been breaking into cabins, and so forth, 
and are the ones causing the most problems in their interaction 
with people.
    So it would cause us a lot of problems in Minnesota if this 
bill passed. I don't think it makes sense. The Department of 
Natural Resources is very much against this, the American Bear 
Foundation is very much against this. They have done a lot of 
work to improve habitat and the situation status of bears. And 
what the Bear Foundation is concerned about is that the bear is 
going to go back to the status that it had before, which is a 
nuisance, a varmint, that will be killed any time that it is 
doing damage. And in Minnesota the law is that if a bear is 
doing any kind of damage, you can take that bear whenever you 
want, even though it is now a big game animal.
    So I think this is a misguided piece of legislation. I 
think the people that have proposed it are not familiar with 
what the situations are in certain States like mine, and we 
would just as soon they leave us alone and let the State do 
what they do best in managing these resources.
    So thank you, Mr. Chairman, and appreciate the time to 
testify.
    [The prepared statement of Mr. Peterson follows:]

    Statement of The Honorable Collin Peterson, a Representative in 
           Congress from the State of Minnesota, on H.R. 1472

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today against H.R. 1472, legislation that would 
prohibit the practice of bear baiting on Federal public lands. My home 
state of Minnesota is one of ten states that permits the regulated 
hunting of bears through baiting. As a matter of fact, as a Minnesota 
state Senator I spearheaded the effort to legalize a hunting season for 
bears and was a strong supporter for the use of baiting as a means to 
control a growing population of black bears.
    The Minnesota black bear population is estimated at a stable 
25,000, that is 17,000 more bears than when the practice of baiting was 
legalized. The primary means of harvest, accounting for virtually 100 
percent of the bears taken by sport hunters in Minnesota in 2002, is 
through the use of baiting. The dense forests and the long winters in 
Minnesota take away other harvest options that are used by hunters in 
other states, such as spot-and-stalk and relying on deer hunters to 
harvest bears in the fall. Ideal bear habitat in Minnesota consists of 
densely wooded lowland conifers where visibility is extremely limited, 
and because of the long winters, bears are usually in their winter dens 
before the deer hunting season begins in November.
    Contrary to the belief of many non-hunters, and thanks in part to 
misleading and emotional representations by anti-hunting groups, 
harvesting a bear using bait is not easy. Bears have a keen sense of 
smell and hearing and generally are wary of humans, so bait hunters 
must be skillful and patient to harvest a bear. The Minnesota 
Department of Natural Resources (DNR) has issued specific guidelines 
and restrictions to regulate the use of bait for bear hunting, 
including requirements that the hunter must remove any unused bait once 
the baiting site is no longer in operation. To illustrate the 
difficulty in harvesting black bears from bait, in the state of 
Minnesota in 2002, only 14 percent of the bear hunters were successful 
in harvesting a bear.
    If it were not for sport hunting and bait use, Minnesota's bear 
population would be expected to grow at a rate of approximately 20% 
percent per year. Through the use of a quota system for most of the 
state, and requirements to tag and report all bears harvested within 
the state, Minnesota's Department of Natural Resources (DNR) is able to 
monitor and control the harvest of bears to reflect acceptable social 
and biological carrying capacities.
    The Minnesota Department of Natural Resources authorized licensed 
Minnesota bear hunters statewide to take two bears in 2001, in an 
attempt to increase the harvest and stabilize the population. Since 
then, the DNR has continued a two-bear limit in portions of the state 
where they do not set a quota on licensed hunters. In 2001, there were 
nearly 27,000 applicants for a total of 20,710 permits. The DNR ended 
up with 16,510 licensed hunters (not all hunters drawn end up 
purchasing licenses) and they harvested 4,936 bears. We have seen a 
declining number of applicants for bear licenses over the past four 
years (2000--29,275; 2001--26,824; 2002--21, 886; 2003--14,968). This 
year, for the first time, we had fewer applicants than total permits 
available, therefore the DNR offered the leftover licenses over the 
counter to non-applicants who would like to purchase them.
    In 2002, hunters harvested 1,915 black bears or approximately 7.5% 
of the estimated Minnesota population. According to the Minnesota DNR 
bear experts, this is not only a sustainable harvest, but necessary to 
keep the bear population in check.
    Approximately 13 percent of land open to bear hunting in Minnesota 
is Federally owned. In the three most successful units in 2002, units 
25, 31 and 51, ranged from 7% to 37% percent of the land is in Federal 
ownership. By eliminating baiting as a means to harvest bears on these 
Federal lands, a necessary management tool would be taken away from the 
Minnesota DNR and bear populations could increase beyond the acceptable 
carrying capacity.
    Congress specifically and repeatedly has affirmed the states' 
rights to manage non-migratory wildlife, including on most Federal 
lands except for the National Parks system. This legislation would 
preempt these rights and set a dangerous precedent. Sound science and 
professional wildlife management through the state wildlife agencies 
has been the backbone of America's successful wildlife management 
program, and regulating the method of harvest is a key tool in their 
management options. The state wildlife agencies that would be affected 
by this legislation have determined that regulated use of baiting to 
hunt bears is an appropriate method to harvest bears, and in the case 
of Minnesota, the only viable option to use harvest as a management 
option for black bear populations.
    The history of species protection and recovery in America is a 
tribute to these professional state wildlife agencies and the sportsmen 
who willingly pay the license fees and excise taxes to support wildlife 
conservation. The American black bear, like the white-tailed deer, wild 
turkey, elk and many other game and non-game species, are great 
examples that this system is working, with stable black bear 
populations across its entire range. So, let's leave the management of 
black bears to the state wildlife professionals and view H.R. 1472 for 
what it really is, a thinly veiled attempt by the anti-hunting 
extremists to get the Federal Government to do what they clearly could 
not at the state level.
    Mr. Chairman and my fellow colleagues on the Subcommittee, I urge 
you to let sound science and wildlife professionals manage our wildlife 
resources, and therefore hope that you would join me in opposing H.R. 
1472.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Peterson. Mr. Moran.

   STATEMENT OF THE HON. JAMES P. MORAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you very much, Mr. Chairman.
    Mr. Pallone mentioned that we had, what, almost 90 
cosponsors. We are up now to almost 120. In explaining the 
practice to colleagues, most of them immediately understood. 
This is a very unfair, unsportsmanlike method of hunting, with 
one exception. I asked Barbara Lee yesterday, our colleague, if 
she would go on the bill to ban bear baiting, and she was got 
very emotional and had a very negative reaction, which I was 
surprised at. But in further discussion I had to explain that I 
was talking about bear baiting, not bare bathing; that I was 
using the term B-E-A-R, while she thought I was using B-A-R-E, 
but when we cleared that up, she went on as a cosponsors as 
well. So I want to make sure what we are trying to do here.
    Mr. Gilchrest. It is that Massachusetts accent.
    Mr. Moran. I think that is what the problem was, Wayne. I 
think that this is an important piece of legislation. It 
prohibits a dangerous and an unsportsmanlike practice. I want 
to thank Representative Gallegly for his hard work in raising 
awareness of this issue.
    For many years, every Federal land management agency, 
including the U.S. Forest Service, the National Park Service, 
the partner Bureau of Land Management, and the U.S. Fish and 
Wildlife Service have issued countless warnings to the public 
discouraging the feeding of bears. So this bill simply 
establishes a consistency of policy among all those Federal 
agencies.
    At the same time that we have these warning issued, though, 
hunters continue to be allowed to set up bait stations on 
Federal lands in States where bear baiting is permitted. These 
bait piles are known to consist of hundreds of pounds of human 
scented food, often including pastries, fruits, grease, and 
animal carcasses that are simply dropped on the forest floor or 
loaded into large cans awaiting the attention of bears and 
other animals. There are very few differences between bait 
piles and what a bear might find in a garbage can, dump or 
campground. In fact, one guide boasts on his Web site he goes 
through ten tons of pastries and eight tons of meat so that he 
can guarantee a successful shoot to urban hunters.
    But unlike garbage cans or campground trash stations, these 
bait piles often are not even picked up at the close of the 
hunting season. Bears, as we know, and as Mr. Peterson said, 
are born with a natural wariness of humans. The taste for human 
food, though, causes bears to lose their natural precaution and 
become emboldened in approaching people and their property. 
Hungry human-fed bears cause millions of dollars in property 
damage each year and pose a serious safety threat, occasionally 
result in attacks on humans. They get labeled as nuisance 
animals, they come into conflict with people so that they are 
killed as a means to protect people and their property.
    In recognition of this fact, the National Park Service 
developed a number of bear management plans that include such 
techniques as installing bear-proof dumpsters and bear-proof 
garbage cans. Since adoption of these policies, the number of 
contacts with humans and bears has decreased dramatically. 
Those have been common-sense methods. This is another common-
sense approach.
    In my home State of Virginia, the Department of Game and 
Inland Fisheries became aware of this dangerous practice where 
they become used to human food, so they made it illegal to use 
bait as a training tool for hunting dogs. And in their 
rationale, they said to protect the public as well as bears, we 
need to avoid the dangers of conditioning bears to finding 
food, human food, around human habitat. Artificial feeding and 
resulting concentrations of black bears increases nuisance 
complaints and chances of bears interacting with humans. And it 
is working. This is consistent with that type of policy.
    But beyond that, beyond that common-sense practical method, 
the practice of bear baiting really calls into question the 
sporting nature of hunting. Many wildlife advocates and hunters 
alike have compared the practice to shooting fish in a barrel. 
A lifelong hunter, the former Governor of Idaho and the former 
Secretary of the Interior, Cecil Andrus, has stated, in my 
opinion, bear baiting does not fit within the definition of 
hunting as a sport.
    And just as Federal regulations prohibit duck hunters from 
baiting for waterfowl with corn and millet, because it 
virtually guarantees a successful hunt, so there should be a 
law prohibiting bear baiting on Federal lands. That is why we 
have gained a number of cosponsors on this bill. In the case of 
bears and waterfowl, the use of bait gives hunters an unfair 
advantage because of the animals' overwhelming attraction to an 
easily obtained and highly appealing food source.
    Shooting a bear in the back while its head is stuffed in a 
garbage can to feed does not constitute a fair sport. I think 
we understand that. It is not ethical. So opponents of this 
legislation, we know, are going to argue this should be 
entirely left up to State wildlife managers, but Congress has 
already spoken decisively on these kinds of issues in the past. 
Since the 1930's, the Federal Government has regulated the 
hunting of migratory waterfowl, and in 1971 we reacted to 
restrict the shooting of animals with the use of aircraft. This 
is not treading on untrodden ground. This is clearly consistent 
with previous legislation with regard to hunting regulations.
    So what we are trying to do is to establish a uniform 
policy on Federal land in all 50 States. It is inconsistent and 
detrimental to public safety that Federal land management 
agencies demand citizens not to feed bears but then make an 
exception for bear baiters. Our legislation would protect the 
integrity of the bear population, the public safety, and would 
reduce the number of dangerous and costly encounters with 
humans visiting or living near Federal land.
    So, Mr. Chairman and Committee members, I strongly urge 
your support for consideration of this bill to rid our Federal 
lands of what is a dangerous and an unsportsmanlike practice. 
It is wrong, it is cruel, and I think it runs counter to the 
American principle of fair play.
    Thank you.
    [The prepared statement of Mr. Moran follows:]

Statement of The Honorable James P. Moran, a Representative in Congress 
                       from the State of Virginia

    Mr. Chairman, thank you for holding this hearing and allowing me to 
address the Subcommittee today regarding the ``Do Not Feed the Bears 
Act of 2003,'' a vital piece of legislation that would prohibit the 
dangerous and unsportsmanlike practice commonly known as bear-baiting. 
I would also like to give a special thanks to Representative Gallegly 
for his hard work and dedicated efforts in raising awareness of this 
issue within the halls of Congress.
    For many years, every Federal land management agency including the 
U.S. Forest Service, the National Park Service, the Bureau of Land 
Management and the U.S. Fish and Wildlife Service have issued countless 
warnings to the public discouraging the feeding of bears.
    At the same time, however, licensed hunters continue to be allowed 
to set up bait stations on Federal lands in states where bear baiting 
is permitted. These bait piles are known to consist of hundreds of 
pounds of human scented food, often including pastries, fruits, grease 
and even animal carcasses. They are simply dropped on the forest floor 
or loaded into large drums, awaiting the attention of area bears and 
other animals. There are few differences between bait piles and what a 
bear might find in a garbage can, dump or campground. And unlike 
garbage cans or campground trash stations, these bait piles are often 
not picked up after the close of bear hunting season.
    Born with a natural wariness of humans, the taste for human food 
causes bears to lose their natural precaution and become emboldened in 
approaching people and property. Hungry, human fed bears cause millions 
of dollars in property damage each year and pose a serious safety 
threat, occasionally resulting in attacks on humans. Labeled as 
nuisance animals, bears that come into conflict with people are often 
killed as a means to protect people and property. In recognition of 
these facts, the National Park Service has developed a number of park 
bear management plans that include such techniques as installing bear-
proof dumpsters and bear-proof garbage can covers on garbage cans in 
parks where bears exist. Since adoption of these policies, the number 
of reported bear-human encounters has decreased dramatically.
    In my home state of Virginia, the Department of Game and Inland 
Fisheries has been aware of the dangerous nature of human/bear 
encounters for a number of years. Banning the practice of bear-baiting 
in 1999, the department more recently made it illegal to use bait as 
training tool for hunting dogs. As stated in their rationale for 
adopting these regulations, the Department acknowledged that ``To 
protect the public, as well as bears, the department needs to avoid the 
dangers of conditioning bears to finding food around homes. Artificial 
feeding and resulting concentrations of black bears has been identified 
to increase both nuisance complaints and chances of bears injuring 
humans.'' The effect of these new pro-active Virginia regulations 
mirrors our effort to ban the feeding of bears on Federal land.
    Aside from endangering the public's safety, the practice of bear-
baiting also seriously calls into question the ``sporting'' nature of 
this hunting method. Many wildlife advocates and hunters alike have 
compared the custom to ``shooting fish in a barrel.'' A lifelong 
hunter, the former Governor of Idaho and former Secretary of the 
Interior, Cecil Andrus has stated, ``In my opinion bear baiting does 
not fit within the definition of hunting as a sport.''
    Just as Federal regulations prohibit duck hunters from baiting for 
waterfowl with corn and millet because it virtually guarantees a 
successful hunt, so should there be a law prohibiting bear-baiting on 
Federal lands. Rep. Gallegly and I, along with a large number of 
cosponsors of this legislation, are seeking to extend this logical 
principle to bear-baiting. In the case of both bears and waterfowl, the 
use of bait gives hunters an unfair advantage because of the animals 
overwhelming attraction to an easily obtained and highly appealing food 
source. Let me be very clear, shooting a bear in the back while it's 
head is stuffed in a garbage to feed, does not constitute a fair chase.
    Opponents of this legislation will argue that hunting laws should 
be left entirely up to state wildlife managers and that adoption of 
this bill would represent an unprecedented effort by the ``anti's'' in 
Congress to over-regulate hunting in the U.S. Besides the fact that 
this legislation has the broad support of over 120 cosponsors 
representing Republicans and Democrats of all stripes, Congress has 
already spoken decisively on these issues in the past. Since the 
1930's, the Federal Government has regulated the hunting of migratory 
waterfowl and in 1971, Congress acted to restrict the shooting of 
animals with the use of aircraft. Clearly this legislation is not 
treading on untrodden ground.
    In closing, of the states where bear hunting occurs, a large 
majority have already banned the practice of bear baiting. The ``Do Not 
Feed the Bears Act'' would uniformly implement these states' sound 
decisions on all Federal land in all 50 states. It is inconsistent and 
detrimental to the public's safety that Federal land management 
agencies demand citizens not feed bears, while making an exception for 
bear-baiters. Our legislation would protect the integrity of the bear 
population, the public's safety, and would reduce the number of 
dangerous and costly encounters with humans visiting or living near 
Federal land
    Mr. Chairman and present Committee members, I strongly urge your 
support for consideration of this bill to rid our Federal lands of this 
dangerous and unsportsmanlike practice. It is wrong. It is cruel. And 
it runs counter to the American value of fair play.
    Thank you very much for your time.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Moran.
    I ask unanimous consent to allow Mr. Kind to sit with the 
Subcommittee. Without objection.
    Gentlemen, thank you for your testimony this morning. We 
may have just a couple of quick questions. I am not sure we 
will have too many for the Members, but, Mr. McKeon, can you 
tell us what it is your legislation would do, after it is 
signed into law, to large cats that are now in captivity?
    Mr. McKeon. Make it illegal to transport them from one 
State to another, and I think will lessen their commercial 
value. I don't know why they were originally excluded in the 
act, but I think it will lessen their commercial value and 
hopefully then people will not have the desire to keep them in 
unsafe conditions.
    Mr. Gilchrest. So we are not looking at confiscation of 
animals that are now in captivity in other than unsuitable 
places?
    Mr. McKeon. Well, this doesn't go as far as we would 
probably like to go, but at the Federal level it is probably 
all that we can do right now.
    Ms. Hedren will talk later, and she knows much more about 
this than I do. I have been to her preserve where she does take 
in animals and keeps them in a safe environment that is good 
for the animals and for people. You don't walk up and try to 
pet them, you don't get close to them, and that is how they 
should be kept, rather than in a closet or in somebody's little 
backyard. I think this bill will discourage that.
    Mr. Gilchrest. We appreciate the legislation that you have 
proposed here and will move it through in an expeditious 
manner.
    Mr. McKeon. Thank you very much.
    Mr. Gilchrest. Thank you, Buck.
    Mr. Peterson, is there any restriction in Minnesota State 
law on the kind of bait that can be used for bears?
    Mr. Peterson. Yes, it has to be biodegradable. So that 
feature is in there.
    Mr. Gilchrest. If it is biodegradable, can it be left? I 
have seen, in an interesting fashion in Idaho, not in 
Minnesota, where somebody, and I guess it doesn't make any 
difference in the long run, but somebody spent about 4 hours 
filling up their pickup by unwrapping Twinkies. They spent that 
amount of time putting the Twinkies in the pickup.
    Mr. Peterson. I am not aware of anybody in Minnesota using 
Twinkies. We are not that kind of people, so.
    Mr. Kind. Mr. Chairman, that sounds like the Twinkie 
defense to me.
    Mr. Gilchrest. Well, these two fellas were from Nebraska, 
so I don't know if there is anybody here from Nebraska. I guess 
you leave the Twinkies for the snack food at your schools.
    The other question dealing with that, and I guess we would 
have to look to see if Twinkies are biodegradable, but do they 
clean up after the hunt? Do they go in and take away what is 
left over?
    Mr. Peterson. Yes. I have not heard of any instances where 
we have had problems with people leaving bait out in the field. 
We have quite a few people that do this professionally, that 
guide. We have a lot of people that do it. I have two brother-
in-laws that hunt bear every year and usually are successful on 
Federal land. So the people are, I think, pretty ethical in the 
way they go about this in Minnesota.
    But the point is, and I don't know if I made this clear 
enough, if you pass this, we have the Chippewa and Superior 
National Forests in Minnesota, and that is a lot of where this 
hunting goes on. If we don't have this way to control bears, 
because it is the only way we can hunt them and control the 
population, we are going to have way more bears than we know 
what to do with. Because bears are going to get into dumps, 
they are going to be fed by some people, they are going to move 
out into the area where there are private people and we are 
going to have a lot of problems. We already have three times as 
many bears as we had when we started, and maybe we were too 
conservative in giving out permits to let this thing get out of 
control a little bit, and now we don't have the hunters out 
there.
    It would really tie our hands, cause a lot of problems, and 
would be worse for the bears in the long run because people 
would start shooting them because they are causing problems in 
their backyards or at garbage dumps, and like we used to do 
before when they didn't really have a status.
    Mr. Gilchrest. Overpopulation.
    Mr. Moran, just one quick follow-up. On the Eastern Shore 
of Maryland, we don't have a problem with bears, but as Mr. 
Saxton mentioned, we really have an overabundance of deer, we 
have Mute swans that really wreak havoc on the subaquatic 
vegetation and other water plants, and now a problem with 
resident geese. So to some extent we have increased the hunting 
season to protect the ecosystem of the Chesapeake Bay, and we 
also allow baiting of deer during much of the hunting season. 
In your mind, do you see any reason that that same type of 
management shouldn't be applied to a bear population?
    Mr. Moran. It is a very good question, Chairman Gilchrest. 
I think it is a matter of judgment and what strikes us as fair 
and reasonable.
    There is an overpopulation of deer, clearly, and there is 
really too much contact between deer and residential areas. 
Some of that is because we are developing, as you know, in 
areas that used to be fields, and so on, where they were 
accustomed to living. But I think the deer population is out of 
control in a number of areas and we have to take measures to--
not only for the deer's sake but for many other reasons, you 
have to have a reasonable control of the population.
    With regard to bear baiting, though, I think the difference 
is that this presents a real threat to human safety. You are 
deliberately attracting bears out of rural areas, where, as Mr. 
Peterson said, you don't find bears like you find deer when you 
drive down a country road. But you are deliberately attracting 
them, getting them almost addicted to human food, and then they 
lose their natural wariness of humans and they destroy property 
and you can have serious encounters with human beings.
    That is one of the purposes of this, and that is why so 
many States have banned this practice for public safety 
reasons. Deer don't present much of a threat to human beings, 
and so I think that that distinction is an important one. Plus 
the fact that the bear population in most areas is not 
something that has been out of control, and bears generally 
would much prefer to be in a clearly rural area away from human 
scent, away from human activity. Deer have become almost 
domesticated in some areas.
    So I do think there is a distinction. And at this point 
consistent Federal policy and good sound judgment and even 
ethical practice dictates that we ought to have this kind of 
restriction.
    Mr. Gilchrest. Thank you very much, Mr. Moran.
    Mr. Peterson. Mr. Chairman.
    Mr. Gilchrest. I am really over my time, Mr. Peterson. But 
you can probably include that in a question that some other 
member has.
    Mr. Pallone.
    Mr. Pallone. I just wanted to ask Congressman McKeon about 
this Los Angeles Times article that basically exposed a black 
market in the traffic of exotic cats that was essentially 
fueled by illicit private breeders. I read the article, and I 
have it in front of me, but is this widespread? Do we have any 
evidence to the extent to which this kind of illicit breeding 
is that this covered?
    This is talking about a specific case, but is there 
evidence that this type of practice that was in that article is 
widespread or there are other instances of it?
    Mr. McKeon. I guess ``widespread'' is a relative term, but 
I would say, yes, it is widespread. And, again, Ms. Hedren will 
be able to address that in more detail. She was telling me some 
stories yesterday that kind of curl your hair when you hear 
things that are going on. Like I say, widespread, if you talk 
about 20,000 bears in one State and 5,000 tigers in the 
country, but relatively, I would say yes, it is widespread. 
Enough to be a problem.
    Mr. Pallone. OK, thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Saxton.
    Mr. Saxton. I would just like to use my time to put 
something in the record and then let Mr. Peterson say what he 
wanted to say at the end of your time.
    Our great staffer here, Harry Burroughs, took the time to 
call all the wildlife or bear biologists in each of the nine 
States where baiting is permitted, and in Alaska, for example, 
where the estimated bear population is between 100,000 and 
200,000 total bears, harvested was 2,460, and 414 of those bear 
were killed over bait. In Idaho, there is an estimated 23,000 
bears, and there was a total harvest of 1,830, and 455 were 
killed over bait. In Maine, there are a total of 23,000 bears, 
3,903 were estimated harvested, and 3,173 of them were killed 
over bait. In Michigan, a total estimated population of 17,000 
bears, there were 2,221 bears harvested, and 1,998 were killed 
over bait. In Minnesota, an estimated 25,000 bears, 1,915 were 
harvested, 1,900 of them killed over bait. In New Hampshire, 
there are 5,000 bears, estimated, 338 were taken, and 92 killed 
over bait. In Utah, there is a 3,500 estimated bear population, 
85 bears harvested, only 8 were killed over bait. In Wisconsin, 
13,000 estimated population, 2,437 harvested, 1,720 killed over 
bait. And in Wyoming there is no estimated bear population, but 
there were a total of 324 taken and 171 were killed over bait.
    I think this demonstrates the point I was trying to make in 
my earlier remarks, that States have different needs in terms 
of wildlife management and these numbers point out that the 
policies and the hunting patterns in different States reflect 
those different needs. So, again, it seems to me to have a 
Federal policy would eliminate the flexibility that States have 
on this issue and is incorrect.
    I yield at this point to Mr. Peterson.

    [A chart submitted for the record by Mr. Saxton follows:]

    [GRAPHIC] [TIFF OMITTED] T7680.005
    

    Mr. Peterson. Thank you, Mr. Saxton, I appreciate that. And 
as he pointed out, in Minnesota, just about the entire harvest 
was over bait, which corroborates what I said. It will take 
away our management tool.
    I really disagree with Mr. Moran's assertion that deer do 
not cause danger to human population. In these areas where we 
have all this deer, we are having car accidents and people 
injured. There is way more people injured by deer than by bear 
because of all the interaction they have with automobiles. So 
if his theory is that it is somehow or another good to 
eliminate baiting of bear on Federal land, then it seems to me 
it would also be good to eliminate baiting of deer or any other 
wildlife, if you are going to follow that logic, which I don't 
support. But it is hard for me to understand why you would pick 
out bear and not pick out these other species, which in 
Minnesota we don't allow baiting of deer and is very much 
opposed by our hunters. They would rather hunt in the normal 
way.
    But in the case of bear, as I said earlier, if we don't 
have this, we are not going to have a way to control them. And 
what will happen, Mr. Moran, is that the bear that are now in 
the State forests that are not interacting with humans are 
going to be forced, when we get this population explosion, will 
go out into the private area, just like happened with timber 
wolves.
    We had timber wolves way outside of their range because we 
had way more timber wolves than we should have and we were 
prohibited from shooting them or trapping them. That is now in 
the process of being changed. But I had timber wolves down 
where I grew up, where it would be unheard of. It was 100 miles 
out of their range. But we had way too many of them. And that 
will happen with bears if you eliminate baiting in Minnesota on 
the Federal land. We are going to cause more conflict with 
humans and more problems, not less. So I want people to be 
clear about that.
    Mr. Gilchrest. Thank you, Mr. Peterson. Thank you, Mr. 
Saxton.
    The Chairman of the full Committee, Mr. Pombo.
    Mr. Pombo. Thank you, Mr. Chairman. Mr. Peterson, just so I 
understand this, when you talk about the bear hunting that goes 
on and the baiting, is that in a suburban area? Are you trying 
to draw the bears into suburban areas?
    Mr. Peterson. No. There is no bear hunting that goes on 
anywhere--well, there is some north of the Twin Cities, 50, 60 
miles. But most of it goes on up in the northern forests, in 
the Superior and Chippewa National Forests, which is a big 
area, northeastern Minnesota, north central Minnesota. That is 
where the majority of this hunting goes on.
    What we have seen in the last couple of years, with this 
increase in population, we have seen the bears now move out 
into the private areas. For example, I have a bee farmer, a 
honey farmer up in Greenbush, that is imploring me to come up 
and help him shoot bears because he has too many bears getting 
into his honey and causing problems. And this is going to be 
what is going to happen. You are going to see more and more of 
that. But there is nothing going on in the urban or suburban 
areas.
    Mr. Pombo. So when they talk about the bears that get used 
to human food, it is not the bears that are in the suburban 
area?
    Mr. Peterson. No, it is generally, if that is happening, it 
is because they are in the garbage dumps. That has been the 
traditional problem, and you do have some people in the city 
that don't know any better that feed them. They have a cabin up 
north, or whatever. And we try to educate them not to do that. 
It is not our people up there that are doing it, it is people 
that come up for the weekend out of the city that don't know 
any better that do that, and then we have problems.
    Some of these cabins that sit empty during the week and the 
bears might break into them and get into the food. And as I 
said earlier, the ones that are likely to be drawn into the 
bait are these bears that have gotten into food not by baiting 
but have gotten into human food by other reasons that are more 
likely to come into the bait. Those are the ones that are 
causing us troubles in the first place. So the management ends 
up taking the bears that are the ones that probably should be 
taken, that are going to cause us problems.
    Mr. Pombo. So if the bears are in the garbage dumps and 
near the suburban areas, there is not a season on those bears?
    Mr. Peterson. In Minnesota, we have a quota by areas, and 
there is not hunting that I am aware of that goes on around or 
in the metropolitan areas.
    Mr. Pombo. But if a bear becomes a problem?
    Mr. Peterson. They will shoot them. The law allows you to 
shoot a bear that is causing you a problem in your house or 
backyard or is causing some kind of problem in an urban area.
    Mr. Pombo. So you are talking about two separate areas of 
the State and different types of management?
    Mr. Peterson. Yes. But the bears very seldom get into the 
Twin Cities Metropolitan Area. We have more problem with deer. 
Deer is a big problem there. We have had to have archery people 
go in there and shoot them early in the morning so people 
aren't offended to try to protect them from themselves where 
this is getting out of control.
    And, as Mr. Gilchrest mentioned, we have a big problem with 
Canadian geese now. But primarily in the Twin Cities area it is 
deer and geese. The bear don't go into--moose sometime get in 
there and run around, but I don't know of a bear.
    Mr. Pombo. But it is your position that this is an issue 
that should be left to the State wildlife management?
    Mr. Peterson. Absolutely. If we don't have this ability to 
do this, we are going to basically not be able to harvest bears 
at all. And what is going to happen is they are going to move 
out into the private land area, in my district, basically. They 
are going to move out of Oberstar's district into my district 
and they are going to cause all kinds of problems with 
livestock, with bee farmers. And that is what is going to 
happen if we don't have a way to harvest them and keep the 
population in check.
    Mr. Pombo. Mr. Moran, just quickly, just so I understand 
what your position is in terms of the deer baiting, what Mr. 
Gilchrest was talking about, that--it is your position that 
that is part of the management tool that they have in Maryland, 
and that is OK in that particular case? I am not trying to lead 
you, I am just trying to understand.
    Mr. Moran. As I said, I think this is a matter of judgment, 
Mr. Pombo. And at this point, I think there is a difference 
between the deer population and the bear population. And I 
think to some extent we are creating the problem with the--with 
bear baiting. We have a problem with deer population in a 
number of areas. I don't think we ought to deliberately create 
one by getting bears accustomed to human food. And you see a 
number of ads of hunters advertising an almost guaranteed kill 
of bears. And the way they do that is by deliberately 
attracting bears into areas where there is human food. And it 
is--I think that, at this point, it would be in the public's 
interest, and I think would be consistent policy for the 
Federal Government to ban that form of bear baiting because I 
don't think that is consistent with normal hunting practice. A 
number of people who are far more expert than I have said that. 
And the majority of States have banned it. So I think makes 
sense to have a consistent Federal policy, only on Federal 
land.
    Mr. Pombo. Thank you. I was not aware that they did baiting 
on deer in Maryland. I hadn't heard of that before, but that is 
an interesting twist to this.
    Thank you, Mr. Chairman.
    Mr. Saxton. [Presiding.] Ms. Bordallo.
    Ms. Bordallo. No questions.
    Mr. Saxton. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. I want to thank the 
Chair and Ranking Member for allowing me to sit up on the dais 
today.
    I do appreciate the well intentions of the authors of what 
you are trying to get at, but I would have to concur with Mr. 
Peterson. Obviously, as a Representative from Wisconsin, it is 
one of the States that do allow, through the State and wildlife 
agencies, bear baiting. It really is a management issue.
    Just to preface my remarks, I have never bear hunted 
myself, although I love to hunt and I love to fish, but I do 
know a lot of people who do. Those who are familiar with bear 
hunting will be the first to admit it is a very difficult sport 
to go out in the woods and try to find them, locate them. 
Typically, they are in very thick terrain, thick underbrush, in 
order to locate them.
    But this really is, as Mr. Peterson has already testified 
to, a very crucial management tool in the States. We need to 
remind ourselves, however, that it has been long-standing 
policy of Federal land management agencies to defer to State 
agencies in the management of their own fish and wildlife 
within the State borders. And I see Mr. Hogan is here, Deputy 
Director of Fish and Wildlife, already the Park Service and 
Fish and Wildlife have the authority they need to ban baiting 
in the national parks throughout the Nation, as well as the 
refuge systems throughout the Nation. But it is not an issue 
that has gone without much thought and consideration. In 
Wisconsin alone, each county, of 72 counties, has their own 
conservation offices in the county. The State itself has a 
conservation board. The DNR holds hearings every year, 
throughout the entire State, public hearings, where people can 
come out and testify with regard to these management practices 
of wildlife and fish in the State. There is a lot of vetting 
and consideration that takes place, at least in the State of 
Wisconsin, in regard to the practice of what is being done out 
in the field.
    This is a growing problem, as Mr. Peterson testified, in 
northern Wisconsin especially, the management and control of 
the bear population. Just last year we had two kids who were 
assaulted by bears in northern Wisconsin, one that was mauled 
pretty badly.
    Last spring in my hometown of La Crosse, which is a fairly 
large urban city, one of the elementary schools just on the 
outskirts of town, it was quite a thrill for the kids during 
recess when a black bear was found meandering through the field 
right next to the school. DNR and law enforcement were called 
out in order to track down the bear. It was tranquilized and 
tested, and it was found to be rabid.
    Just 2 weeks ago, there was a relative of mine in northern 
Wisconsin who actually had to kill a bear at his doorstep 
because it was very aggressive, and it was trying to get into 
the house, and there was a young child in the house at the same 
time. So these issues have been vetted, and I think well-
thought-out, in the States that allow this type of baiting. And 
I think we need to be very careful on what we are calling here 
the one-size-fits-all approach given the uniqueness of each 
State.
    Mr. Moran, I appreciate your intentions, the motivation 
behind the bill and that, but even you are saying that, as a 
matter of judgment, it should be fair and reasonable. I think 
that is the standard that is being applied in all the States 
that do allow some form of bear baiting. Is it fair and 
reasonable given the management problems we now have in 
controlling the bear population? I think that is really what is 
at stake right now. Do we really want to instill the value 
judgment or perception here in Washington on the various States 
that might have different unique challenges in controlling this 
population? One that, if it does get out of hand, we are going 
to be see more incidents of what I just described here today.
    Mr. Peterson, in the question for you is what is--I am not 
as familiar, with what the procedure is in Minnesota, but is 
there a similar type of vetting process in Minnesota, where 
there are public hearings held throughout the State, giving the 
public a chance to come out and comment in regard to wildlife 
management issues?
    Mr. Peterson. When I was Chairman Of Fish and Wildlife 
Committee, we went to Wisconsin and studied your system. You 
have a process where your people are much more involved than 
ours, but the DNR goes out and holds hearings on the different 
seasons, not as structured as yours and not by county, but they 
do go out and allow people to have input. And it is--we were 
harvesting, I think, about 3,500, 4,000 bears, something like 
that. Last year it went down to 1,900. They tried, as I said, 
to give people two permits, and this year, for whatever reason, 
the application for licenses went from 23,000 down to 14,000. I 
think because the success was so bad the year before; I think 
one out of 7 hunters were successful. So it is not an easy 
thing. Normally--
    Mr. Kind. I would agree with you. It is a very difficult 
sport. It is hard to find them to begin with, and when do you, 
it can be very dangerous with the hunting of bears. So I 
certainly appreciate the members' testimony today and the 
motivation that might be underlying the legislation, but I 
think we need to be careful in regard to establishing a one-
size rule on all the States, given the unique challenge that is 
some of the States are facing.
    In regard, to the deer population, we had close to 15,000 
automobile accidents in Wisconsin because of the exploding deer 
herd there. We are baiting, but for a different reason, because 
of the spread of chronic wasting disease in the State, and we 
don't want the congregation of deer in certain locations for 
fear that the disease is going to spread. But, again, that is a 
management decision that had to be made given the unique 
situation in Wisconsin. I think that is how we need to look at 
this, on a State-by-State basis, and give some credit to the 
State agencies and to the public in the various States, who 
have to live with the rules within their own borders.
    And, again, I appreciate you allowing me to sit on the 
Committee today. Thank you.
    Mr. Saxton. Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Saxton.
    I would like to ask my good friend from Minnesota, Mr. 
Peterson, a couple of questions. But before I do, I would like 
to preface my questions with a statement. That is, the record 
is very clear on my involvement with sporting activities. This 
is my 9th term on this Committee. I have served with several 
chairmen, including one Ranking Member that ended up as the 
Secretary of the Interior. My voting record is one I am very 
proud of, and I think is consistent with sportsmen across this 
Nation for over 17 years. However, this particular issue, I 
believe, has really pushed the envelope with me. And that is 
the reason that I introduced this bill.
    Mr. Peterson, you made reference to timber wolves and the 
fact that they migrate. Do you see any correlation at all 
between timber wolves and bears as it relates to their natural 
instinct and the way they interface? I am not suggesting that 
we ban baiting for timber wolves.
    Mr. Peterson. I am not a biologist, but the timber wolf 
range in Minnesota is similar to the bear range. And they are 
very secretive animals. They are very difficult to hunt or to 
trap, but we have been banned from doing anything to control 
them. And they have moved way out of their range and caused all 
kinds of problems with taking livestock and so forth. And I 
think the same thing will happen with bears if we don't have a 
way to manage them. That was my point.
    Mr. Gallegly. That was one of the reasons I asked the 
question, was if the natural migration and so on and the psyche 
of the animal is similar. And that gets back to the threshold 
issue here. Forty-one of the 50 States in this Nation, 41 of 
50, ban the practice of bear baiting.
    Now, there is one State that I think is clearly an 
exception, and that is the State of Alaska. I am sure the 
gentleman from Alaska, my good friend, and he is, I like to 
think of him as a good friend, Don Young, a person I have 
admired and respected for many, many years. He has a unique 
situation in Alaska. Alaska is not contiguous to any one of 
these other 41 States that do ban bear baiting.
    Getting back to the issue of the timber wolf. As you said, 
sometimes they will get as far as a hundred miles out of their 
natural habitat. And the reason I asked the question do bears 
migrate in a similar way, and I think I understood the answer 
as yes, how do we get the bears--let's say that Minnesota, we 
do believe in States' rights. And on that issue, how do we get 
a bear to stop at the State line where you have a bear baiting? 
Is there--
    Mr. Peterson. Well, the bear in Minnesota, if they are 
going to go across the State line, they will probably go to 
Wisconsin or they will go to Canada. And they are not going to 
go to North and South Dakota, because you are getting into farm 
country. They very seldom go over that way. Both Manitoba and 
Ontario allow baiting of bear for the same reason that we do, 
because that is the only way that they can control, have a 
management practice that is workable.
    You know, we are, I think, unique, like Alaska. There is no 
other way to harvest bear in Minnesota than to bait. And as Mr. 
Saxton--
    Mr. Gallegly. The issue is certainly different in Alaska 
because it is not contiguous to any--I understand your 
argument.
    Mr. Peterson. It is contiguous to Canada, like I am. But 
the thing is, there are some of these States that ban deer 
hunting--or ban bear baiting that allow deer baiting. In 
Minnesota, we see that as reprehensible, as you see bear 
baiting, the sportsmen do. They don't believe in deer baiting. 
And you know, you could argue that that is as inhumane as bear 
hunting over bait, if you want to look at it that way. I don't 
particularly see it that way.
    Mr. Gallegly. So you are not going to be introducing a bill 
to ban--
    Mr. Peterson. I am just suggesting that following this, 
what you want to do is maybe you ought to ban deer baiting on 
Federal land as well. But Maryland, for example, allows baiting 
of deer but not baiting of bear. Well, I don't see the logic. 
There is not a lot of difference.
    Mr. Gallegly. In any event, I think the issue, having to do 
with the sportsmen issue, of shooting a bear in the butt when 
he has his head in a can eating domestic food--
    Mr. Peterson. That isn't what happens. They are not 
shooting them while their head is in the can. It is the same 
thing, when you have a deer baiting situation, the deer come in 
on that field where the--
    Mr. Gallegly. I am talking about bear not deer.
    Mr. Peterson. It is the same thing. The deer come into that 
bait, they are shot coming into the bait, the same way the bear 
is shot coming into the bait. There is no difference. That is 
my point.
    Mr. Gallegly. I see my time is expired.
    I have great respect for the gentleman from Minnesota, the 
gentleman from Alaska. But let's just say that I would rather, 
much rather, be trying to make my argument the than yours. I 
yield back.
    Mr. Saxton. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    I ask unanimous consent to submit for the record the 
testimony of the Honorable John Dingell, who opposes this 
legislation, and a series of letters I received from different 
interest groups covering the whole spectrum including 
Governors, most of the State fish and game people, even from 
those States that do not have baiting or do not allow baiting 
but which oppose this legislation. So I ask unanimous consent 
to submit.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
           Congress from the State of Michigan, on H.R. 1472

    Chairman Gilchrest, Ranking Member Pallone, Former Chairman Young, 
distinguished members of the Subcommittee, thank you for the 
opportunity to testify.
    We are today again discussing another anti-hunting piece of 
legislation, which is nothing more than a thinly veiled attempt by non-
hunters to restrict the rights of hunters and sportsmen. Legislation of 
this character is introduced in almost every Congress. And in every 
Congress, those of us from states that permit the baiting of black 
bears--a legitimate and necessary management tool--are forced to defend 
against needless attacks from anti-hunting organizations.
    Let me be clear. H.R. 1472 is a totally unnecessary preemption of 
state authority by Congress and should advance no further than this 
hearing.
    This legislation is properly described as an anti-hunting 
enterprise. I would note that it has been attempted in previous 
Congresses without success. As you know, the authority of state game 
agencies for fish and wildlife management on most Federal public lands 
has been affirmed by Congress in numerous Federal statues. The issue of 
wildlife management, including the lawful means of hunting game, is 
specifically the domain of the states.
    State fish and wildlife agencies have authority and responsibility 
for managing bears and are doing a commendable job. Contrary to the 
assertions of the proponents of this legislation, black bear 
populations in North America are robust and generally increasing. From 
the late 1980's to 2000, the overall black bear population has 
increased 21 percent. Black bear populations across the United States 
are at historic highs, and hunting is a valuable management tool in 
keeping rising bear populations in check.
    Baiting is a means and method of take, and as such is regulated by 
the states. Ten states, including my home state of Michigan, allow 
regulated baiting as a method of hunting bears. This is principally in 
order to harvest an appropriate number of bears to maintain them at 
levels consistent with society's tolerance level, which is generally 
below the biological carrying capacity for black bears. The 
professional opinion of the state wildlife agency in Michigan is that 
baiting is ethical and legal and one of the best ways to reduce bear 
numbers.
    The proposed legislation would reduce the annual bear harvest in my 
home state of Michigan. As a historically legal harvest method, baiting 
has remained an integral part of Michigan's bear management strategy. 
About 83 percent of Michigan hunters used bait in 2002.
    The management of bear harvest should be left up to the states. 
Most of the states that do not allow bait for hunting bears tend to 
have habitat which allows for ``spot and stalk'' hunting; have many 
more hunters than Michigan does; or have climates that allow bears to 
den late in the year, so they can be hunted during deer and elk season.
    Bear hunting in Michigan is different than in other states. When we 
hunt bears in Michigan, it is in densely wooded forest terrain where 
visibility is low. We have less than half as many bear hunters as 
several states that do not allow bait hunting. Furthermore, Michigan's 
bear population is already in dens by the time firearm deer season 
begins in November. These are just a few of the reasons why it is 
imperative for state wildlife agencies to have the authority and 
responsibility for managing wildlife. A one-size-fits-all Federal 
approach to wildlife management is neither necessary nor warranted.
    I should also note that the people of Michigan have also spoken on 
this issue. In 1996, voters in Michigan soundly defeated a proposal to 
ban bait hunting for bears.
    Almost 15 percent of land open to bear hunting in Michigan is 
Federally owned. Additionally, almost a quarter of the western end of 
the Upper Peninsula is in Federal ownership, and almost half of the 
bears harvested annually in Michigan are from this area. The proposed 
legislation would have far-reaching and serious negative consequences 
for Michigan's annual bear harvest.
    In summary, this legislation is unnecessary, unwarranted and 
unwise. Simply put, this is an anti-hunting measure, and I urge the 
members of the Subcommittee to reject it.
    Thank you, again for the opportunity to testify.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7680.006
                                 

    [NOTE: Additional letters and articles submitted for the 
record have been retained in the Committee's official files.]
    Mr. Young. Mr. Chairman, may I suggest to my good friend 
from California, I don't think you quite understand those 
States that do allow baiting. We shoot very few bears over bait 
in Alaska. Most of our bears are shot for consumption, and are 
usually shot primarily by watching where they are eating, berry 
patches or fishing streams. We harvest quite a few bears in 
Alaska because most of my Native people do eat bears. I frankly 
have eaten a lot of black bears. I do not eat grizzly bears. I 
don't even shoot grizzly bears anymore--unless they are messing 
with me. By the way, they will mess with you.
    This really is about the State management of game, and how 
they decide it is best to do so. I know for a fact that hunting 
bears over bait is actually probably more legitimate in the 
sense that you can choose which bear you are going to shoot. 
Primarily, you want a large bear for two reasons, one it is a 
trophy, and, second, the bear, if he has his way, will kill the 
cubs so that the sow will get into estrogen, and we will have a 
period of heat, and he can breed her. That is the facts of 
life.
    So if you want to manage bears, you actually use the 
sporting or the baiting system for a much better way than 
trouncing through the woods and saying where, bear, are you, 
and hoping you jump one because you don't know what you are 
going to jump. It is usually a snap shot. You talk about 
shooting one in the butt when his head is in the can, most of 
the time, bears run away from you. Most of the time, you will 
probably hit that bear in the lower side of his body. That is 
unfortunate. I, frankly, have had the privilege of shooting a 
very large brown bear. Three of them, in fact. But, one, I 
learned how to shoot very well, because I shoot a very small 
weapon. I shoot a 308. I got in a bunch of seven of them eating 
fish out of a heavy Salmon stream. And I watched the bears eat 
and picked out the biggest one. When he finally ate his full 
and laid down and went to sleep, I shot him. There was a reason 
for that. I didn't want him to know where I was. You may not 
think that is very sporting, but it is similar, in fact, to the 
baiting with the artificial baits. So although your intentions 
may be well and good, it's not what, as Mr. Moran says, this is 
not an attempt to, I think, mislead the bear. It is an attempt 
to manage it correctly. It is a State issue. No time has this 
Congress ever picked out an individual species to manage from 
the Congressional floor. Never. And we should not be doing it 
today. We shouldn't even think about it. So I do know you have 
good intentions, but with all due respect, this is an ill-
thought-out piece of legislation. I can ask Mr. Moran. How many 
bears do you have in Alexandria?
    Mr. Moran. Mr. Young, we both know that we represent very 
different districts, very different demographics and 
geographies. I respect your representation of the people that 
you are elected to serve. You represent them extraordinarily 
well. I do think, on this issue, there is some inconsistency, 
at least in the argument that if you don't manage, harvest the 
bear population then they are going to--the implication is 
overwhelming, eventually, the human population.
    But then, on the other hand, we are told by most of the 
people who have argued in favor of this that they are very 
difficult to find and that is one of the reasons why you need 
to bait, because it is so difficult to find them in the wild. I 
don't think we have an over abundance of a bear population. We 
do with the deer population. I think you can make a legitimate 
argument, as people in Minnesota have done, that even baiting 
of deer takes away the sport. If you have got that many deer, 
then it is relatively easy to find enough to shoot, but I am 
not going to get into the issue of baiting the deer population.
    I think this is a different issue. For one thing, since we 
have gotten into the comparison between deer and bears, the 
fact is that deer don't eat foods that attract bears. They are 
not a serious safety threat unless you are driving.
    Mr. Young. I just asked you how many bears were in 
Alexandria. What you are trying to do now is regulate--
reclaiming my time. You are trying to legislate what is right 
for my people. Now, if your people don't want bear hunting, you 
pass a resolution in your district saying no bear baiting, I 
would support it. That is your prerogative. You have no right, 
nor do your people have any right, of telling Alaskans how to 
manage their game. That is the thing irritates me the most. We 
had this argument once before, and you know my reaction to it. 
You know you are wrong. You may be right for Alexandria, but 
you don't know anything about Alaska. You are sitting down here 
in Washington D.C. saying how they are going to manage their 
game. That is incorrect. That is not Democracy.
    Mr. Moran. Don, I fully respect and understand where you 
are coming from. But I also--we have run into lot of issues in 
the past where, because we represent such different 
constituencies, we do come into conflict with Federal policy. 
But I would suggest that here we are only talking about Federal 
land. I understand an awful lot of Alaska is Federal land. But 
let me say--
    Mr. Young. Now, you are on the track. Ninety percent is 
Federal land.
    Mr. Moran. But your response is, basically, you are saying 
why are you city slickers telling me what I should be doing in 
Alaska, when you are representing an urban area? The fact is, 
though, that my constituents do, through their taxes, provide 
the means to purchase and to maintain that Federal land. As 
long as it is Federal land, every constituent of this, of the 
United States of America, does have a vested interest in the 
way it is maintained.
    We are not talking about the management of private land or 
State-owned land in any State. We are talking about Federal 
policy. We are trying to make that Federal policy consistent. 
When 41 out of 50 states have decided it is a wrong practice, I 
think it is a legitimate legislative approach to have a 
consistent policy.
    Mr. Young. OK. Jim, you don't know what you are talking 
about, No. 1, and No. 2, my constituents live on that Federal 
land. They live off those bears. And you ain't going to mess 
with it. This bill ain't going to see the light of day. I 
guarantee you that. Because you are messing with my people and 
that is the wrong thing to do. You are doing something totally 
wrong. I wish I had my Native people in this room right now, 
you would walk out of here with no hair on. Thank you.
    Mr. Saxton. On that note--
    Mr. Moran. How do you feel about this issue, Mr. Young?
    Mr. Saxton. We would like to thank you both for being here 
with us to express your points of view this morning. We will 
excuse you now and move on to the next panel.
    Thank you for being here.
    Mr. Moran. Thank you, Mr. Chairman.
    Panel II is made up of Mr. Matt Hogan, the Deputy Director 
of the U.S. Fish and Wildlife Service; Ms. Elizabeth Estill, 
Deputy Chief Programs, Legislation and Communications, U.S. 
Forest Service, accompanied by Jim Gladen, Director of 
Wildlife, U.S. Forest Service; and Mr. John Baughman, Executive 
Vice-President International Association of Fish and Wildlife 
Agencies.
    While you are taking your places, we have been informed 
that we will be having a vote in the next 10 to 20 minutes. And 
so when that occurs, we will be taking a short recess.
    Thank you for being with us this morning. We are, as you 
have noted, operating under the 5-minute rule. So each of 
your--in each case, your written testimony will be included in 
its entirety in the record.
    Mr. Moran. And if you would like to start, Mr. Hogan, and 
we are anxious to hear your testimony.

           STATEMENT OF MATT HOGAN, DEPUTY DIRECTOR, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Hogan. Thank you, Mr. Chairman. Good morning. Good 
morning to the members of the Subcommittee.
    As you said, I am Matt Hogan, Deputy Director of the U.S. 
Fish and Wildlife Service. I appreciate the opportunity to 
testify here today on H.R. 1006, the Captive Wildlife Safety 
Act, and H.R. 1472, the Don't Feed the Bears Act.
    H.R. 1006 would amend the Lacey Act to define prohibited 
wildlife species as any live lion, tiger, leopard, cheetah, 
jaguar or cougar. The bill declares it a prohibitive act, with 
some exceptions, for any person to import, export, transport, 
sell, receive, acquire or purchase in interstate or foreign 
commerce any of these prohibited wildlife species.
    In sum, while we share the Subcommittee's concern about the 
presence and proliferation of big cats in the pet trade, we 
cannot support this legislation for the reasons I will briefly 
outline.
    H.R. 1006 would provide little additional protection to big 
cat species in the wild, a high priority for the Fish and 
Wildlife Service. It may even fall short of its goal of 
regulating the big pet trade. In addition, we are concerned 
about the Fish and Wildlife Service's ability to meet the 
extended enforcement mandate created by this legislation which 
introduces new prohibitions without providing additional 
resources for their enforcement. Moreover, the mechanism 
created by this bill appears to provide, at least in some 
instances, coverage that is duplicative of existing law. The 
Endangered Species Act already prohibits the interstate sale 
and the international trade of tigers, leopards, cheetahs, and 
jaguars. While H.R. 1006 would extend such prohibition to two 
unregulated species, it would not ban private ownership or 
intrastate sale of the prohibited species. It would also exempt 
numerous groups and individuals from its prohibitions.
    The Fish and Wildlife Service has an authorized force of 
253 special agents to enforce our wildlife laws and treaties 
that protect trust resources, including endangered species, 
marine mammals and migratory birds. Given the scope of the 
agency's conservation mission, the limited manpower available, 
and our need to focus on our highest priority needs, the Fish 
and Wildlife Service concentrates its enforcement efforts on 
preventing illegal activities that jeopardize the continued 
viability of wild populations of protected species.
    In this respect, most of the thousands of big cats in the 
pet trade in this country are captive-bread animals. While big 
cat trafficking maybe be a public safety problem and animal 
welfare concern, it is not, at its core, a wildlife 
conservation issue. H.R. 1006 would expand Fish and Wildlife 
Service's enforcement responsibilities into an area that is not 
a high priority for us at this time. By including lions and 
cougars in the list of prohibited cats, this bill would also 
extend the Fish and Wildlife Service's enforcement mandate to 
policing currently legal activities involving interstate and 
foreign commerce of species that exist in abundant numbers in 
the wild and that are currently not subject to the same 
rigorous protection as the other defined species.
    In closing, I would like to reiterate that we share the 
Subcommittee's concerns about the increased presence of big 
cats in the pet trade. However, because of the issues I have 
outlined today, we cannot support this legislation.
    I am also presenting the Department's views on H.R. 1472, 
the Don't Feed the Bears Act. H.R. 1472 could a require the 
adoption, where necessary, and enforcement of regulations to 
prohibit the intentional feeding of bears on Federal public 
lands in order to end the hunting practice known as bear 
baiting.
    Although it is unclear from the bill text whether the 
legislation is applicable to black bears or all bears in 
general, I should point out that in North America most black 
bear populations are currently robust and generally increasing. 
Overall, it appears that States are doing an excellent job 
managing this species.
    In the interest of time, I am not going to provide an 
overview of the various Interior Department Agencies' 
management policies in their relationship to the general 
management of wildlife species, but they are in my written 
testimony.
    However, from such a review, we can take the following 
broad principle. In general, States possess broad trust and 
police powers over resident fish and wildlife, including fish 
and wildlife found on Federal lands within a State. Congress 
has, through numerous acts, reaffirmed this basic 
responsibility and authority to the States. For example, even 
though Congress has charged the Secretary of Interior with 
responsibilities for the management of certain unique national 
fish and wildlife resources, for example, endangered species 
and threatened species, migratory birds and certain marine 
mammals with limited exceptions, State jurisdiction remains 
concurrent with Federal authority.
    Federal frameworks work best in situations where a broad 
perspective on populations and habitats is required, such as in 
the case of migratory birds. This is not the case in bear 
management. By universally prohibiting bear baiting on Federal 
public lands, this legislation would eliminate the flexibility 
required at the State level to adjust harvest to meet 
sustainable population levels of resident species. Therefore, 
we believe H.R. 1472 would unnecessarily interfere with 
traditional State authority over management of resident 
wildlife populations and reduce State flexibility to manage 
bears at desired levels on Federal lands. We believe that 
management decisions for the State resident wildlife 
populations are most appropriately made at the State rather 
than the Federal level. For these reasons, the Department of 
Interior opposes this legislation.
    Mr. Chairman this concludes my remarks. I would be happy to 
answer any questions you or the members of the Subcommittee 
might have. Thank you.
    Mr. Saxton. Thank you very much Mr. Hogan.
    [The prepared statement of Mr. Hogan follows:]

 Statement of Matt Hogan, Deputy Director, Fish and Wildlife Service, 
             U.S. Department of the Interior, on H.R. 1006

    Mr. Chairman, and Members of the Subcommittee, I am Matt Hogan, 
Deputy Director of the U.S. Fish and Wildlife Service (Fish and 
Wildlife Service). I appreciate this opportunity to testify today on 
H.R. 1006, the ``Captive Wildlife Safety Act'' and H.R. 1472, the 
``Don't Feed the Bears Act.''
H.R. 1006, Captive Wildlife Safety Act
    H.R. 1006 would amend the Lacey Act to define ``prohibited wildlife 
species'' as any live lion, tiger, leopard, cheetah, jaguar, or cougar. 
The bill declares it a prohibited act, with some exceptions, for any 
person to import, export, transport, sell, receive, acquire, or 
purchase in interstate or foreign commerce any of these prohibited 
wildlife species.
    Although we acknowledge that the increasingly popular practice of 
keeping ``big cat'' species as pets has created a growing concern about 
both the safety of the public and the welfare of these animals, the 
Department cannot at this time support this legislation for the reasons 
outlined below.
    In sum, while we share the Subcommittee's concerns about the 
presence and proliferation of big cats in the pet trade, this bill 
would provide little additional protection to big cat species in the 
wild--a high priority for the Fish and Wildlife Service. In addition, 
it may even fall short of its goal of regulating big cat pet trade. We 
are also concerned about the Fish and Wildlife Service's ability to 
meet the extended enforcement mandate created by this legislation. The 
new prohibitions introduced in this legislation would need to compete 
against other Fish and Wildlife Service mission-critical priority 
activities within the context of the President's Budget.
    Moreover, the mechanism created by this bill appears to provide, at 
least in some instances, coverage that is duplicative of existing law. 
The Endangered Species Act (ESA) already prohibits the interstate sale 
and international trade of tigers, leopards, cheetahs, and jaguars. 
While H.R.1006 would extend such prohibitions to two unregulated 
species (lions and cougars), it would not ban private ownership or 
intrastate sale of the prohibited species. It would also exempt 
numerous groups and individuals from its prohibitions.
    The Fish and Wildlife Service has an authorized force of 253 
special agents to enforce our wildlife laws and treaties that protect 
trust resources, including endangered species, marine mammals, and 
migratory birds. Given the scope of the agency's conservation mission, 
the limited manpower available, and our need to focus on our highest 
priority needs, the Fish and Wildlife Service concentrates its 
enforcement efforts on preventing illegal activities that jeopardize 
the continued viability of wild populations of protected species.
    In this respect, most of the thousands of big cats in the pet trade 
in this country are captive-bred animals. While big cat trafficking is 
a public safety problem and animal welfare concern, it is not, at its 
core, a wildlife conservation issue. H.R. 1006 would therefore 
emphasize and expand Fish and Wildlife Service enforcement 
responsibilities into an area that has not been considered a high 
priority. By including lions and cougars in the list of prohibited 
cats, this bill would also extend the Fish and Wildlife Service's 
enforcement mandate to policing currently legal activities involving 
interstate and foreign commerce of species that exist in abundant 
numbers in the wild, and that are currently not subject to the same 
rigorous protection as the other defined species.
    The bill's definition of ``prohibited wildlife species'' would, in 
and of itself, limit the extent to which this legislation would control 
big cat pet trade because it does not cover all species that are part 
the problem. For example, H.R. 1006 does not include lynx, serval, 
caracal, clouded leopard, or snow leopards in that definition. Nor does 
it regulate hybrids, mixed species that are of little concern from a 
conservation standpoint but that account for an increasing percentage 
of the big cats bred, bought, and sold as pets in this country.
    The effectiveness of this bill would further be limited by the 
scope of its exemptions. We believe that, at most, such exemptions 
should cover only those entities that are licensed by a state or the 
Federal Government. Such criteria would ensure that exempt 
organizations are otherwise accountable for any interstate or 
international transactions involving big cats. For example, both the 
Service and the Department of Agriculture offers licenses and regular 
inspections; many state agencies do the same.
    For these reasons, the Department cannot at this time support this 
legislation.
H.R. 1472, Don't Feed the Bears Act
    H.R. 1472 would require the adoption, where necessary, and 
enforcement of regulations to prohibit the intentional feeding of bears 
on Federal public lands in order to end the hunting practice known as 
``bear baiting.''
    Although it is unclear from the bill text whether the legislation 
is applicable to black bear or all bears in general, I should point out 
that in North American most black bear populations are currently robust 
and generally increasing. In fact, there has been an overall 21 percent 
increase in black bear populations from the late 1980s to 2000. 
Overall, it appears that states are doing very well managing this 
species.
    In addition, hunting over bait for grizzly bears is not permitted 
anywhere in the United States. In the lower 48 states, grizzly bears 
are protected as a threatened species under the Endangered Species Act 
throughout their range; in Alaska, while baiting for black bears may be 
allowed in accordance with State laws and regulations, baiting is not 
permitted when hunting for grizzly bear.
Federal Agencies and the Management of Resident Wildlife
    In general, states possess broad responsibility and authority over 
resident fish and wildlife, including fish and wildlife found on 
Federal lands within a state. Congress has reaffirmed this authority 
through numerous Acts. As discussed in more detail below, we must 
recognize these traditional roles in our evaluation of this 
legislation.
    Let me begin with an overview of the various Federal agencies' 
management policies and their relationships to the general management 
of wildlife species. The major Federal land management agencies are the 
Fish and Wildlife Service, the National Park Service (Park Service), 
and the Bureau of Land Management (BLM), within the Department of the 
Interior; and the Forest Service.
National Wildlife Refuge System Lands
    The National Wildlife Refuge System (NWRS) mission, established by 
the National Wildlife Refuge System Improvement Act of 1997 
(Improvement Act), is:
        to administer a national network of lands and waters for the 
        conservation, management, and where appropriate, restoration of 
        the fish, wildlife, and plant resources and their habitats 
        within the United States for the benefit of present and future 
        generations of Americans.
    The Improvement Act established a clear hierarchy for uses in the 
System. As noted in accompanying House Report 105-106, ``wildlife-
dependent recreational uses, when determined to be compatible, are 
appropriate and legitimate uses of the System.'' The Improvement Act 
defines six wildlife-dependent recreational uses: hunting, fishing, 
wildlife observation and photography, and environmental education and 
interpretation, and states these uses should be facilitated and should 
receive priority consideration in refuge planning and management.
    The National Wildlife Refuge System Administration Act of 1966 
(Administration Act), as amended by the Improvement Act, further 
provides that the Director of the Fish and Wildlife Service, as the 
Secretary of the Interior's (Secretary) designee, will, among other 
things, ensure that regulations allowing hunting or fishing of fish and 
wildlife within the NWRS are, to the extent practicable, consistent 
with state fish and wildlife laws, regulations, and management plans.
    Traditionally, the basis of most hunting regulations for national 
wildlife refuges is the hunting regulations of the state or states in 
which a particular refuge lies, and the Fish and Wildlife Service's 
regulations reflect this fact. For purposes of this discussion, state 
fish and wildlife agencies that currently permit bear baiting for 
hunting activities are Alaska, Idaho, Maine, Michigan, Minnesota, New 
Hampshire, Utah, Wisconsin, and Wyoming.
    The Improvement Act further directs the Secretary to cooperate and 
consult with the states on fish and wildlife management activities on 
national wildlife refuges, including hunting programs, in order to 
``complement the efforts of other State--conservation efforts.'' (House 
Report 105-106) This makes sense, because while both Federal and state 
fish and wildlife agencies have authorities and responsibilities for 
management of fish and wildlife, it is often the state agencies which 
possess the unique expertise and knowledge about resident fish and 
wildlife needed to establish effective laws, regulations, and 
management plans.
    As noted in section 2 (c) of H.R. 1472, the Fish and Wildlife 
Service currently has regulations largely prohibiting baiting and 
hunting with bait on NWRS lands. This prohibition is largely based on 
the effects that baiting wildlife can have on relatively small areas, 
such as refuges. For example, baiting can attract wildlife from 
adjacent non-refuge lands, thus altering normal concentrations of 
refuge and non-refuge populations; it can alter behavioral patterns of 
target wildlife species; or it can attract undesirable species, 
complicating refuge management. (See 50 Fed. Reg. 36736, Sept. 19, 
1984) Other regulations provide refuge managers the authority to waive 
this prohibition to allow bear feeding or baiting in support of 
research, human safety, animal welfare, or in other cases of emergency. 
The situation is somewhat different in Alaska, where baiting is 
authorized on Federal lands, including NWRS lands, in accordance with 
State regulations. Even there, however, baiting is not permitted for 
grizzly bear hunting.
    In sum, bear hunting is currently allowed on less than 6 percent of 
refuges, with bear baiting allowed, in accordance with State law, only 
on all or part of 11 Alaskan refuges.
National Park System Lands
    On national park lands, human feeding of bears, whether deliberate 
or inadvertent, is a significant management problem wherever it occurs 
and is an activity that the Park Service works very hard to prevent on 
its lands. In fact, the Park Service evolved stringent bear protection 
and visitor use policies during the 1970s in response to clear 
recognition of the impacts to bears, property, and people caused by the 
improper handling of foods and trash brought into parks.
    Hunting in general is allowed on Park Service land only where 
Congress has authorized such activity, and hunting and trapping 
activities are currently either mandated or discretionary in only 57 
units of the National Park System. Where allowed in the park system, 
hunting activities are governed by Federal law and applicable non-
conflicting state law. However, the Park Service allows black bear 
baiting, in accordance with State law, for both subsistence and sport 
hunting in a number of units in the State of Alaska. (See 36 C.F.R. 
13.21(d); 13.48)
BLM-managed Lands
    Federal land management statutes under which the BLM operates also 
acknowledge the states' traditional role in managing fish and wildlife. 
These include, for example, the Multiple-Use Sustained-Yield Act, the 
Wilderness Act, and the Federal Land Policy and Management Act.
    Under its own regulations, BLM defers to the states on management 
of fish and resident wildlife on public lands located within each 
state. While BLM works closely with states in the management of habitat 
that supports fish and resident wildlife, each state establishes and 
enforces regulations on hunting, trapping, and fishing on these lands. 
Except in emergency situations, BLM does not involve itself in 
determining or authorizing the type of hunting techniques allowed on 
public lands.
    As a consequence, where it is permitted by state law, bear hunting 
with bait is currently permitted on BLM-managed lands. If problems 
arise, they would be treated as site-specific issues and would be 
resolved through coordination with the respective state wildlife agency 
at the BLM field or state office level.
Conclusion
    We take from this review the following broad principle: in general, 
states possess broad trustee and police powers over resident fish and 
wildlife, including fish and wildlife found on Federal lands within a 
state. As noted above, Congress has, through numerous Acts, reaffirmed 
this basic responsibility and authority of the states. For example, 
even though Congress has charged the Secretary of the Interior with 
responsibilities for the management of certain uniquely national fish 
and wildlife resources--e.g., endangered and threatened species, 
migratory birds, and certain marine mammals--with the limited exception 
of marine mammals, state jurisdiction remains concurrent with Federal 
authority.
    Moreover, practically speaking, we recognize that Federal 
frameworks work best in situations where a broad perspective on 
populations and habitats is required--for example, with regard to 
migratory species such as ducks and geese. By prohibiting bear baiting 
on Federal public lands, we eliminate the flexibility required at the 
local level to adjust harvest to meet sustainable population levels of 
resident species. As previously noted, black bear populations are 
currently robust and generally increasing. Without a wide array of 
management tools at their disposal, state managers may experience an 
increase in dangerous interactions between people and bears.
    We believe that management decisions for individual resident 
wildlife populations are most appropriately made at the local, rather 
than Federal, level. For these reasons, the Administration opposes this 
legislation.
    In closing, I would like to state that we are committed to working 
to conserve, protect, and enhance fish, wildlife, and plants species 
and their habitats for the continuing benefit of the American public. 
As such, we welcome the opportunity to work with all of our partners to 
identify and address problems associated with the management of our 
fish and wildlife resources.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions that you might have.
                                 ______
                                 
    Mr. Saxton. We are going to go to Ms. Estill. Then when 
have you concluded your testimony, we will have to take a 
little recess here for these votes.
    Thank you.

     STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF PROGRAMS, 
     LEGISLATION AND COMMUNICATIONS, U.S. FOREST SERVICE, 
 ACCOMPANIED BY JIM GLADEN, DIRECTOR OF WILDLIFE, U.S. FOREST 
                            SERVICE

    Ms.  Estill. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to meet with you today concerning 
H.R. 1472.
    Historically State fish and wildlife agencies have 
maintained the primary responsibility for protection and 
management of wildlife populations on the National Forest 
System lands, particularly with respect to hunting and fishing. 
The Forest Service enters into a memorandum of understanding 
with each State which lays out a framework for cooperation. The 
States issue regulations regarding hunting licenses, methods, 
seasons, locations and bag limits for resident game and have 
the primary responsibility for enforcement of the State's fish 
and wildlife laws and regulations on National Forest Service 
lands.
    Federal land management statutes acknowledge the States' 
traditional role in managing fish and wildlife, including the 
National Forest System Organic Administration Act, the 
Multiple-Use Sustained-Yield Act, Sikes Act, Wilderness Act and 
so on and so forth. Because of consistent Congressional 
direction to defer fish and wildlife management to the States, 
the Forest Service is generally reluctant to override State 
regulations, except where Federal interests, such as the 
protection of forest land, resources and users requires Federal 
intervention.
    In 1995 after extensive public comment, the Forest Service 
published a policy on baiting for the purpose of hunting on 
National Forest System lands. It spells out the procedures to 
be used by the Forest Service when State regulations conflict 
with Federal laws regulations and policies. The policy retains 
the long-standing reliance on State hunting regulations, 
including the State regulation of baiting resident game. But it 
also provides for case-by-case safeguards where those 
safeguards might be needed. Although various States may have 
policies that, again, vary annually, the Forest Service 
consistently ensures protection of those Federal resources.
    In 1996, the District Court of Columbia--District Court 
upheld the Forest Service policy to continue the traditional 
reliance on the States to regulate hunting practices, including 
baiting game. Again, with those safeguards. The District of 
Columbia Circuit Court of Appeals affirmed the judgment of the 
District Court.
    Currently in North America, the black bear populations are 
robust and generally increasing. We believe that H.R. 1472 
would unnecessarily preempt State authority over management of 
resident wildlife populations and reduce the flexibility of 
State and local wildlife managers to manage bears on Federal 
lands.
    This concludes my remarks, Mr. Chairman. I would be happy 
to answer your questions.
    Mr. Saxton. Thank you very much.
    [The prepared statement of Ms. Estill follows:]

Statement of Elizabeth Estill, Deputy Chief, Programs, Legislation, and 
Communications, Forest Service, U.S. Department of Agriculture, on H.R. 
                                  1472

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to meet with you today regarding H.R. 1472, the ``Don't 
Feed the Bears'' Act. Accompanying me today is Jim Gladen, Director of 
Watershed, Fish, Wildlife, Air, and Rare Plants for the National Forest 
System.
H.R. 1472 ``Don't Feed the Bears'' Act
    H.R. 1472 would require the adoption, where necessary, and 
enforcement of regulations to prohibit the intentional feeding of bears 
on Federal public lands in order to end the hunting practice known as 
``bear baiting.'' The Administration opposes the bill.
Bear Baiting on National Forests
    Historically, State fish and wildlife agencies have maintained the 
primary responsibility for protection and management of wildlife 
populations on National Forest System lands, particularly with respect 
to hunting and fishing. This responsibility includes adoption of State 
fish and wildlife laws and regulations affecting the taking of resident 
game animals. The Forest Service enters into a Memorandum of 
Understanding with each State in order to lay out a framework for 
cooperation. These agreements emphasize the traditional role of the 
States to administer State hunting regulations such as season, harvest 
levels, and methods of harvest, with respect to hunting of resident 
game on National Forest System lands. The States issue regulations 
regarding hunting licenses, methods, seasons, locations, and bag limits 
for resident game and have the primary responsibility for enforcement 
of the state's fish and wildlife laws and regulations on National 
Forest System lands.
    Federal land management statutes acknowledge the States' 
traditional role in managing fish and wildlife. These include the 
National Forest System Organic Administration Act (16 U.S.C. 480), the 
Multiple-Use Sustained-Yield Act (16 U.S.C. 528), the Sikes Act (16 
U.S.C. 1732), the Wilderness Act (16 U.S.C. 1133 (d)(8)), and the 
Federal Land Policy and Management Act (43 U.S.C. 1732). Because of 
consistent Congressional direction to defer fish and wildlife 
management to the States, the Forest Service is generally reluctant to 
override State regulations except where Federal interests, such as the 
protection of forest land, resources, and users, requires Federal 
intervention.
    An exception to this general policy of deferring to the States, is 
the Alaska National Interest Lands Conservation Act (16 U.S.C. 3111-16) 
whereby Congress determined that Federal control should supersede that 
of the state, with Federal control of fish and wildlife subsistence in 
Alaska.
    The practice of placing bait (food or scent to attract wildlife) is 
a hunting activity subject to State laws and regulations. State fish 
and wildlife agencies that permit the baiting of black bear (Urus 
americanus) as a hunting activity on Federal lands are: Alaska, Idaho, 
Maine, Michigan, Minnesota, New Hampshire, Utah, Wisconsin, and 
Wyoming.
    In 1995, the Forest Service published its policy on baiting for the 
purpose of hunting on National Forest System lands. The policy retains 
the longstanding reliance on State hunting regulations including state 
regulation of baiting resident game. Where state law and regulation 
permit baiting, the practice is permitted on National Forest System 
lands unless the authorized officer determines on a site specific basis 
that the practice conflicts with Federal laws or regulations, or forest 
plan direction, or would adversely affect other forest uses or users.
    The 1995 policy clarifies the Forest Service role with regard to 
regulation of baiting as a hunting method that is authorized and 
regulated by the states. It spells out the procedures to be used by the 
Forest Service when State regulations conflict with Federal laws, 
regulations, and policies. It relies on existing relations with each 
State and prevents the duplication of regulations by both levels of 
government and provides for case-by-case safeguards where needed. It 
also provides a consistent Federal approach to baiting throughout the 
National Forest System. Although various States may annually vary their 
policies, the Forest Service's will remain consistent while ensuring 
protection of Federal resources.
    In the 1996 case of the Fund for Animals, Inc. v. Thomas, 932 F. 
Supp. 368 (D.D.C. 1996), the U.S. District Court for the District of 
Columbia upheld the Forest Service policy of ``leav[ing] the decision 
to prohibit baiting, or to allow but regulate it as a ``hunting 
practice'' or technique, to the individual states in which a particular 
national forest is situated.'' Id. at 369. And as the Thomas court 
observed, ``[t]he common law has always regarded the power to regulate 
the taking of animals ferae naturae to be vested in the states to the 
extent `their exercise of that power may not be inconsistent with, or 
restrained by, the rights conveyed to the Federal Government by the 
Constitution.''' Id. at 369-370 (quoting Geer v. Connecticut, 161 U.S. 
519 (1896)). The U.S. Court of Appeals for the D.C. Circuit 
subsequently affirmed the judgment of the District Court. See Fund for 
Animals, Inc. v. Thomas, 127 F.3d 80 (D.C. Cir. 1997).
    Currently, in North America, black bear populations--specifically 
mentioned in H.R. 1472--are robust and generally increasing. We believe 
that H.R. 1472 would unnecessarily both preempt state authority over 
management of resident wildlife populations and reduce the flexibility 
of state and local wildlife managers to manage bears on Federal lands.
Conclusion
    That concludes my remarks, Mr. Chairman, I would be happy to answer 
your questions.
                                 ______
                                 
    Mr. Saxton. So that you don't have to stay in this room 
unless you want to, we are going to recess until 12:00, 12:05, 
something like that. We will see you in a little while.
    [Recess.]
    Mr. Gilchrest. [Presiding.] The Subcommittee will come to 
order.
    I apologize for my absence, but the testimony of the 
previous witnesses will be in the record, and it will be 
reviewed.
    So it is now in order to recognize Mr. Baughman. The other 
three witnesses have testified.

     STATEMENT OF JOHN BAUGHMAN, EXECUTIVE VICE-PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Baughman. Thank you, Mr. Chairman. Mr. Pallone, thank 
you.
    Mr. Chairman, I am John Baughman, Executive Vice-President 
of the International Association of Fish and Wildlife Agencies. 
All 50 of the fish and wildlife agencies are among our members. 
I am also talking to you from the perspective as the former 
Director of the Wyoming Game and Fish Department. Wyoming is 
one of the nine States that allows bear baiting on Federal 
lands.
    Our more detailed written testimony has been made available 
to the Subcommittee, but I can summarize it as follows: First, 
the Association is strongly opposed to H.R. 1472 and urges that 
the Subcommittee give this bill no further consideration. The 
States have broad statutory, and often constitutional, 
authority for the conservation of resident wildlife, including 
bears. Congress has given Federal agencies certain 
responsibilities for migratory birds, listed threatened 
endangered species, and anadromous fish, where current and 
State Federal jurisdiction is clearly needed to meet national, 
State and international conservation objectives. We see H.R. 
1427 as an unnecessary and inappropriate preemption of State 
authority to manage resident wildlife.
    The States are doing a commendable job managing bears. 
Black bear populations are robust, and they are either stable 
or increasing in most States. And nearly every State, that has 
bear populations, already has areas where bear populations 
exceed the level of human tolerance.
    Fourth, there is no evidence to suggest bear populations 
become self-regulating or density-dependent before exceeding 
the levels of society's tolerance. Black bears are a long-
lived, prolific species, and since bears are at the top of the 
food chain, unchecked bear populations continue to expand to 
the point of becoming a nuisance. The net result is that bears 
do and will continue to die at the hands of humans, either by 
hunters, people protecting private property, or, more likely, 
by government employees, usually at the cost of thousands of 
dollars per bear.
    Fifth, the States that do permit bear baiting have 
concluded that it is a legitimate and necessary management tool 
to achieve harvest and conservation objectives and to keep bear 
populations within the limits of human tolerance. Baiting 
facilitates harvest in dense cover habitats and in large areas 
with relatively low bear densities and low hunter numbers. 
Baiting also allows easier identification of sows with cubs, 
which are legally excluded from harvest. Baiting also allows 
hunting efforts to be directed toward problem bears and toward 
areas with nuisance problems.
    Research suggests that those bears most likely to cause 
nuisance problems, and that is usually wandering adolescent 
male bears, are those that are most susceptible to baiting.
    Sixth, even where bear baiting is permitted, it is still 
tightly controlled. I will use Wyoming as an example. Baiting 
is regulated as to the size of the bait, type of bait 
container, type of bait substance, number and density of baits, 
no hunter can have more than two baits, minimum distance from 
trails and roads and campgrounds, when baits can be placed, 
removal and clean up requirements, and requirements for 
identifying ownership of baits. Additionally, total harvest is 
limited by area-specific mortality quotas on bears. The season 
closes once those quotas are reached. And all those 
regulations, as someone asked earlier, are subject to public 
review at the State level through the State Administrative 
Procedure Act.
    Seventh, in 1997, the U.S. Court of Appeals for the 
District of Columbia upheld the District Court ruling that bear 
baiting was a method of hunting on Federal lands, thus subject 
to State authority.
    Finally, Mr. Chairman, the Nation's successful State-based 
system of professional fish and wildlife conservation is 
justifiably the envy of the rest of the world. Congress has 
repeatedly affirmed the merits and utility of our system of 
wildlife conservation, while appropriately continuing to 
encourage cooperation between State and Federal agencies. The 
States successful record on black bear conservation speaks for 
itself. Thus H.R. 1472 is unnecessary and inappropriate from a 
biological, resource management perspective. And our 
Association strongly urges that you do not report the bill 
favorably out of the Subcommittee.
    Thank you, Mr. Chairman. I would be happy to answer 
questions.
    Mr. Gilchrest. Thank you, Mr. Baughman.
    [The prepared statement of Mr. Baughman follows:]

         Statement of John Baughman, Executive Vice-President, 
 International Association of Fish and Wildlife Agencies, on H.R. 1472

    Thank you Mr. Chairman for the opportunity to share the 
perspectives of the International Association Fish and Wildlife 
Agencies on H.R. 1472, the ``Don't Feed the Bears Act''. The 
Association strongly opposes H.R. 1472 as an unnecessary Federal 
preemption of state wildlife management authority. The issue of baiting 
bears as a method of hunting is already subject to public discourse at 
the state level where determinations of means and methods of take are 
appropriately made. Also, black bear populations in the United States 
are robust and generally increasing in most states, a testament to the 
success of science-based wildlife management by State fish and wildlife 
agencies. Thus we conclude that H.R. 1472 is an unnecessary and 
inappropriate preemption of state wildlife authority and we urge that 
H.R. 1472 not be reported favorably by the Subcommittee.
    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of the public 
agencies charged with the protection and management of North America's 
fish and wildlife resources. The Association's governmental members 
include the fish and wildlife agencies of the states, provinces, and 
Federal Governments of the U.S., Canada, and Mexico. All 50 states are 
members. The Association has been a key organization in promoting sound 
resource management and strengthening Federal, state, and private 
cooperation in protecting and managing fish and wildlife and their 
habitats in the public interest.
    Mr. Chairman, as you know, the states have statutory, and often 
constitutional, authority for the conservation of resident fish and 
wildlife (including bears) within their borders for the sustainable use 
and enjoyment of their citizens. Where Congress has given Federal 
agencies certain conservation responsibilities for migratory birds, 
listed threatened and endangered species, and anadromous fish, that 
authority remains concurrent with the states' jurisdiction, as Congress 
has affirmed. Further, state authority for resident fish and wildlife 
extends to most Federal public lands, as affirmed by Congress in the 
National Forest Management Act, the Federal Land Policy and Management 
Act, the National Wildlife Refuge System Improvement Act, and the Sikes 
Act. Additionally, both the Departments of Interior and Agriculture 
have regulations (see, e.g., 43CFR Part 24) and policies that implement 
the relationship between the Federal agencies which control the land 
and habitat, and the State fish and wildlife agencies which have 
conservation responsibility for ensuring the sustainability of fish and 
wildlife. This relationship obviously compels close coordination and 
cooperation.
    The States conservation authority for fish and wildlife extends to 
the establishment of regulated take, where appropriate, and a 
determination of the allowable means and methods of hunting. Baiting 
for the purpose of hunting bears is a method of take that is allowed 
under certain conditions in 10 States, 9 of which also allow it on 
Federal lands. The establishment of all regulations regarding hunting 
(seasons, bag limits, and allowable means of take) are based on 
scientific data collected by the State fish and wildlife agencies and 
are subject to extensive public review at the state level. In those 
States where baiting for bears is allowed, it is used as a regulated 
management tool that is necessary in order to harvest a sufficient 
number of bears to maintain bear numbers at society's tolerance level 
while ensuring a healthy, sustainable bear population. In states with 
large areas of dense forest habitat, or with a low bear density over a 
wide area, it is necessary to employ baiting in order to harvest the 
appropriate number of bears. Using Wyoming as an example, even where 
baiting is permitted it is tightly regulated as to the size of bait, 
type of bait container, number and density of baits (no more than 2 per 
hunter) where and when baits can be placed, requirements for bait 
removal and clean-up, restrictions on the type of bait substances 
allowed and identification of the hunter must be attached to the bait 
container. Furthermore, the total bear harvest by area is controlled by 
a female mortality quota. Permitting baiting in these circumstances 
helps achieve the desired harvest, it facilitates identification of 
sows with cubs (which are not allowed to be legally harvested), and it 
allows agencies or landowners to focus hunters on problem bears. 
Research suggests that those bears which most often cause damage, 
depredation, or nuisance problems (i.e. wandering adolescent males) are 
the same bears that are most susceptible to baiting. All aspects of 
bear bating and other hunting regulations are reviewed annually by our 
agencies and are also subject to annual public review and comment 
through state administrative procedure processes.
    Further, as you are likely aware Mr. Chairman, the U.S. Court of 
Appeals for the District of Columbia in 1997 upheld a district court 
ruling that baiting for bears was a means and method of hunting on 
National Forests and thus subject to state authority (127 F.3d 80).
    Finally, Mr. Chairman, let me point out that, whatever one's 
opinion is regarding baiting as a method of take, the states are doing 
a commendable job in managing bears in the United States. Black bear 
populations are robust and have increased 21% in North America from the 
end of the 1980s to the year 2000. Black bears are a long-lived, 
prolific species and with the possible exception of some remote parts 
of Mexico, people in some fashion control all bear populations in North 
America. Since bears are at the top of the food chain, if left 
unchecked bear populations will continue to expand to the point of 
being a nuisance. The net outcome is dead bears at the hand of hunters, 
people protecting private property, or by government employees usually 
of the cost of thousands of dollar per bear.
    Mr. Chairman, the States' successful record on black bear 
conservation speaks for itself, thus, H.R. 1472 is neither necessary 
nor appropriate from a biological resource management perspective. The 
Nation's state-based system of professional fish and wildlife 
conservation is justifiably the envy of the rest of the world. Congress 
has repeatedly affirmed the merits and utility of our system of 
wildlife conservation, while appropriately continuing to encourage 
cooperation between state and Federal agencies. There is no need in the 
instance of bear management, to set aside our system of wildlife 
management and the Association strongly urges that you not favorably 
report the bill out of the Subcommittee.
    Thank you for opportunity to share our perspectives and I would be 
pleased to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Can you give us some more information on the 
court case that you referenced, the Fund for Animals versus 
Jack Ward Thomas, Chief of Forest Service?
    Mr. Baughman. Mr. Chairman, I can, but if it pleases the 
Chairman and the Subcommittee, Mr. Paul Lenzini, our legal 
counsel, is with me, and he was right in the middle of things. 
If we could defer to him?
    Mr. Gilchrest. That would be fine if there is no objection 
from the Subcommittee. If you could give us a brief summary of 
the situation and the findings of the court.
    Mr. Lenzini. Mr. Chairman, thank you. My name is Paul 
Lenzini. I am legal counsel to the International Association. 
Up until about 9 or 10 years ago, not all of the States that 
permitted bear baiting intentionally regulated the baiting of 
bears. And because baiting could be thought of as on National 
Forests, a couple of forest supervisors, one in Idaho and one 
in Wyoming, in States that had really no regulations on bear 
baiting, decided that they would control the practice by 
issuing special-use permits. So you had to have a special-use 
permit if you were a hunter and you wanted to put out bait.
    Mr. Gilchrest. Is that still the case right now?
    Mr. Lenzini. That has been changed.
    Mr. Gilchrest. So you don't need a special permit?
    Mr. Lenzini. That gave rise to the litigation. What 
happened was the Forest Service saw that this practice was 
being regulated unevenly across the country. In some States, 
you needed a special-use permit on a National Forest. In most 
States, not.
    Mr. Gilchrest. Special-use permit in order to bait?
    Mr. Lenzini. In order to place bait on National Forest 
lands. So they decided a national policy would be in order. And 
they decided that the national policy should be one in which 
they continue the practice of deferring to State authority if 
the States regulated the baiting practice. If they didn't, then 
the Federal Government would come in and the land managers 
would say, well, we are going to have special regulations 
because the State is not regulating. At that point, the States 
decided that they would have to regulate. So Wyoming and Idaho 
then introduced fairly intense baiting regulations. And the 
Forest Service decided that the national policy would be that 
the State, in the first instance, does the regulation, and if 
it falls short on a site-specific basis, then the Forest 
Service would step in and regulate the practice. And that--.
    Mr. Gilchrest. Does that mean that there are Federal 
standards for getting a permit to bait bears?
    Mr. Lenzini. The standards are now State standards and it 
is only when a site-specific situation occurs that a Forest 
Service officer decides, well, this is a problem here. But 
generally the standards and regulations of the State, of the 
States, are pretty close to what the Forest Service had in mind 
prior to 1995. For example, you have to be a certain distance 
away from a trail, a certain distance away from a stream 
because of the possible pollution.
    Mr. Lenzini. So at this point, the States that permit 
baiting pretty intensely regulate that practice. And the 
lawsuit arose over the allegation of the Fund for Animals that 
the move from special use permits to reliance on the States 
constituted major Federal action requiring full environmental 
analysis. The District Court and the Court of Appeals said, if 
it is Federal action at all, it sure isn't major Federal 
action. NEPA is not applicable.
    Mr. Gilchrest. Thank you very much.
    Mr. Baughman, I have a list of States that allow bear 
baiting, and it gives the bear population in those States from 
Alaska down to Wyoming and the number of bears that are 
harvested in those States. In Wyoming, the bear population is 
unknown. Can you give us an explanation for that?
    Mr. Baughman. Yes, Mr. Chairman. Bears are a very secretive 
species and it is very difficult to precisely measure 
population numbers. Wyoming, in some areas of the State, has 
made some precise estimates of bear populations, and they know 
in given types of habitat roughly how many bears there are. To 
repeat that kind of estimate statewide and get a real good 
estimate, it would literally cost millions of dollars. In fact, 
the Congress, I believe, is putting money into the Department 
of the Interior's budget to make a bear estimate in Glacier 
National Park, and I believe that is going to cost $1 million 
or $2 million for that one bear estimate.
    So usually, for States, it is more of a guesstimate where 
they have expanded from a small area where they have good 
numbers. They have expanded over a known bear habitat. So those 
are not real precise numbers you have for those States. Wyoming 
doesn't use a number. Based on the studies where they have made 
the precise estimates, they have come up with characteristics 
of expanding and decreasing bear populations based on the age 
and the sex of the harvest, and they follow the bear harvest 
very closely. Every bear harvest has to be turned in to the 
game and fish offices within 72 hours. So they are very closely 
monitoring population trends, but they do not really have a 
complete estimate.
    Mr. Gilchrest. Thank you. I am not sure of the source of 
the information that I am reading from, but it did say that 
Wyoming, and I would like to ask you if this figure is 
accurate, the number of bears harvested in the State of Wyoming 
was 324. Is that about right?
    Mr. Baughman. Yes, Mr. Chairman, those are precise figures. 
Those are collected through surveys of hunters.
    Mr. Gilchrest. Thank you. I have some more questions but I 
will yield first to the gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. Before I ask our 
witnesses a couple of questions, I just felt compelled to 
register a procedural complaint about the Federal witnesses.
    As you know, under the rules of the Committee on Resources, 
all witnesses invited to testify at a hearing are required to 
file 75 copies of their written testimony within 48 hours of 
the hearing unless the Chairman, in consultation with the 
Ranking Minority Member, expressly extends this time period.
    In addition to written statements, all witnesses are 
required to submit other pertinent background information to 
better inform the Members of the qualifications of each 
witness. And the punishment to fail to meet this deadline is 
clear: The written statement may be excluded from the record 
and/or the witness may be barred from making an oral 
presentation.
    Mr. Chairman, I raise this procedural matter only because I 
believe that it has become far too common, if in fact the norm, 
for this Administration to fail to meet this requirement. Once 
again, testimony from the Forest Service and the Fish and 
Wildlife Service arrived late last night, which left virtually 
no time for the members or the staff of this Committee to 
consider the views of the Administration and formulate 
questions for the witnesses.
    This dereliction of responsibility is very frustrating, and 
I think essentially an insult to every member of this Committee 
and I don't think we should continue it. After all, we are 
coequal branches of the Federal Government. And I want to say, 
Mr. Chairman, that I think this Committee should take action or 
communicate our discontent with this Administration's repeated 
recalcitrance and indifference to the rules of procedure. I 
know that all the other witnesses were able to meet the 
deadline and only the Federal witnesses were not.
    I know I could move to have the written statements excluded 
from the record, but I am not necessarily interested in doing 
that. I just wanted to mention this to you and see if we could 
do something to correct it in the future. It just seems to be 
becoming the norm rather than an exception. If you would 
comment on that, I would appreciate it.
    Mr. Gilchrest. Thank you, Mr. Pallone. I was not aware that 
the testimony was not given to us promptly. I think what we 
will do in the future is do what we can to help the witnesses 
run the maze of bureaucracy for approval of their statements in 
a more expedited fashion.
    I think this has been a problem, I don't know if it has 
been a problem since the dawn of this institution, because I 
wasn't here, but I think it has been a problem with every 
Administration and every agency and department since I have 
been in Congress. So maybe we can work together to help 
expedite the process of witnesses' testimony coming to the 
Committee on time, certainly in the future, and I thank you for 
your statement.
    Mr. Pallone. I would appreciate it. Thank you, Mr. 
Chairman.
    Let me ask a couple of questions. One, I wanted to start 
out with, I guess Mr. Hogan, with regard to the issue of the 
exotic cats. I was just a little confused about your testimony 
because you seem to give the impression that it was already 
illegal in some fashion for people to possess these exotic cats 
and that you were not in the position to enforce whatever law 
there was that prohibited it. That is not at all clear to me.
    In other words, it is not at all clear to me that this is a 
prohibited practice, and I guess my question is even if you 
think that it is prohibited, if you don't enforce it, who is 
going to?
    Mr. Hogan. Well, sir, maybe I can clarify the testimony a 
little bit, and I apologize for the confusion.
    Some of the species listed in the legislation are also 
listed as endangered under the Endangered Species Act. Those 
species fall under that jurisdiction, and, therefore, if they 
enter into interstate or foreign commerce or there is a take of 
those species, the Lacey Act and the Endangered Species Act 
apply and, therefore, we have enforcement. However, it is not 
illegal for those species necessarily to be possessed in an 
individual State.
    Our jurisdiction kicks in again for those species under the 
Endangered Species Act and then when they enter into foreign 
or--
    Mr. Pallone. Well, then, why would you be, or maybe you 
weren't, but I got the impression that you were opposed to the 
bill. Are you opposed to the prohibition on possession? Because 
now you are saying some species are not, others are. Would you 
be opposed to the prohibition aspect of the bill?
    Mr. Hogan. We have not taken a position necessarily on 
possession of the species. Our main concern is that under the 
bill, as written, they would fall under the law enforcement 
jurisdiction of the Fish and Wildlife Service. Given our 
limited resources and the number of agents we have, we would 
like to concentrate on species actually in the wild. Most of 
these species are captive.
    Mr. Pallone. I understand that and appreciate that, but the 
point for us is practical. We try not to be as bureaucratic. I 
guess you are not taking a position, but it seems to me that we 
have to make a decision whether the possession should be 
prohibited for these species and then we have to make a 
decision who is going to enforce it.
    I am not trying to be difficult, but it seems to me that 
your position is not very helpful. Because on the one hand you 
don't take a position on whether they should be prohibited from 
possession, nor do you suggest who might do the enforcement, 
other than to say you don't want to do it. Is that your 
position?
    Mr. Hogan. Yes, that pretty accurately characterizes it. We 
are really not in a position to speak for other Federal 
agencies. We were asked specifically to respond--
    Mr. Pallone. And you are not going to take a position for 
or against the actual prohibition on the possession?
    Mr. Hogan. Right.
    Mr. Pallone. OK. Then let me get to the bear baiting issue.
    My major concern here, and I don't know if it has really 
been addressed by anybody so far, is the fact that it seems 
that there is a Federal policy on these Federal lands, or at 
least there is in certain circumstances, of not feeding 
wildlife. I said in my opening statement that it is 
inconsistent on the one hand to say that somehow it is not good 
policy in certain circumstances to be feeding the wildlife and 
then, on the other hand, allow bear baiting as a means of 
hunting or, as some have said, as a means of controlling the 
bear population.
    I just want to get some information. I don't know who would 
answer it, necessarily, if you would, Mr. Baughman, about this 
policy and the inconsistency that I raised. If you would.
    Mr. Baughman. Mr. Chairman, Mr. Pallone, I don't see it as 
inconsistent. We had a large bear education program on living 
in bear country in Wyoming, and certainly people feeding bears 
puts people in close proximity to bears where they are in a 
hazardous situation. Having bears come into campgrounds or into 
rural areas and get food rewards from the presence of people 
puts bears in situations where they are a threat to people or a 
threat to their property. Both situations result in dead bears 
eventually.
    A baiting situation is entirely different. In a very remote 
location, typically, baits are placed, and you are not 
attracting the bear to people. In fact, a successful person 
hunting over baits does not want that bear to associate people 
with the presence of that bait. So it is an entirely different 
thing.
    I have heard a lot of talk about conditioning bears to 
these foods. If any of you own dogs, you know that you don't 
have to condition your dog to a Twinkie or a donut or 
something. The first time you threw that object into the air, 
the dog recognized it as food and ate it. The fact is you have 
to make sure that there are not edible things there that those 
bears are coming into, being attracted to in an area where 
there is a human presence.
    Again, the baiting situation is a hunting situation. You 
don't want bears to know there is a human there. You are 
actually trying to downplay that presence. Bears are attracted 
to food, period, whether there are humans there or not.
    Mr. Pallone. Mr. Chairman, could I just follow up a minute?
    I appreciate what you are saying. Again, I am not familiar 
with this type of hunting at all. We have bears, as Mr. Saxton 
pointed out, in the northwestern part of New Jersey, where the 
bear population is actually increasing and becoming a problem. 
But in my district I have not had any incidents.
    I understand you are trying to make a distinction, but it 
just seems to me that that doesn't always work. In other words, 
it is almost like you are saying there are two different areas: 
There is one area on these lands where there are people, and 
there you don't want them feeding the bears; but on the other 
hand, in these remote areas where you hunt it is OK, because, I 
assume, that is because if they come in they get shot. And so 
they are not a problem because they are dead.
    I don't want to put it that bluntly but is that basically 
what you are saying?
    Mr. Baughman. It really is. The kind of association people 
are going to have with bears, in the old days, when there were 
many bears along the roads in the national parks, there were 
almost daily conflicts with people being injured, bitten, and 
mauled by bears because you were putting people into close 
association with food and the bears.
    One of the biggest problems we have in Wyoming, and I am 
sure in rural New Jersey or California or wherever we are 
talking about, you have bears coming in to back porches to eat 
dog food.
    Mr. Pallone. But what I am saying is, isn't it possible if 
you start this practice of allowing the baiting, that some of 
the bears might get away and come back again and attack people 
and become a problem? Is there a strict separation that you 
point to?
    Mr. Baughman. The separation is that the feeding of the 
bear in a dirty campsite or dirty rural area, that attracts 
bears to the presence of people. In the baiting situation the 
bear does not associate people with that situation. It is just 
strictly being attracted to food, which is a natural instinct 
of every bear, whether it is garbage or not, if they smell 
edible things. They are attracted to dead animals, they are 
attracted to donuts, they are attracted to toothpaste, corn, 
whatever.
    Mr. Pallone. So it is the first instance, it is the actual 
presence of people--
    Mr. Baughman. Correct.
    Mr. Pallone. --that you don't want them to get accustomed 
to?
    Mr. Baughman. Not associating people or people's homes or 
buildings with food.
    Mr. Pallone. Whereas in the second situation, with the 
baiting, they do not see the people?
    Mr. Baughman. Correct. If they see the people, smell the 
people, they are generally gone. In fact, the characterization 
of bear baiting, typically those bears approach--typically, a 
person sits over a bait that a bear has been using and nothing 
happens. The bear doesn't show up. That is the most typical 
case.
    Mr. Pallone. And you don't see a situation where those two 
meet or there is a problem with overlap?
    Mr. Baughman. No, I think it has been greatly exaggerated, 
conditioning bears to eating human type foods with the baiting 
situation. Because I think the bigger problem is bears are 
conditioned to eat anything that is edible. And if people don't 
have clean campsites, clean homes in these suburban areas, they 
are going to attract bears.
    Mr. Pallone. OK, thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Gallegly.
    Mr. Gallegly. I will pass.
    Mr. Gilchrest. So, Mr. Baughman, you would recommend that 
people going camping in wild areas not bring toothpaste with 
them?
    Mr. Baughman. I see some posters over here, Mr. Chairman, 
but certainly--
    Mr. Gilchrest. How about Listerine, would that be better?
    Mr. Baughman. Anything like that. Beer.
    Mr. Gilchrest. Bears are attracted to beer?
    Mr. Baughman. Toiletries, soap, anything like that. We 
recommend if people are in known bear country that they are 
hanging these objects out of reach and then camping hundreds of 
yards from where food and those types of objects are stored.
    Mr. Gilchrest. I was hoping you could recommend that to 
reduce the weight in my pack the next time I go hunting in a 
wilderness area.
    Mr. Baughman, you said that bear baiting, in most cases, 
does not condition the bear or connect the bear or reduce the 
bear's fear of humans, and I would assume that means if that is 
done correctly and appropriately.
    Mr. Baughman. Mr. Chairman, a person baiting bears for 
hunting would not want that bear to associate a human presence 
with that site. Bears are very secretive animals, and if they 
associate people they are typically--as I say, in most cases, 
those bear hunters are not successful all the time. But if a 
bear comes in, it comes in very cautiously. If the wind 
switches where they scent a human presence or see movements, 
the bear is gone. That is the typical situation.
    Certainly they are much more wary than turkeys coming into 
a person calling turkeys or sitting in front of turkey decoys.
    Mr. Gilchrest. Ms. Estill, do you see any difference at all 
between--I was not here, so I am not sure how you testified on 
behalf of the U.S. Forest Service and their position on bear 
baiting.
    Ms.  Estill. In general, we feel like the States have the 
responsibility for wildlife management. We have Memorandums of 
Understanding with each State. We work those things out in 
advance.
    We did have problems with bear baiting back until the mid-
1990's, when we developed a policy that put some safeguards in 
the Forest Service regulations that said if a State was not 
ensuring that the management of those bear baits was done 
properly, we could close. Or if there was some sort of 
degradation of the Federal resource or danger to people, we 
could close those areas.
    Mr. Gilchrest. So each of the States that allow, and there 
are nine States that allow bear baiting, each one of those 
States has a Memorandum of Understanding with the Forest 
Service?
    Ms.  Estill. Yes.
    Mr. Gilchrest. In particular, for Forest Service land to 
deal with the management of bear baiting?
    Ms.  Estill. Of all wildlife, including that particular 
kind of contact.
    Mr. Gilchrest. Of all wildlife baiting. Is baiting for 
wildlife on Forest Service land done for the management of that 
species, for example? Is it the management for the population 
of that species, for the safety of communities nearby?
    I guess if you could also give me some understanding of 
when you manage bear baiting with these various States through 
your MOU or you manage baiting of wildlife, do you have an MOU 
for whitetail deer in the same way you have for bears or 
migrating waterfowl or things like this?
    Ms.  Estill. We have one MOU with each State that covers 
the whole waterfront on wildlife.
    Mr. Gilchrest. That covers the whole panorama. Is there a 
difference in the MOU between baiting bear versus baiting deer 
or snow geese or things like this?
    Ms.  Estill. Each MOU with each State is different. What we 
have is a national policy on bear baiting for the Forest 
Service. So that if we have a problem with an individual State, 
we can fall back on that national policy and it details how we 
go about resolving the situation.
    Mr. Gilchrest. I see. Thank you very much.
    Mr. Gallegly.
    Mr. Gallegly. Thank you very much. The reason I passed a 
moment ago, I had just walked in after being caught after the 
last vote, so I wanted to collect my thoughts a little bit. 
Sometimes it takes longer for me than others to do that.
    Mr. Gilchrest. I just had one other question. I will yield 
to you your full time.
    Mr. Gallegly. That is fine, go ahead. I just had two short 
questions for Ms. Estill.
    Mr. Gilchrest. OK, go ahead.
    Mr. Gallegly. Correct me if I am mistaken, but during your 
testimony, a major part of the focus of the position of the 
Forest Service was predicated on your belief in the autonomy of 
the States; is that correct?
    Ms.  Estill. In the States--
    Mr. Gallegly. Autonomy as it relates to the issue of bear 
baiting or the issue of wildlife.
    Ms.  Estill. Well, our position is that States 
traditionally have been and are responsible for regulation of 
wildlife.
    Mr. Gallegly. OK. Do the States pay for all the signs in 
the National Forest area that warn people about feeding bears 
or does the Federal Government spend any money at all in the 
policy of asking people to not feed the bears?
    Ms.  Estill. I am quite certain the Federal Government puts 
fund into that.
    Mr. Gallegly. So the Federal Government does take the 
responsibility financially and the authority to advise people 
not to feed the bears; is that correct?
    Ms.  Estill. That is correct.
    Mr. Gallegly. OK. That being the case, if hunters should be 
allowed to set out food for bears in National Forests, why 
shouldn't photographers and wildlife watchers also be allowed 
to set out food to increase their probability of getting a nice 
photo shoot? Ms. Estill?
    Ms.  Estill. I don't have an answer for you.
    Mr. Gallegly. Mr. Chairman, I yield back.
    Mr. Gilchrest. That is an interesting question, although I 
think it would be more fun to spend more time out there looking 
for the wildlife with your camera without toothpaste and other 
hygiene items.
    Mr. Gallegly. You don't even have to have a hunting 
license, either.
    Ms.  Estill. I suppose there is an answer to that, and it 
would go back to the State responsibility for managing the 
wildlife, and particularly managing hunting and managing the 
ways that that hunting is done in each State.
    Mr. Gilchrest. Very good response. It is an interesting, 
fascinating scenario. Although I don't know if I would want to 
put more Twinkies out there than we already have for the 
photographers.
    Mr. Hogan, could you tell us from your perspective, I 
understand Fish and Wildlife's hesitancy with Mr. McKeon's 
legislation. Fish and Wildlife is already, to a large extent, 
stretched beyond its capacity and its resources. So adding 
another responsibility means you have to take people from other 
critical places.
    Can you tell us what you think, and this is not only a 
ballpark, this is the whole USA, so you can be as wide open as 
you want to be, but how many people do you think it might take 
to enforce this legislation, not allowing people to have or 
trade in these big cats?
    And if we did pass this legislation, well, when we pass 
this legislation, do you see the State Fish and Game, local 
organizations, local humane societies playing a part in 
monitoring and even in some cases enforcing this Federal law?
    Mr. Hogan. Well, I don't know that I will be able to give 
you the answer you are looking for, Mr. Chairman. We really 
don't have a good idea how many of these cats are out there. So 
without knowing exactly how many cats there are, it would be 
difficult to say how many agents it would take. And, again, the 
way the bill is written does not prohibit possession, it only 
prohibits moving the cat in interstate commerce.
    Mr. Gilchrest. Do you suggest we prohibit possession as 
well?
    Mr. Hogan. I am not prepared to say that for the Fish and 
Wildlife Service.
    Mr. Gilchrest. Would you say there is a problem with these 
big game cats being housed in areas where people don't have 
enough room, enough food, enough knowledge how to deal with 
them?
    Mr. Hogan. In certain circumstances, it certainly seems 
there are some issues out there with people who are not 
educated, informed, and are not properly--
    Mr. Gilchrest. Do you have recommendations if we do not 
pass the legislation as to what you would do?
    Mr. Hogan. Well, again, our focus is again mainly on the 
wild species. We spend a lot of time looking for enforcements 
of violations of the Endangered Species Act, which does include 
four of the species listed.
    As far as the individual possession of those species in a 
State, I am not really prepared to suggest that the Fish and 
Wildlife Service, or prepared to suggest to you what would be 
the proper way to address that. Our main concern is just that, 
as you appropriately noted, it would pull our limited resources 
off of the enforcement of some of the issues that we feel are 
much more high priority for conservation of those species in 
the wild and not focus on largely domestically raised, captive-
bred species.
    Mr. Gilchrest. Can you give me an example of an endangered 
tiger?
    Mr. Hogan. I am sorry, an endangered?
    Mr. Gilchrest. Tiger.
    Mr. Hogan. Well, tigers are listed under the--
    Mr. Gilchrest. All tigers are listed under the Endangered 
Species Act?
    Mr. Hogan. Correct.
    Mr. Gilchrest. What if somebody has a tiger in their 
backyard and somebody calls the Fish and Wildlife? They have 
possession of a tiger in their backyard, which is endangered, 
and somebody calls or gets in touch with you somehow? What do 
you do?
    Mr. Hogan. Well, possession of the tiger wouldn't 
necessarily be illegal. It would be if that person entered it 
into interstate commerce or if that person illegally took the 
tiger without a permit. So in the case if someone had a tiger 
in their backyard and they called us--
    Mr. Gilchrest. Under the take provisions of ESA why is 
possession of that tiger not illegal?
    Mr. Hogan. I am sorry? I didn't get the question.
    Mr. Gilchrest. Under the take provisions of ESA, why is 
possession of having that tiger in the suburbs of Los Angeles 
or some other place not illegal?
    Mr. Hogan. Would you allow me 1 second to confer with one 
of our law enforcement agents to make sure I get this correct?
    Mr. Gilchrest. Take as much time as you need.
    Mr. Hogan. Thanks, Mr. Chairman. The Endangered Species Act 
doesn't necessarily prohibit someone from possessing the tiger, 
especially if that tiger was, for example, raised from a cub in 
captivity.
    Mr. Gilchrest. The Bald Eagle is not endangered any more, 
right?
    Mr. Hogan. No, it still is endangered.
    Mr. Gilchrest. Can I have a Bald Eagle in my house? If I 
had a Bald Eagle without a permit in my House, and somebody 
called Fish and Wildlife, what would happen?
    Mr. Hogan. You would probably get a visit by some of our 
agents.
    Mr. Gilchrest. What is the difference between a Bald Eagle 
and a tiger?
    Mr. Gallegly. They are a lot bigger.
    Mr. Pallone. And more dangerous.
    Mr. Gilchrest. All right, that is it.
    Mr. Hogan. Well, Bald Eagle possession is actually 
prohibited not by the Endangered Species Act but by the Bald 
and Golden Eagle Protection Act, so you wouldn't be in 
violation--
    Mr. Gilchrest. So we need a Tiger Protection Act. We need 
language to protect the tiger in this legislation. That is 
good. I think we will make sure we put it in there then. So 
possession of a tiger in this legislation will result in a 
statute that makes it illegal?
    Mr. Hogan. And that would be separate from the Endangered 
Species Act. Right now, possessing a tiger would not be a 
violation of the Endangered Species Act.
    Mr. Gilchrest. So there is a separate Federal law that 
protects the Bald Eagle as opposed to other endangered species?
    Mr. Hogan. That is correct.
    Mr. Gilchrest. Are there any other endangered species that 
has that type of protection like the Bald Eagle does?
    Mr. Hogan. If you give me one more second, I will find out 
for sure.
    Some species could be protected under either the Migratory 
Bird Treaty or Marine Mammals. I cannot give you the exact list 
right now, but I would be glad to supply that for the record.
    Mr. Gilchrest. OK. I was going to ask what is the 
difference between take and possession, but I will yield now to 
Mr. Pallone.
    Mr. Pallone. I am going to ask Mr. Hogan another question. 
Thank you, Mr. Chairman.
    We had a lot of discussion about the baiting issue and 
deferring to States on it, but my understanding is that the 
Fish and Wildlife Service prohibits baiting on refuge lands, 
with some exceptions for Alaska, for example, now. What is the 
rationale behind that policy?
    Because generally you seem to be saying you defer to the 
States. So why is baiting prohibited on refuge lands? What is 
the reason?
    Mr. Hogan. Refuges actually are closed to all human 
activity unless they are specifically open, unlike BLM units or 
Forest Service units, which are actually open until closed. 
Now, in Alaska it is a little confusing in that refuges are the 
exact opposite. Under ANOCA, refuges are open to all activities 
until closed. So on the Fish and Wildlife Service refuge lands, 
we would literally have to have regulations to allow baiting.
    Refuges, comparatively, are much smaller in size than, say, 
National Forests or units of the BLM. So in that circumstance, 
on such a small area, bear baiting could actually work against 
some of the wildlife management objectives of the State. So 
that is why in general baiting is prohibited. And it is all 
baiting, and it is mainly targeted toward waterfowl. But all 
baiting of wildlife on all National Wildlife Refuges is closed 
in the lower 48, open in Alaska.
    Mr. Pallone. Again, I understand your response and also Mr. 
Baughman's response earlier, but it just seems to me there is a 
lot more interaction than you are suggesting. In other words, 
how does the bear know when it is on refuge land versus other 
land? And in terms of what Mr. Baughman said earlier, I was 
envisioning like a hiker, and you gave me this idea, which I 
understand about how the baiting is in remote areas and it is a 
different phenomena from where there are people. But there are 
hikers and other people that go in those remote areas. So it 
seems to me you would have circumstances where, if baiting 
exists, a hiker or someone might be exposed to a bear that has 
been baited and got away.
    But I guess you see those as more isolated situations, and 
you are looking at what you consider the more likely scenario. 
There may be isolated instances like that, but that is not the 
major concern, I guess. If either one of you want to respond, I 
don't know.
    Mr. Baughman. Mr. Chairman, in Wyoming, that is a good 
point, Mr. Pallone.
    In Wyoming, baits cannot be placed within 200 yards of any 
trail and within a half a mile of any campground. Before a lot 
of these regulations were in place, I know there were problems, 
but I think those problems have largely been rectified. And in 
fact the baits have to be identified as to whose bait it is, so 
if there is a problem occurring, whether it is a Forest Service 
employee or a Wildlife officer, they can get in touch with that 
person and have that bait moved.
    Mr. Pallone. OK. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone. Mr. Gallegly, any 
further questions?
    Mr. Gallegly. Might I just have one brief follow-up 
question for Ms. Estill? Because I keep getting back to the 
issue of the States making decision on what is appropriate for 
bear hunting.
    If in fact you truly believe that the Federal Government 
should not be making these decisions, do you think, then, that 
it was unwise for Congress to pass the Federal Airborne Hunting 
Act that prohibited shooting from aircraft? That was preempting 
the States in that case.
    So what would be the difference in saying it is OK to 
prohibit one act but not OK to prohibit another act if your 
argument is predicated on a States versus Federal?
    Ms.  Estill. I am going to defer to John to respond to 
that. I would just go back to there have been a number of bills 
and statutes that reinforce the States' primary responsibility 
unless there is some danger to Federal resources.
    Mr. Gallegly. Mr. Baughman, would you say it is unwise that 
we passed the Federal Airborne Hunting Act? Do you think that 
was unwise?
    Mr. Baughman. Mr. Chairman, Mr. Gallegly, no, I don't think 
it was unwise. In fact, flying aircraft in airspace is 
regulated by the Federal Government and I think they were 
regulating practices and the way airplanes are used. And in 
fact there are exceptions in there for wildlife management.
    Mr. Gallegly. Mr. Baughman, you used the reference that the 
conduit there is that the Federal Government regulates 
airspace. I might remind the gentleman that the Federal 
Government also regulates Federal lands. This bill only has to 
do with Federal lands. It does not have to do with private 
lands within States. What is the difference?
    Mr. Baughman. Mr. Chairman, Mr. Gallegly, I can't speak for 
the Congress, but I believe that there is human safety in terms 
of that method of flight and using aircraft. I believe there 
are safety factors there that do fall under Federal concerns. I 
don't think the same concerns were there with the baiting of 
bears on the ground and in national forests.
    Mr. Gallegly. I think the gentleman is making my argument 
for me if we are going to talk about Federal safety as well, 
because this is all about safety.
    Mr. Chairman, I think the gentleman answered the question. 
Thank you.
    Mr. Gilchrest. Thank you, Mr. Gallegly.
    One more quick question for Mr. Hogan. Can you, in the 
coming days, give us, from your legal team, an explanation for 
the difference between take and possession?
    Mr. Hogan. Well, I can actually give you that definition 
now. Take is actually killing or somehow taking the animal. 
Possession, in and of itself, is just simply having the animal 
in your possession.
    Mr. Gilchrest. Really? So we need to change that. Thank you 
very much. I appreciate everybody's testimony. We thank the 
witnesses for coming today.
    Our next panel is Ms. Tippi Hedren, President of the Roar 
Foundation; Dr. Eric Miller, DVM, Director of Animal Health and 
Conservation, St. Louis Zoo, and American Zoo and Aquarium 
Association.
    Good afternoon.
    Ms. Hedren. Good afternoon to you.
    Mr. Gilchrest. Dr. Miller, Ms. Hedren. Ms. Hedren, I hope 
you find us as fascinating as we find you.
    Mr. Gallegly. I doubt it.
    Ms. Hedren. Thank you. Well, I appreciate that.

             STATEMENT OF TIPPI HEDREN, PRESIDENT, 
                      THE ROAR FOUNDATION

    Ms. Hedren. I especially am very grateful to be here and I 
thank the Chairman and other members of the Subcommittee on 
Fisheries Conservation, Wildlife and Oceans. I am very grateful 
to my congressman, Buck McKeon, and George Miller, who 
introduced this bill a while ago.
    I am going to just tell you a little story about how I got 
started so that you will understand that I do have a validity 
in talking about these big cats and the danger that they 
provide us as pets.
    Thirty years ago, I did a film in Africa and became 
concerned about the diminishing numbers of big cats, wild 
animals in general, just due to encroaching civilization, 
sports hunting, and, of course, worst of all, poaching. We saw 
on the Ngorongoro Game Preserve a house that had been abandoned 
by a game warden because it flooded during the rainy season, 
and a pride of lion moved in and it grew to be the largest 
pride in all of Africa.
    During that time, also, environmentalists were saying if we 
don't do something right now, the editorial ``we,'' about 
saving the wildlife, by the year 2000 they will be gone. A 
great deal of awareness was going out, and my then husband and 
I decided to make a film about wildlife and the problems, and 
we decided to use the great cat after seeing that house on the 
Ngorongoro Game Preserve.
    So we got back to California, the script was written, and 
we had full intentions of using acting animals and have a 9-
month shoot, over and out. However, as soon as the trainers of 
these actors of these wild cats heard that we would be maybe 
using 20 cats at a time, 15, whatever, they just laughed at us 
and said you can't do it because of instinctual dictates to 
fight. They suggested that we acquire our own animals to do the 
movie.
    Well, the first one was a rescue. A doctor in Mandeville 
Canyon in Los Angeles had purchased a little 8-week-old lion 
cub. Cute? Adorable? Oh, you bet. Fed it with a bottle, cuddled 
it, slept with it at night. By the time it was 7 months old, it 
had destroyed his house and it had taken a pretty good chunk 
out of him, and he was screaming someone take this unmanageable 
little beast off my hands.
    That was the beginning. Then we heard about several other 
little animals that needed a home. Pretty soon, we had seven of 
them, and we boarded them at a place that was one of the animal 
trainers. Then we heard about some excess zoo animals, excess 
older circus animals, animal parks. But the common denominator 
was the private citizen who had purchased this little cub or a 
little animal and found out they couldn't handle it.
    In fact, it had become such a major, major issue with these 
animals that our 9-month shoot became 5 years, just because of 
a lot of accidents that we had. I was bitten in the back of the 
head by a lioness, my daughter was scratched severely in the 
face--thank God for wonderful plastic surgeons--our director of 
photography was scalped, my stepson was bitten in the head. I 
mean it just goes on.
    I have three books of evidence that I took out of my 
files--I didn't bring them all because I would have had to 
bring the whole cabinet--that I would like to enter into the 
Congressional Record, along with my testimony.
    Mr. Gilchrest. Without objection.
    [The three books referred to have been retained in the 
Committee's official files.]
    Ms. Hedren. Thank you. And the attacks don't stop. A little 
boy in Texas, who had put his arm in to scratch the tiger that 
belonged to his uncle, the tiger ripped the little boy's arm 
off. They retrieved the arm. It took 11 hours to attach the 
arm, and he has very little use of it.
    A little 11-year-old girl was brought into a tiger's cage, 
again in Texas, by the stepfather. The tiger jumped the little 
girl, bit her in the neck and she was instantly dead. The real 
father was on television, tears rolling down his face, saying 
why aren't there laws to prevent this kind of a problem? A 
woman in Colorado had her arm ripped off. It doesn't stop.
    The whole situation has become of such a concern that about 
5 years ago we formed an association, a number of us who have a 
sanctuary type of facility. And that means no breeding, no 
buying, no selling, no trading, no commercial use, perimeter 
fencing around this, and not just an 8-by-10 cage but a 
habitat, with adequate veterinary care. Not all veterinarians 
are capable of taking care of these animals. We formed an 
association called the American Sanctuary Association so that 
if the Shambala Preserve can't take an animal because we are 
filled, and we are always filled, there is a waiting line to 
come into these sanctuaries, but if I can't take an animal, I 
can call another one and I know that that animal is going to be 
safe and not end up in some horrible situation or in a canned 
hunt. And of course you know what the canned hunts are about. I 
don't have to go into that with you all.
    But this situation has become very bad. We have a lion who 
was living in a basement outside of Branson, Missouri; another 
little lion who was walking down the streets of Kirksville, 
Missouri all by himself; a little black leopard who was 
abandoned in a garage in the bitter cold month of February in 
Wyoming. All four pads were frost bitten. She lost 4 inches off 
her tail due to frost bite, was undernourished, and was one 
angry little animal when she came to us. It took almost 4 years 
before she wouldn't come flying at the fence at us she was so 
angry and so frightened.
    We have 67 animals at the moment, and every single one, or 
many of them came from, excuse the expression, the ``Tiger 
Rescue'' out in southern California, in the Riverside area. 
That is an area of California where just recently it was 
exposed that this man named John Weinhart had been keeping 
these animals for approximately 30 years.
    I went there 5 years ago and left in tears. Because of the 
American Sanctuary Association, it is important we check out 
different places to see if they were a sanctuary or what they 
were like. At this particular one I was very upset and appalled 
by what I was seeing. First of all, the fencing was not 
adequate, there was very little shelter for the animals. This 
was basically lions and tigers. There were dead chickens, green 
with mold, feathers and feces and the stench was horrible.
    Mr. Gilchrest. Where was this?
    Ms. Hedren. It is in the Riverside area. It is called 
Colton. It was owned by a man named John Weinhart. He is no 
longer involved in it. The Fund for Animals has sort of taken 
over.
    Last November, Fish and Game called and asked if I could 
take 13 tiger cubs that were found at John Weinhart's place. He 
didn't have a breeder's permit, therefore they could confiscate 
the animals. I said I don't have room for them, I will talk to 
my staff and see if we can take several of them, and we did 
take three. They all came in sick. They all had a terrible case 
of mange, which is a very, very communicable disease. All of 
our animals are in quarantine for a month, but we had to keep 
them in for 2 months.
    Apparently, the Weinharts home, just about 2 months ago, 
Fish and Game heard there was another tiger there. They went to 
check it out and they not only found that tiger, a young tiger 
sitting on the veranda or something, but they found two Cayman 
alligators in the bathtub; they heard scratchings in the 
ceiling, they opened the vent and a little tiger cub fell out, 
about 2 weeks old. There were nine tiger cubs and two leopard 
cubs up in the vent that they were trying to hide. This man has 
been breeding these animals to sell. There was a truck loaded 
with tiger skins. There were carcases of almost 20 tigers at 
their home, around their grounds, skinned.
    This is the sort of thing that has got to stop. There was 
another place in Idaho where there were 18 cats running free, 
just because the fencing was so poor, and the whole facility 
was falling down. There is another place in west Kansas with 
the same kind of situation.
    I don't know how many breeders there are, but because there 
are not laws, this is why this is happening. It is happening 
because nobody is stopping them. And the statement was made 
that there aren't enough investigators or there aren't enough 
people to stop this. That should be addressed, too, and should 
be rectified. Because until this whole issue is stopped, there 
are going to be more people hurt, more children killed.
    It is an unconscionable act that is going on, and you, the 
Congress, have the capability of stopping it. I wish I could. 
God knows, I wish I could. You do. And there isn't a reason in 
the world that these animals should be pets. They are 
dangerous. And, to me, in the vernacular of today, it is a no-
brainer. You have the capability. You in the House, you in the 
Senate, you have the capability of doing something about this, 
and I urge you so fervently to vote in favor of the Captive 
Wildlife Safety Act.
    Mr. Gilchrest. Thank you very much.
    Ms. Hedren. I thank you so much for inviting me to be here 
today. This is a cause I have been working on for 7 years. I 
have been to Washington often talking about it, and to be here 
is a mission I feel accomplished, and I hope you will react on 
it.
    Mr. Gilchrest. We will, Ms. Hedren. And your passion has 
been eloquently expressed.
    Ms. Hedren. Thank you. If there are any questions, I would 
be delighted to answer them.
    [The prepared statement of Ms. Hedren follows:]

       Statement of Tippi Hedren, President, The Roar Foundation

    Mr. Chairman and other Members of the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans, I am very grateful to you for 
electing to conduct a hearing on H.R. 1006, the Captive Wildlife Safety 
Act. I am especially grateful to my Congressman, Buck McKeon, and to 
Representative George Miller for introducing this important 
legislation. This bill, if enacted, would fulfill a dream I have had 
since the mid-1990's: to see a Federal law adopted to promote public 
safety and to prevent the abuse of wild cats kept as pets.
    For 30 years, since I began working with big cats, I have been 
amazed that there are no Federal laws uniformly regulating the 
transport of wild and exotic species kept as pets by private owners 
across the United States. Consider:
    Near Houston, Texas, on March 15th, 2000, four-year-old Jayton 
Tidwell watched his uncle reach into the cage of the 400-pound Bengal 
tiger named Cheyenne he kept in the back yard. Little Jayton wanted to 
pet his uncle's beautiful tiger, too. The tiger responded by tearing 
off Jayton's arm.
    Doctors reattached the arm after eleven hours of surgery, but to 
date Jayton's right arm remains largely useless. However, Jayton was 
lucky. Other children lose their lives to big cats recklessly kept as 
pets. In October, 2001, on a farm outside Lexington, Kentucky, one of 
the three pet tigers kept by Kerry Quinney snatched his three-year-old 
grandson Matthew Scott from his arms as they were having their picture 
taken in the tiger pen. Matthew died of massive head injuries after the 
250-pound tiger dragged him around the pen.
    Adults are also killed or maimed. In April, a woman who had six 
years' experience handling the big cats suffered a fatal loss of blood 
when a tiger ripped off her arm. A volunteer at Safari Joe's Rock Creek 
Exotic Animal Park in Adair, Oklahoma, she was working outside the cage 
when the tiger managed to grab her.
    Vince Lowe died at Savage Kingdom, an exotic animal ranch in Center 
Hill, Florida, where he volunteered as a way to gain experience for a 
state certificate to handle big cats. On August 1, 2001, Lowe was 
cleaning the cage of a 500-pound Siberian tiger named Tie when the 
animal tore out of an interior retaining cage to seize Lowe by the 
neck.
    Gene Light's pet tiger Rufus, who lived in Light's back yard in 
Lubbock, Texas, attacked him in May, 1999. The tiger dragged him down 
and bit his head, ripping out his jaw and right ear.
    These are only a few of the incidents involving big cats and 
people. I learn of horrific stories such as these repeated again and 
again around the nation. At Shambala, which over 30 years ago was the 
location in Southern California for a film to raise awareness about 
animals in the wild, we suffered our share of injuries when we were 
learning about the big cats. During the filming of our movie ROAR, a 
lioness pinned me down and held the back of my head in her jaws, 
requiring over 50 stitches. My daughter, actress Melanie Griffith, had 
her face deeply scratched by a lion's claws. Our Director of 
Photography, Jan de Bont, had his scalp peeled back by a lion. Our set 
photographer, Bill Dow, was hospitalized for nine days with a gash in 
his arm inflicted by a lion's jaws. My stepsons John and Jerry Marshall 
were bitten on the head and the foot, respectively. Perhaps most 
frightening of all, our Assistant Director, Doron Kauper, was very 
nearly killed by a lion that repeatedly leapt at his throat. We learned 
the hard way, and we don't want to see others learn from our bitter and 
painful experience.
    Injuries and deaths, when they occur, are never the fault of the 
animal. They are the fault of the person who puts himself or herself, 
or someone else, in jeopardy, and allows the animal an opportunity. 
Fortunately, we lived to tell the tale, learning our lessons about 
these animals from making ROAR. We are living proof that these animals 
should not be pets.
    When an attack occurs, the animal is merely acting according to its 
instinctual nature as a predator. We can never fully understand or 
control these instincts. More importantly, we deceive ourselves-
dangerously-by believing wild animals such as big cats can ever be 
``tamed,'' that is, taught to abandon their instincts.
    After completing ROAR, we had become a very important facility for 
rescuing big cats. State fish and wildlife departments all over the 
United States called us to take abandoned animals, as did officials 
from the U.S. Department of Agriculture, humane societies and SPCAs, 
circuses, zoos, and most of all, private citizens who had purchased a 
big cat as a pet. In 1983, I formed the Roar Foundation, a 501(c)(3) 
nonprofit organization, to financially support the Shambala Preserve. 
We had become a sanctuary with very stringent rules: no buying, no 
breeding, no trading, no selling of animals, and no commercial use.
    The Captive Wildlife Safety Act seeks to prevent the interstate 
transport of big cats for the pet trade, and it will curb the frequency 
of human injuries by shrinking the number of people who live with these 
animals. Exceptions are provided to allow for accredited facilities, 
such as zoos, sanctuaries, and humane societies, to keep these animals.
    Only 34 states have laws of any kind regulating the possession of 
wild and exotic animals. Only 17 of those states, such as California, 
have stringent laws that truly protect the public, laws with teeth. 
Even then, those laws may not be enforced due to budget constraints. 
The Federal Government can help protect people and the big cats by 
adopting a law to complement state efforts, and to fill a gap where no 
state laws exists.
    At Shambala, we recently built a new enclosure at a labor cost 
alone of $20,000 for three young tigers. These animals survived being 
bred at a deplorable facility in Colton, California, called, 
ironically, ``Tiger Rescue,'' which currently houses 72 tigers on seven 
acres. The leopard we rescued from this facility also needs a compound 
built for her. The California Department of Fish and Game originally 
asked Shambala to take 13 tiger cubs that had been bred at the facility 
illegally. The Department of Agriculture asked us to take three intact 
male tigers that have impregnated four tigresses. We expect that many 
more pregnant tigresses will be discovered over the coming year. Due to 
financial and space constraints, we had to decline to take these animal 
refugees.
    The operator of ``Tiger Rescue,'' John Weinhart, made national news 
recently when Fish and Game agents entered his home. In addition to 
coming across 58 tiger cubs in a freezer, the authorities found the 
skinned, rotting carcasses of many adult tigers littering the property, 
along with a truckload of tiger pelts. Weinhart appears to be a man who 
profited by breeding and selling tigers and their parts under the guise 
of ``rescuing'' them. A live tiger may be sold for less than the cost 
of purebred puppy, but its dismembered parts may yield more than 
$10,000, making them worth a lot more dead than alive.
    The trade in wild and exotic species grows larger each year. In 
addition to selling skins and other body parts, traders make money 
breeding the animals for sale to the public as pets or to canned 
hunting facilities. At a canned hunt, for a fee of three to twenty 
thousand dollars or more, a so-called ``hunter'' can shoot a captive 
animal at close range for a guaranteed trophy.
    Experts say the demand has created a cottage industry for breeding 
tigers and other big cats as pets, performers, or for canned hunts. 
When uncontrolled, such breeding creates conditions that make abuse of 
wild and endangered species almost inevitable.
    ``Once there are tigers in private hands, the production is going 
to go skyrocketing,'' states Richard Farinato, director of the Captive 
Wildlife Protection Program of the Humane Society of the United States. 
``The result is too many cats, too little space, and ``'' tigers in 
places where there is no way they can care for them well.''
    In one form or another, such deceptive ``rescue'' operations as 
Weinhart's can be found throughout America, especially in the Midwest. 
Operations such as Weinhart's flourish because both state fish and 
wildlife agencies and state agriculture departments do not have the 
investigators they need to enforce the laws.
    These false ``rescue'' facilities that breed animals for commercial 
use often justify their activities by claiming they are preserving 
endangered species. In fact, they are not the answer to the tiger's 
survival, since these individuals are not involved with any reputable 
species survival plan. Accredited zoos call these crossbred tigers 
``mutts.'' Unregulated breeding can lead to birth and genetic defects, 
compromised immune systems, and shortened life spans for the animals. 
``The tigers that you find in the private sector will never, ever, be 
introduced into the wild, and I doubt that they have any value for 
either conservation or research,'' according to Ron Wilson, director of 
conservation at the Minnesota Zoo and coordinator of a nationally 
adopted Tiger Species Survival Plan that carefully controls captive 
breeding of tigers in zoos across the country.
    While all tigers are protected under the Endangered Species Act, 
mixed-breed tigers are subject to less stringent regulations, including 
being allowed to be sold under some circumstances. Purebred tigers 
cannot legally be sold through interstate commerce, and their owners 
must obtain Federal permits. Owners of generic tigers are not required 
to have Federal permits, according to Tim Santee, a special agent with 
the U.S. Fish and Wildlife Service. These loopholes create, ``a second-
class citizen of endangered species,'' vulnerable to black market sale 
and mistreatment, said Craig Hoover, deputy director of TRAFFIC, which 
monitors illegal trade in exotic animals for the World Wildlife Fund.
    Increased trade in wild and exotic animals creates a growing crisis 
for sanctuaries. To be considered a sanctuary like the Shambala 
Preserve, a facility must be outside city limits, provide proper 
veterinary care, have habitats and a surrounding perimeter fence, ban 
commercial use of the animals, and forbid buying, breeding, selling or 
trading animals. Any animal accepted at a sanctuary will be protected, 
cared for, and given a home for the rest of his or her natural life. 
But the need far outstrips the capacity of the sanctuaries. Zoologists 
and veterinary experts estimate that the number of wild and exotic 
animals living in backyards in the United States far exceeds 50,000. 
More tigers live in the state of Texas than in their native habitat of 
India. Texas contains the majority of the breeders and half of the 
1,000 canned hunts in the U.S.
    My desire is not to take the animals away from their current 
keepers, but to prevent the trade from continuing to put people and big 
cats at risk. I should emphasize that at no time have I proposed or 
endorsed any state or Federal legislative measure that would prohibit 
ownership of wild and exotic animals or require that animals be 
confiscated across the board from their present owners. Where would we 
put them all? Our sanctuaries are already overburdened. Such a scenario 
would be a nightmare, likely resulting in many thousands of innocent 
animals being euthanized and a large increase in deaths and injuries to 
humans due to huge numbers of animals having to be moved. Rather, my 
approach has been, both with the Shambala Wild Animal Protection Act 
and the Captive Wildlife Safety Act, to keep wild and exotic animals 
out of the hands of those who would cruelly exploit them or fail to 
protect the public from the dangers they present.
    How does an ordinary citizen obtain an extraordinary animal such as 
a lion or tiger, leopard, cheetah, jaguar, or mountain lion, the large 
cats covered in the Act?
    It is surprisingly easy. Wild and exotic animals of all types are 
available every day through newspaper ads, on the Internet, or in 
person from a breeder, who may be selling cubs out of the back of a van 
at a local mall. In some states it is more difficult to obtain a dog 
license than to keep a lion or tiger in your back yard. The cute and 
playful cub has likely had its claws removed and will be touted to an 
unwary buyer as a ``good pet.''
    A breeder attempted to illegally sell two Bengal cubs for $10,000 
each at a fashionable mall in Newport Beach, California. After they 
were confiscated, Shambala became the home to one of the tigers, 
Tamara, who has lived healthily at the preserve for many years. 
However, her sister died, as both were sick upon arrival.
    Spider, Dagger, and Whitey, three brothers who are a mixture of 
Siberian and Bengal tiger, were bred in Nevada. The breeder used them 
in television commercials when they were 6-weeks-old cubs. Had we not 
intervened to give them a home, they would have then ended up doing 
such things as providing photo opportunities in shopping malls.
    Boo, a black leopard, has a reputation as the most vicious cat at 
Shambala. He came from a private owner who kept him locked in a closet 
to protect the furniture. The owner donned heavy gloves to wrestle with 
him when he was let out, turning him into a potentially highly 
dangerous cat. Boo came to the preserve as one very angry animal. Over 
the decade of loving and respectful care he has received at Shambala he 
has gradually become less hostile to humans. But to take him for 
granted, even today, could be a terrible mistake. Only a few months of 
abuse can mark an animal for life. They never forget.
    Within a matter of weeks the buyer of an adorable, cuddly cub is 
likely to rue the decision as it becomes apparent that the rapidly 
growing animal is unmanageable, dangerous and destructive. The average 
person doesn't know the rigorous and expensive care that exotic species 
require, nor are most veterinarians familiar or experienced with their 
specialized needs.
    A desperate owner's choices are few, and may be grisly. Zoos will 
not take an animal without knowing its genetic history. State fish and 
wildlife agencies do not take in animals or routinely find them homes. 
Humane societies and community animal shelters generally deal 
exclusively with dogs and domestic cats. Thus, the animal might be 
euthanized, abandoned, or sold to an animal dealer, no questions asked, 
from where it may likely go to a canned hunt. Tigers are banned from 
such hunts under the Endangered Species Act, but the lure of the 
profits they can generate as prey may be irresistible. ``The message 
is, if you've got the money, we can provide it for you,'' says Michael 
Markarian, president of the Fund for Animals. ``For $400 or $500 you 
can buy a tiger off the Internet,'' Markarian notes. ``And if it's that 
easy for someone who wants to have a tiger in their backyard to buy it, 
it's just as easy for someone who wants to shoot that animal to get 
it.''
    Luckier animals find space in a sanctuary. A few years ago, to 
coordinate the rescue efforts of sanctuaries around the country, a 
number of true sanctuaries formed the American Sanctuary Association, a 
network of 40 facilities that follow a uniform practice code of no 
buying, breeding, selling, or trading. Furthermore, to qualify as a 
sanctuary with the ASA, the facility must allow no commercial use of 
the animals, have proper veterinary care, be outside city limits, be 
completely surrounded by a perimeter fence, and keep animals in 
habitats, not just cages.
    With the leopard, Savannah, and the three young tigers we accepted 
from ``Tiger Rescue'' in Colton, our total population at Shambala now 
comes to 63 large cats and one African elephant on 40 acres. We are at 
capacity, as are most sanctuaries nearly all of the time. A week seldom 
goes by that I am not approached to take additional animals. Accredited 
sanctuaries all over the United States are filled, with more than 400 
animals waiting to come into sanctuary.
    Each animal's care at the Shambala Preserve averages $12,315 per 
year, out of a total annual budget of $825,000. Our budget is nearly 
$70,000 per month to feed and house the animals, not including 
rebuilding, repairing, or expansion. For desperately needed 
improvements in our buildings and property, we need an additional $1 
million.
    Throughout its 30 year history, Shambala has existed entirely on 
private donations, including my own. I have never been paid as the 
Director of the non-profit preserve, the President of the Roar 
Foundation that supports the preserve, or the President of the American 
Sanctuary Association. Those who share this vision and this cause 
possess a selfless dedication and willingness to sacrifice financial 
reward out of devotion to rescuing animals. We certainly don't do it 
for the money. We do it for the love of these animals and to respond to 
this crying need for help. As such, passage of this Act will be a 
necessary reward and encouragement to those who have given their lives 
to the welfare of wild and exotic species.
    When a state department of fish and wildlife or a state agriculture 
department wants us to take an animal, it almost never sends funds to 
help us maintain the animal. We must make a commitment to feed, shelter 
and care for that animal for the rest of its natural life (which can be 
as long as 20 years or more) with no money attached. Yet the government 
has failed to pass laws to stem the growing tide of wild and exotic 
animals, many of which are destined never to find a safe, permanent 
home and thus may be subject to atrocities such as occurred at ``Tiger 
Rescue.''
    The House of Representatives--starting with the members of this 
Committee--can bring help to alleviate this crisis by passing the 
Captive Wildlife Safety Act. It is a bipartisan, common sense measure 
to safeguard the public and prevent harm to animals. It will help stop 
a largely underground and in many cases criminal economy that breeds, 
trades and butchers wild, exotic, and often endangered species.
    This inhumane, irresponsible traffic in wild and exotic animals can 
be stopped. The atrocities and accidents I mentioned earlier occurred 
only because nobody stopped them.
    I love these animals more than my next breath, but they are not 
pets. Not one more child should be hurt or killed. Not one more person 
of any age should suffer the physical pain, debilitation, and emotional 
trauma of an attack.
    I urge you to act responsibly. Pass the Captive Wildlife Safety 
Act.
                                 ______
                                 
    Mr. Gilchrest. There will be. We will let Dr. Miller go 
first, and then we will ask both of you some questions.
    Dr. Miller.

 STATEMENT OF DR. ERIC MILLER, DVM, DIRECTOR OF ANIMAL HEALTH 
  AND CONSERVATION, ST. LOUIS ZOO, AMERICAN ZOO AND AQUARIUM 
                          ASSOCIATION

    Dr. Miller. Thank you, Mr. Chairman, for the opportunityto 
testify on behalf of the American Zoo and Aquarium Association, 
the AZA, in support of the bill 1006, the Captive Wildlife 
Safety Act. This is a much-needed bill designed to prohibit the 
interstate and foreign commerce of tigers, lions, cheetahs, 
cougars, leopards, and jaguars for use as pets.
    My name is Eric Miller and I am a veterinarian, and 
currently the Director of Animal Health and Conservation at the 
St. Louis Zoo. Before I begin with the AZA testimony, I would 
like to also request that the written testimony of the American 
Association of Zoological Veterinarians, which represents over 
a thousand veterinarians caring for zoo animals and wildlife in 
the United States, be entered in the hearing record.
    Mr. Gilchrest. Without objection.
    [The statement of the American Association of Zoological 
Veterinarians submitted for the record follows:]

        Statement of Wilbur Amand, V.M.D., Executive Director, 
        American Association of Zoo Veterinarians, on H.R. 1006

    Thank you Mr. Chairman for the opportunity to testify this morning 
on a very important piece of legislation, H.R. 1006--the Captive 
Wildlife Safety Act.
    My name is Wilbur Amand. I am a veterinarian and the Executive 
Director of the American Association of Zoo Veterinarians (AAZV).
    The AAZV is comprised of approximately 1200 veterinarians working 
in the field of veterinary medicine dealing with captive and free-
ranging wild animals. As an advocate for the profession, the mission of 
the Association is to improve the health care and promote conservation 
of captive and free-ranging wildlife.
    The Veterinary Standards Committee of the AAZV has established 
Guidelines for Zoo and Aquarium Veterinary Medical Programs. These 
Guidelines were drafted in response to the highly specialized medical 
needs of captive wild animals. The veterinary medical program requires 
accessibility to an adequately trained and experienced veterinarian and 
qualified personnel, sufficient resources to support staff and 
implement the program, and access to hospital facilities appropriate 
for the number and types of animals housed at the facility.
    Today in the U.S. there is an active pet trade in wild animals. 
Exotic and wild animals have become increasingly popular as pets and 
large cats (tigers, lions, cougars, jaguars, cheetah) are in high 
demand. There are an estimated 10,000-20,000 large cats in private 
hands in the U.S., with approximately 5,000-7,000 tigers, (The Humane 
Society of the United States, February 2003).
    As veterinarians specifically trained to care for exotic and wild 
animals, the AAZV is sensitive to the specialized needs of these 
animals as well as the dangers of handling these animals and the 
tremendous expense to provide appropriate care.
    Exotic and wild animals when kept as pets, often suffer from poor 
health either due to inadequate nutrition, poor husbandry or due to 
various surgical procedures, such as declawing and dental extractions, 
performed for the sole purpose of trying to turn a wild animal into a 
pet. Many practicing domestic animal veterinarians lack the training 
and experience to effectively prevent and treat health problems in 
exotic and wild animals.
    Exotic and wild animals are not suited to be kept as pets. The 
average private owner lacks the expertise and facilities to provide 
appropriate housing, secure containment, adequate nutrition, 
appropriate medical care and cannot meet the complex social, emotional, 
and behavioral requirements of these animals.
    The AAZV is in agreement with the positions of the American 
Veterinary Medical Association, the Association of Zoos and Aquariums 
and the United States Department of Agriculture, Animal Plant Health 
Inspection Service, Animal Care on the private ownership of wild 
animals as pets.
AAZV's Position:
    Based on the experience and knowledge of our member veterinarians, 
who specialize in providing medical care to exotic and captive wild 
species, the American Association of Zoological Veterinarians (AAZV) 
believes that nonhuman primates, large carnivores and venomous reptiles 
should not be kept as pets.
    The AAZV believes keeping and trading exotic and captive wild 
animals can cause serious problems including: (1) zoonotic disease 
transmission; (2) human injury and death; (3) compromised animal 
welfare due to inadequate knowledge and experience to meet the complex 
social, emotional, behavioral and physical needs of these animals; (4) 
medical problems due to inadequate veterinary care and poor nutrition; 
(5) abandonment, suffering or death due to insufficient financial 
resources to provide a safe and humane environment; (6) potential for 
escape due to improper transport, insecure containment or lack of 
proper equipment; (7) damage to wild populations of rare species due to 
over-collection, introduction of non-native species or exotic diseases.
    Dangerous wild animals should only be maintained by qualified, 
trained experts from accredited zoological institutions or other 
professionally operated and regulated facilities. Placement of 
abandoned pets in zoological facilities is difficult because of space, 
genetic diversity and social interaction concerns, and few sanctuaries 
that are qualified to care for these animals exist.
    The AAZV position on the private ownership of wild animals as pets 
is consistent with the statements of the American Veterinary Medical 
Association and the American Zoo and Aquarium Association.
                                 ______
                                 
    Dr. Miller. It is in close agreement with the statements I 
will give from the AZA.
    I would note from the Zoo Vet Association I am a past 
president and current board member, so I am closely aware of 
their interest in this bill.
    As for the AZA, I am also a member of their board of 
directors and a veterinarian adviser to the AZA Tiger Taxon 
Advisory Group. In that role, I have had the good fortune to 
work in the conservation of South China tigers in Asia.
    AZA represents 212 professionally managed and accredited 
institutions, which draw over 136 million visitors annually, 
and we have more than 5 million zoo and aquarium members. We 
collectively care for over 800,000 wild animals. Many of these 
are extremely dangerous and require our expertise. In our 
collections, AZA institutions have 300 lions, 450 tigers, 200 
cheetahs, 140 leopards, 170 cougars, and 90 jaguars. Based on 
our member institutions' unparalleled experience and expertise 
in dealing with these animals, the AZA firmly believes that 
large wild felids cannot be properly maintained by individuals 
without the necessary resources or knowledge to care for them.
    The wild cats identified in the bill 1006 have a very 
specific physical, behavioral, husbandry, health and 
nutritional needs which can rarely be met by someone holding 
these animals as pets, as has been so eloquently pointed out. 
These powerful, unpredictable animals should only be maintained 
by qualified experts from accredited zoological institutions or 
other professionally operated government regulated facilities. 
Curatorial staff in these facilities have the requisite 
knowledge and experience to meet the behavioral and physical 
needs of these animals and understand the inherent risks 
associated with caring for them.
    It is in this context that we express our support for this 
bill. This legislation takes direct aim at the dramatic 
increase in the number of unregulated and untrained individuals 
who are maintaining large wild felids as personal pets. 
According to most estimates, there are between 5,000 and 10,000 
tigers in private hands in the United States, more than all 
their native habitats in Asia, where the numbers probably are 
below 5,000.
    Only 12 States have enacted outright bans on private 
ownership of these dangerous animals. Full enforcement of these 
bans has been inconsistent at best. The result has been a 
patchwork of laws and regulatory loopholes that have ultimately 
led to a thriving commercial trade in dangerous exotic animals 
as well as increased public safety and animal welfare concerns.
    The inconsistent enforcement of current regulations, 
coupled with this increasing demand, has fostered a not fully 
known but uncontrolled industry in exotic pets, especially 
large felids. Tiger cubs can be bought for as little as $300, 
about the price of a purebred house cat. Most of us have heard 
of the recent raid in a California home where the California 
State Department of Fish and Game found 30 adult lions and 
tigers and 58 cubs dead in a freezer. Allegedly, the adults 
were left to starve to death because they were no longer 
marketable to buyers, and the cubs were killed due to 
overproduction.
    In an unrelated event, a 3-year undercover investigation, 
led by Federal officials, uncovered a 16-member exotic animal 
ring in the Midwest that slaughtered dozens of Federally 
protected big cats for their body parts during the late 1990's.
    As we have heard, private ownership of large felids also 
creates significant public health consequences. In the past 4 
years, attacks by big cats either kept as private pets or in 
exhibited nonaccredited roadside zoos have killed at least 9 
children and adults and injured uncounted others. Often in 
private homes, these animals are subject to unhygienic 
conditions that are both a public safety and animal welfare 
concern.
    Keeping these animals as pets without proper veterinary 
care husbandry increases the neighbors' risk of contracting 
transmissible diseases from these animals. These animals are 
extremely dangerous in the hands of these private owners, and 
their presence in communities endangers neighboring adults, 
children and domestic pets.
    For the animals themselves, ignorance of their nutritional 
needs often leads to malnutrition. I brought with me, and would 
like to enter into evidence, pictures of a tiger cub that I 
personally treated that has folding fractures of one leg bone, 
which is typical of malnutrition, a lack of calcium in the 
diet. We get calls for, I am sure not as much as Ms. Hedren, 
but one case a month at our zoo, and our national association 
hears about 10 cases a month of people looking for homes for 
these maltreated animals.
    Dr. Miller. I would note that unregulated breeding also 
raises the risk of genetic birth defects among large felids 
that have included skeletal metabolic problems, crossed eyes, 
and increased mortalities. These handicapped animals may 
eventually be slaughtered in order to rid them or sell their 
parts. In addition, typically these animals have no breeding or 
genetic records, and this does present a conservation issue for 
those of us that are trying to preserve them as a species.
    This is a problem for us, as you can tell, when pet owners 
abandon their animals at accredited zoos where we are looking 
for orphanages for them because they do not fit into our 
collections, or they do not fit our established breeding 
programs because of a lack of genetic background or they are 
socially misfit.
    Unfortunately, a typical case occurred in 1995 at the St. 
Louis Zoo when I was called in the middle of the night to 
retrieve a lion cub that had been abandoned as a pet and tied 
to the zoo's gate. It was declawed and socially inept, and the 
zoo was unable to keep it as we already had a full contingent 
of lions. The animal was spayed to prevent further breeding and 
then was sent to a wildlife sanctuary in California 
specializing in large cats. However, it was never successfully 
reintroduced to other large cats in that facility and is now 
living out its life alone. It is an unfortunate outcome for the 
most social of large cats.
    The abandonment of unwanted animals is a common occurrence 
for AZA member institutions. We simply cannot take these cats 
due to limited space and our carefully managed genetic 
programs. In addition, caring for these discarded animals 
represents a huge financial burden that takes away from our 
limited resources normally directed toward animal care, 
conservation education, conservation science, and fields 
research.
    Mr. Chairman, as a zoo veterinarian and as a zoo 
professional, I believe to protect both animal and human 
welfare this unfortunate cycle must end, and this bill is the 
first logical step in a complex process.
    Thank you again, Mr. Chairman, for this opportunity to 
comment on this important public safety and animal welfare 
issue. I also would be happy to answer any questions you may 
have.
    [The prepared statement of Dr. Miller follows:]

    Statement of Eric Miller, D.V.M., Director of Animal Health and 
 Conservation, Saint Louis Zoological Park, and Board Member, American 
               Zoo and Aquarium Association, on H.R. 1006

    Thank you Mr. Chairman, for the opportunity to testify before you 
and the Subcommittee regarding H.R. 1006, the Captive Wildlife Safety 
Act. Before I begin, I would like to request that my written testimony 
on behalf of the American Zoo and Aquarium Association (AZA) be 
included in the hearing record. I also respectfully request that the 
written testimony of the American Association of Zoological 
Veterinarians be entered into the record as well.
    My name is Dr. Eric Miller, D.V.M. I am Director of Animal Health 
and Conservation for the Saint Louis Zoological Park and a member of 
the American Zoo and Aquarium Association's Board of Directors.
    AZA represents 212 professionally-managed and accredited 
institutions which draw over 136 million visitors annually and have 
more than 5 million zoo and aquarium members. AZA institutions are the 
leaders in animal care and welfare, conservation science and 
conservation education. One of the cornerstones of AZA is its Species 
Survival Plan (SSP) program'a long-term plan involving genetically-
diverse breeding, habitat preservation, public education, field 
conservation and supportive research to ensure survival for many 
threatened and endangered species. Currently, AZA member institutions 
are involved in 108 different SSP programs throughout the world 
covering 159 species, including African and Asian lion, three species 
of tiger--Siberian, Indochinese and Sumatran, clouded and snow leopard, 
cheetah and jaguar.
    It is in this context that AZA expresses its support for H.R. 1006. 
The bill is a logical starting point for addressing the public safety 
threats posed by the private ownership of certain wild and dangerous 
animals as pets, as well as the important animal welfare issues 
associated with the personal ownership of these animals.
    H.R. 1006 represents a much-needed step towards stemming the tide 
of the growing exotic animal pet trade. This legislation takes aim at 
the dramatic increase in the number of unregulated and untrained 
individuals who are maintaining large wild felids as personal pets. 
According to most estimates, there are between 5,000 to 10,000 tigers 
in private hands as pets in the United States--more than there are in 
their native habitats throughout Asia. In addition, there are hundreds, 
and possibly thousands, of lions, cougars, and other big cats being 
kept as pets in small cages, on tethers in backyards, holed up in 
garages, and even living in people's homes.
    Specifically, H.R. 1006 would amend the Lacey Act to prohibit the 
interstate and foreign commerce of dangerous exotic animals defined as 
lions, tigers, leopards, cheetahs, cougars, and jaguars for use as 
pets. This legislation would not ban the private ownership of these 
species. The legislation specifically exempts zoos, circuses, 
accredited sanctuaries, incorporated humane societies and others that 
are currently regulated by the U.S. Department of Agriculture (USDA) 
under the provisions of the Animal Welfare Act.
    Only 12 states have enacted outright bans on the private ownership 
of these dangerous exotic animals with seven other states enacting 
partial bans. Full enforcement of these bans has been inconsistent. The 
result is a patchwork of laws, regulatory loopholes and a thriving 
commercial trade in dangerous exotic animals. There are hundreds of web 
sites and numerous catalogues that market exotic animals, including 
dangerous and powerful carnivores, as pets.
    The inconsistent enforcement of current regulations and increasing 
demand has fostered a dangerous underground industry in exotic pets. 
Tiger cubs can be bought for as little as $300, about the price of a 
purebred cat. The increasing demand for wild cats from exotic pet 
owners has fueled an industry of breeders who produce litters of large 
cats for sale, many times illegally in spite of USDA licensing 
requirements for breeding and Endangered Species Act protection for 
many endangered and threatened species of cats. These unlicensed 
breeders may engage in overproduction due to demand from exotic pet 
owners. In a raid of a California home in April of 2003, the California 
State Department of Fish and Game found 30 dead adult lions and tigers 
and 58 cubs found dead in a freezer. Allegedly the adults were left to 
starve to death because they were no longer marketable to buyers and 
the cubs were killed due to overproduction. In an unrelated event, a 
three-year undercover investigation by Federal officials uncovered a 
16-member exotic animal ring in the Midwest that slaughtered dozens of 
Federally protected big cats for their body parts during the late 
1990's.
    Unregulated breeding also raises the risk of genetic birth defects 
including skeletal and metabolic problems, crossed eyes, and inflated 
mortalities. These handicapped animals may eventually be slaughtered in 
order to get rid of them or sell their parts. With unregulated 
breeding, these animals have no breeding or genetic record behind them. 
This is problematic when the pet owners abandon their animals at 
accredited zoos which are unable to introduce them into their legal 
breeding programs due to a lack of genetic background information as 
well as other constraints. This type of breeding decreases the genetic 
viability of the species and increases the risk of tainted bloodlines 
getting into American zoological collections and possibly wild 
populations.
    Private ownership of large felids also creates significant public 
consequences. In the past four years, attacks by big cats kept as 
private pets or exhibited in non-accredited, roadside zoos have killed 
at least nine children and adults and injured uncounted others. Often 
in private homes, these animals are subject to unhygienic conditions 
that are both a public safety and animal welfare concern. Keeping these 
animals as pets without proper veterinary care increases the risks of 
neighbors and homeowners contracting diseases from the animals. These 
animals are extremely dangerous in the hands of private owners as pets, 
and their presence in communities endangers neighboring children, 
domestic pets and others.
    Collectively, AZA institutions care for over 800,000 wild animals 
on a daily basis--many of these animals are extremely dangerous. AZA 
institutions care for over 300 lions, 450 tigers, 200 cheetahs, 140 
leopards, 170 cougars and 90 jaguars in our collections. Based on our 
member institutions' unparalleled experience and expertise in dealing 
with these animals, the AZA firmly believes that large wild felids 
cannot be properly maintained by individuals without the necessary 
resources or knowledge to care for them. The wild cats identified in 
H.R. 1006 have very specific physical, behavioral, husbandry, health 
and nutritional needs, which would rarely be met by someone who 
possesses these animals for use as a pet. These powerful, unpredictable 
animals should only be maintained by qualified experts from accredited 
zoological institutions or other professionally-operated, regulated 
facilities. Curatorial staff in these facilities have the requisite 
knowledge and experience to meet the behavioral and physical needs of 
these animals and understand the inherent risks associated with caring 
for these animals. In addition, these facilities have the resources to 
provide the necessary housing, nutrition, veterinary care and 
enrichment to accommodate the animals' special needs and to maintain 
them in a safe and humane environment.
    The draft AZA Guidelines for Large Felids in Captivity reinforces 
this position by stating in its section on Animal and Keeper Safety: 
``Large felids can easily cause injury or death to other felids or 
humans and great care should be used when raising young felids as they 
may become very tame toward humans, thus providing the opportunity for 
staff to get careless. It should not be forgotten that they are very 
capable of injuring their owners and that staff should not enter cages 
of juvenile or adult individuals no matter how tame they used to be as 
infants. Insuring that doors and gates are secure is critical, as is 
the constant checking of locks to insure animals cannot escape. A 
system of keeper labels on entrances will help insure that staff does 
not enter animal enclosures while animals are present. For personal 
protections, keepers should carry pepper spray.'' The practices 
described are needed in any facility to ensure the humane and safe 
management of these animals. Such standards of practice are extremely 
rare in private homes. These animals are so difficult to maintain that 
in the past two years exotic pet owners have abandoned hundreds of 
tigers at local animal shelters, sanctuaries and zoological facilities 
because they were no longer able to care for them.
    An unfortunately typical case occurred in 1995 at the Saint Louis 
Zoological Park, when I was called in the middle of the night to 
retrieve a lion cub that was abandoned and tied to the Zoo's gate. It 
was declawed and socially inept, and the Zoo was unable to keep it as 
we already had a full contingent of lions. The animal was spayed to 
prevent further breeding of surplus lions and was then sent to a 
wildlife sanctuary in California specializing in large cats. However, 
it was never successfully reintroduced to the other large cats in the 
facility and is now living out its life alone. It is an unfortunate 
outcome for the most social of the large cats. This is a common 
occurrence for AZA member institutions. We simply cannot take in 
unwanted exotic cats due to limited space, our carefully managed 
genetic diversity programs among our populations and social interaction 
concerns. In addition, caring for these discarded animals represent a 
huge financial burden that takes away from limited resources which are 
normally directed towards animal care, conservation education and 
conservation science and field research.
    There is also emerging consensus on the part of animal welfare, 
public safety and professional organizations and the Federal Government 
concerning the need for concerted action to address the issue of large 
carnivores that are kept as pets. For example, the American Veterinary 
Medical Association ``strongly opposes the keeping of wild carnivore 
species of animals as pets and believes that all commercial traffic of 
these animals for such purpose should be prohibited.''
    The American Association of Zoological Veterinarians which 
represents over 1000 veterinarians caring for zoo animals in the United 
States points out in their testimony that keeping and trading exotic 
and captive wild animals can cause serious problems including: (1) 
zoonotic disease transmission; (2) human injury and death; (3) 
compromised animal welfare due to inadequate knowledge and experience 
to meet the complex social, emotional, behavioral and physical needs of 
these animals; (4) medical problems due to inadequate veterinary care, 
poor nutrition, poor husbandry or due to various surgical procedures, 
such as declawing and dental extractions, performed for the sole 
purpose of trying to turn a wild animal into a pet; (5) abandonment, 
suffering or death due to insufficient financial resources to provide a 
safe and humane environment; (6) potential for escape due to improper 
transport, insecure containment or lack of proper equipment; and (7) 
damage to wild populations of rare species due to over-collection, 
introduction of non-native species or exotic diseases.
    Finally, the U.S. Department of Agriculture has launched an 
information campaign to educate the general public about the inherent 
personal risks and animal care/welfare issues associated with wild cats 
as pets. The agency has released a position statement which states that 
only qualified, trained professionals should keep wild and exotic cats 
because the average person lacks the specialized equipment and 
expertise to provide properly for the containment, medical care, 
husbandry and nutrition of these animals. The statement concludes by 
illustrating a tragic cycle that has become all too common: ``Large 
wild and exotic animals obtained as pets are usually acquired as 
appealing cubs, but when the animals are fully grown, owners become 
dismayed at the high cost and difficulty of providing for their upkeep. 
As a result of these difficulties, or because the animal has either 
attacked someone or otherwise shown aggression, the owners may try to 
find a new home for the animal. The subsequent placement of unwanted 
wild animal pets in zoos is difficult, if not impossible and few 
sanctuary facilities exist.''
    This unfortunate cycle must end and H.R. 1006 is the logical first 
step in this complex process.
    Thank you again, Mr. Chairman, for this opportunity to comment on 
this important public safety and animal welfare issue. I would be happy 
to answer any questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    I do have a few questions to run through. Do either one of 
you--you may have suggested it--have any idea, how pervasive 
this problem is around the country?
    Ms. Hedren. All I can tell you is that it is enormous. 
Because of the fact that there are no laws, there aren't 
agencies who can count how many animals are in existence.
    I am talking about lions and tigers and leopards and that 
sort of thing. I have heard estimates, depending on which 
organization you talk to, that there could be 50--tens of 
thousands, probably even 50,000 wild animals. I am not talking 
just cats, I am talking about--whether it is the python or 
whatever kind of wild animal.
    But the numbers are enormous. With these tigers that are 
coming out of Colton right now, there are three--the Department 
of Agriculture asked me 2 weeks ago if I could take three 
intact male tigers, which have already impregnated four 
females. One of them gave birth just 2 weeks ago to four cubs.
    There are three more that they know of, and they have no 
idea how many tigresses have been impregnated by these two 
male--three male tigers. That alone is going to be an enormous 
situation, a problem of great concern to all of us who are 
trying to find homes for those animals.
    Dr. Miller. I think I mentioned that the estimates are 5- 
to 10,000. I would agree wholeheartedly, that is an estimate. 
It might be more than that. I think what is critical to 
remember, and for me and our association, where Federal 
legislation is helpful, some States regulate and some don't. 
But what happens is, it just keeps moving to the unregulated 
States.
    And for the interstate commerce, the Federal Government 
does have the capability to do that. It would just be a huge 
and helpful first step to have that interstate trade regulated.
    Mr. Gilchrest. Are there any States that prohibit 
possession of big cats?
    Ms. Hedren. Hawaii. Yes, there are.
    Mr. Gilchrest. I know my State prohibits it.
    Ms. Hedren. There are a number of States that prohibit 
ownership. There are approximately 37 States that have laws 
about--and 19 of them are stringent. California is one of them. 
That is why it is so amazing that this place in Colton was able 
to continue as it did. Nobody can figure that out.
    But it is simply because nobody did anything to stop it. 
But the laws are such that in--as an example, California has 
excellent laws. So if somebody is kicked out of California, 
they go right into another State that the laws are less 
stringent.
    Mr. Gilchrest. Dr. Miller, you said that there are more 
captive wild cats than there are wild cats in the wild.
    Dr. Miller. Tigers. Tigers in Asia, the best estimate--and 
I am familiar with this because I worked on the South China 
tiger, which is possibly the most endangered--the estimates are 
64 left in zoos and probably none in the wild.
    But if you put all the subspecies together, the Bengal, the 
Siberian, the Sumatran, numbers are certainly less than 5,000 
and perhaps less than 3,000.
    Mr. Gilchrest. Are you saying--
    Dr. Miller. Total population. Wild.
    Mr. Gilchrest. Is there any possibility, or is there any 
plan underway to sort of, over a period of time, repatriate 
these animals that are captive to the wild?
    Dr. Miller. Certainly--well, one of the problems with these 
tigers that we are talking about today is their genetics are 
unknown. They may be cross-breeds, they may be a mix between 
Siberian found on the Russian-Chinese border, and Bengal which 
is found in India, which has two different--
    Mr. Gilchrest. So you would never want to introduce those--
    Dr. Miller. Unless we know the genetics.
    Mr. Gilchrest. Can the genetics be discovered in those 
specific animals?
    Dr. Miller. In some cases we can with new DNA testing. Many 
we know from their genetics are cross-bred.
    Mr. Gilchrest. Would it be better to have, for future 
generation, to have some cross than to have none in the wild?
    Dr. Miller. That is a good question. It is one that is 
hotly debated in the conservation community. We have chosen 
within the zoo community to carefully manage our population so 
that when it comes to repatriating Siberian tigers or Bengal 
tigers or Sumatran, that they are a pure subspecies with all of 
the benefits.
    I don't think anyone is ready to say that, well, we are 
going to totally discard a cross-bred animal. It is certainly 
not the way we want to go now.
    Mr. Gilchrest. Would you like to see--the bill doesn't 
prohibit, which I think we need to look into further as far as 
the Endangered Species Act is concerned and as far as actual 
possession is concerned--would you like us--what is your 
opinion on us going further to make it outright illegal to 
possess any type of wild cat? And the bill lists a number of 
exempted groups from this legislation. Do you think the number 
of exempted groups in the legislation is too broad?
    Dr. Miller. I would have to address that with the AZA. I 
would like to see any--this is a personal opinion now--any bill 
have--
    Mr. Gilchrest. All legislation is based on personal 
opinion.
    Dr. Miller. --strict regulations for what it would require. 
Like you have talked about the sanctuary movement now that has 
strict standards; that there would be strict and clear 
standards of what it would take to hold those animals.
    Mr. Gilchrest. Can you come up with those standards for us 
so we can take a look at them? We have some exemptions here, 
but some of the exemptions are animal shelters or societies for 
the prevention for cruelty to animals. They might not have the 
same kind of setup as a zoo, for example, would have.
    Dr. Miller. That is correct. In my experience, most of 
those have been temporary way stations, the certified American 
Humane Society, or certified by other agencies. I think it is 
more important to make sure that they are certified by someone 
so that it doesn't become a private owner saying, well, I am a 
humane society, or someone who is certified by a bona fide 
sanctuary movement that has some credentialing behind them, as 
we have done with the AZA zoos.
    There are 212 zoos that meet a standard that I am 
comfortable here defending. I would not defend every roadside 
zoo that may say, I want to hold a large cat. Not by any means.
    Mr. Gilchrest. Thank you. I am going to, at this point now 
yield to the gentleman from California, Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. For the 
record, I am a cosponsor of this legislation. I think that this 
is, to quote Ms. Hedren, a no-brainer. But one of the concerns 
that I had in listening to the testimony is, I think, Ms. 
Hedren, you said that currently 37 States have some form of 
legislation as it relates to this issue on the books now.
    One of the problems that we have is--and solving problems, 
is not always just getting the correct legislation but getting 
the enforcement mechanism to enforce the laws of the land. It 
is not limited to animal issues, it goes well beyond that. You 
can put a 65-mile-an-hour speed limit on the freeway, but if 
there is no one there to enforce it, it really is moot.
    Do you feel that, while there are 37 States that currently 
have some form of legislation, that this Federal law not only 
would help the other 13 States but would also help the 37 
States because of this issue of enforcement?
    Ms. Hedren. Yes, I do think that it would help 
tremendously. It is vitally important that this happens. 
Otherwise this will continue. The breeding will continue. The 
sales as pets will continue. All of it will continue. It is 
vitally important that this issue is on a unilateral basis all 
of the way across this United States.
    Mr. Gallegly. Dr. Miller, from an enforcement standpoint, 
while you have those laws out there, are they really being 
enforced?
    Dr. Miller. It depends on the situation. But I can say on 
behalf of the AZA, and I also personally agree with it, we have 
lobbied Congress for more inspectors with the United States 
Department of Agriculture that inspects licenses to exhibit, 
and we have done the same for the U.S. Fish and Wildlife 
Service. I would hate to see lack of enforcement become the 
limiting factor.
    We would feel that--we want that enforcement.
    Mr. Gallegly. Thank you.
    Ms. Hedren. I do, too. I feel it is very, very important. I 
admire the laws that are existing in the States, that they are 
stringent. I do think that it makes a difference. I have heard 
people from States that the laws are stringent, they can't 
believe, you know, what happens in the States that are lawless. 
They can't believe it. It just doesn't even seem possible that 
people would have these animals.
    Mr. Gallegly. In California--and you made reference to the 
operation, if you want to call it that, in Colton. And we know 
in the State of California that is there is a real economic 
crisis going on with being able to provide services to the 
people of California.
    Do you think that the enforcement aspect of this State--of 
course economic problems are not limited to California, 
although I think that ours sets a new record-- but the fact is, 
with those economic situations, problems in California and 
other States, do you believe that this has been maybe one of 
the reasons that the operation in Colton may have slipped 
through the cracks?
    Ms. Hedren. No, I think it slipped through the cracks a 
long time ago and nobody stopped him. That is what the problem 
is. I heard statements that he wouldn't let inspectors in from, 
you know, the different inspectors, that he wouldn't let 
anybody in to see what kind of damage was going on there.
    Mr. Gallegly. How do you prohibit an inspector, a law 
enforcement officer, how do you keep them from getting on your 
property?
    Ms. Hedren. Well, I don't know. Because they certainly come 
onto mine all of the time. They come onto the Shambala 
Preserve. Boy, if I have one nail out of place, I hear about 
it. And if that isn't--if that nail is out of place, it is 
repaired immediately. But I don't know, I don't have an answer 
to that. I would like to hear the answers from Fish and Game 
and the Department of Agriculture about why this place was 
allowed to continue to go.
    Mr. Gallegly. It sounds to me that they are spending time 
in the wrong places.
    Dr. Miller.
    Dr. Miller. Well, I was just going to add to that. I will 
use my own State as an example. If someone had bought a lion or 
a tiger from this Colton operation in Missouri, and they come 
to St. Louis City, we fortunately have a good local ordinance.
    But they can move to the next county and there is nothing 
that can be done about it, because it doesn't violate the 
Endangered Species Act, it doesn't violate any interstate 
trade. This legislation would allow us, then, if that person 
got caught, to say where did you get that? Trace it. It was 
from California. Now it is illegal. Right now that enforcement 
is not--there is not even the ability to approach that, let 
alone enforcement.
    Mr. Gallegly. I yield back, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Gallegly. The gentleman from 
Hawaii.
    Mr. Abercrombie. Thank you, Mr. Chairman. I apologize for 
the lateness of my arrival. But I am so interested in what Mr. 
Gallegly is trying to accomplish.
    Mr. Gilchrest. This is not just--this is Buck McKeon's bill 
for this panel. The next panel is Mr. Gallegly's bill. You can 
ask Dr. Miller and Ms. Hedren about bear baiting, they may have 
an opinion. But this is not--you might want to wait until the 
next panel.
    Mr. Abercrombie. Well, I am interested in that. I am 
interested--I had assumed you had gotten through the first 
bill.
    Mr. Gilchrest. We got one more panel.
    Mr. Abercrombie. I see.
    Mr. Gilchrest. Do you have any questions for this panel?
    Mr. Abercrombie. Well, I think I will wait and look at the 
record then, because I will probably go over ground that you 
already covered.
    Ms. Hedren. I would like to interject that we have a 
mountain lion that came from Hawaii, who was brought in 
illegally into the State of Hawaii. And, because of the fact 
that had this little young mountain lion cub been taken to a 
veterinarian to give the shots that would keep its immune 
system safe, they didn't take it to a veterinarian, and the 
little cub became ill and came to us with some sort of a muscle 
problem, and she wasn't able to stand up. She would--if she 
took three steps, she would fall over. And what we did was, we 
tracked--we gave her all kinds of things to chase, whether it 
was a coconut or a bowling bowl or a big plastic ball or 
something for her to track. And now she can walk pretty well. 
She doesn't fall over anymore.
    Mr. Abercrombie. I appreciate that. That is one of the 
points that I was--I didn't want to burden the Committee with. 
But because of our situation in Hawaii, we have animals 
imported all of the time that are not supposed to be there.
    And this includes--we have all kinds of difficulties that 
way. We have no snakes there, for example; at least we are 
trying to keep them out, like the brown tree snake comes in.
    We have had to deal--our problem is that is the kind of 
thing that gets publicity, because it seems rather--it gets 
into pop culture, if you understand what I mean. It can attract 
the attention of the nitwit journalism shows, so that they can 
talk about why are they spending money trying to keep snakes 
out of Hawaii, as opposed to dealing with the real issue of 
trade in exotic animals, which tends to be something that they 
think goes on Animal Planet or Discovery Channel or something 
like that, whereas this is a really--there is a trafficking in 
this that is appalling.
    Ms. Hedren. It is huge.
    Mr. Abercrombie. The consequences of it, of course, you are 
trying to deal with. So I am interested in the legislation, 
that we can deal with it. Particularly maybe just you can tell 
me one thing. Where do you see CITES in all of this?
    Ms. Hedren. I don't know that CITES is even an issue here, 
because the animals that I am talking about are born in 
captivity. They are bred and born to be sold as pets. Lions, 
tigers, leopards.
    Mr. Abercrombie. It doesn't get into the elixirs and exotic 
herbal compounds?
    Ms. Hedren. Well, no, they are doing that too. In fact, the 
tigers outside of Colton in California that were being sold, 
that is exactly what happens to these animals. They are sold 
for their body parts.
    Mr. Abercrombie. That is the point then, Mr. Chairman. I 
think this can get a lot more complicated--I don't mean to 
diminish the pet side of it, but I am really concerned that 
this kind of thing can take place.
    Mr. Gilchrest. Thank you, Mr. Abercrombie.
    Ms. Hedren and Dr. Miller, we appreciate your time and your 
patience with us today. And your testimony has gone a long way 
to improving our understanding as to what the problem is, and 
we will act expeditiously.
    Ms. Hedren. I thank you so much.
    Mr. Gilchrest. Thank you very much.
    Our next panel will be the Honorable Ron Marlenee, the 
Sheriff of Montana--that is what it says, Ron--Director of 
Legislative Affairs, Safari Club International, accompanied by 
Dr. Dwayne Etter, Michigan Department of Natural Resources; Dr. 
Charles Jonkel, co-founder and president of Great Bear 
Foundation; Mr. Wayne Pacelle, Senior Vice President, Humane 
Society of the United States; Mr. Stephen Haleen, National Bear 
Hunting Defense Task Force; and Mr. William P. Horn, Director 
of Federal Affairs, U.S. Sportsmen's Alliance.
    Thank you very much for coming this afternoon, gentlemen 
and for being so patient. We will start with the gentleman from 
Montana, Mr. Marlenee.

    STATEMENT OF HON. RON MARLENEE, DIRECTOR OF LEGISLATIVE 
  AFFAIRS, SAFARI CLUB INTERNATIONAL; ACCOMPANIED BY: DWAYNE 
        ETTER, MICHIGAN DEPARTMENT OF NATURAL RESOURCES

    Mr. Marlenee. Thank you, Mr. Chairman and members of the 
Committee. It is a pleasure to be back here with you, all of 
you, my esteemed friends of the past, and I hope that you do 
not recall the transgressions or indiscretions we may have 
committed while we were still colleagues. Do not hold it 
against me.
    I represent the Safari Club International, an international 
group of sportsmen, and we have looked at this legislation, we 
have consulted with scientists and specialists all over the 
United States. The justification of a bill is usually found in 
the findings section.
    With all due respect to those who crafted this legislation, 
we find that each and every item in the findings section is 
flawed. Sound science and professional wildlife officials 
refute them, as they have today continually, time after time. 
The bill is not needed and, frankly, harms both bear 
populations, professional wildlife management, and increases 
the probability of contact between humans and nuisance bears.
    The State of Michigan states: This bill, if enacted, would 
severely limit the ability of the Michigan Department of 
Natural Resources to manage Michigan's black bear resource.
    The New Hampshire Wildlife Management specialists state 
that, ``The loss of baiting would constrain our management 
efforts and likely result in the increase of human and bear 
conflicts.''
    The findings statements are grossly misleading. Findings 1 
and 2 attempt to tie the bureaucracies' discouraging of feeding 
the bears with the management tool of baiting. They are two 
entirely different cases. The first attracts bears, leaving 
them without fear, and nobody argues against that part. The 
second is an effective management tool that actually enhances 
bear populations by allowing selective harvest rather than--
    Mr. Abercrombie. Mr. Chairman, excuse me. Would you repeat 
that once again? I missed the point. What did you say is not a 
point? What is not an issue? You just read--can you repeat 
that?
    Mr. Marlenee. Which part, Congressman?
    Mr. Abercrombie. You said something is not at issue. What 
is not at issue?
    Mr. Marlenee. Well, let me go back here. Do you want me to 
go back through the findings statements that are grossly 
misleading?
    Mr. Abercrombie. Just a sentence or two back. You said 
something was not at issue--before you got to the management 
part.
    Mr. Marlenee. Was that in the first or second? Findings 1 
and 2 attempt to tie bureaucracies' discouraging the feeding of 
bears with the management tool of baiting. They are two 
entirely different cases. The first attracts bears without 
fear, leaving them without fear. Now, we don't--there is no 
argument we shouldn't do that.
    The second is an effective management tool that actually 
enhances healthy bear populations by allowing selective 
harvests rather than split-second shots at moving targets in 
heavy brush. This preserves females and cubs. Baiting 
diminishes the probability of a wounded bear and allows a 
humane harvest. In grizzly country, it greatly diminishes the 
accidental shooting of a threatened species, as you might 
guess. If you don't have to do a split-second shot, if you have 
the opportunity to sit there and evaluate the animal that you 
want to take, you should not accidentally shoot a bear. And if 
you do, you are prosecuted.
    Findings 3 and 4 attempt to portray the baiting stations as 
an abomination in the environment. This is so misleading as to 
be a fabrication. Quote, ``A typical bait station consists of 
hundreds of pounds of food,'' end quote. Would that be a 
landfill or a pickup truck backing up to the forest or a refuse 
truck that missed the landfill and just dumps out in the 
forest? The truth is that sportsmen don't want any more bait 
than necessary, because they first have to haul it out there, 
and, second, they have to haul it back out.
    They take it out, and then they haul it back out. This is a 
stinky, messy job at best. However, it discredits the idea put 
forth by animal activists that it is left in the forests. State 
and Federal law prohibit this. Generally the laws state that 
you may place bait at no more than two bait stations. Minnesota 
allows three.
    The bait must be biodegradable, as prescribed by most law. 
You must remove the bait, litter, and equipment from the bait 
station when the hunting is completed. This includes, if you 
will--goes to the extent of including contaminated soil. Bottom 
line: You either haul out your trash or you are subject to 
citation.
    Finding 5 is the paramount example that reveals the extent 
the animal activists will go to eliminate hunting. It deserves 
a special quote. And that is: The presence of bait stations on 
Federal land allows bears to increase their food intake and 
results in higher birth rates, increasing bear populations.
    Let's be realistic. Let's examine this. Let's look at this 
fat bear myth. Michigan has a total population of 20,000 bears, 
approximately, 17 to 20. Minnesota has a population somewhere 
near 30,000.
    A small amount of bait, as the witnesses have stated here, 
is used by a relatively few number of sportsmen. Now, let 
assume that every hunter used an average of 10 pounds of bait 
per station. Further assume that the entire bear population had 
access to all of the bait. It extrapolates that the bait 
consumption per bear per day would be much less than the weight 
of one of those infamous bear Twinkies that they are talking 
about feeding the bears.
    From this we get fat bears? I don't think so. The animal 
activists who believe that sportsmen set up bagel bars and 
Twinkie feeders--the baiting stations last for a relatively 
short period of time. They are controlled, and every hunt there 
is a requirement to clean it up.
    Findings 7, 8 and 9 deal with feeding bears, habituating 
bears, and conflict with people. When you give handouts to 
bears, they are on your back step. Sportsmen are not out there 
giving handouts to bears. They want to bait the bears. They 
don't want the bears to identify them as being there.
    The preponderance of the evidence from wildlife managers is 
that hunting bears increases their avoidance factor. The facts 
from fish and game departments and professional wildlife 
managers is that the very bears who have the potential to 
become problem bears or nuisance bears are those who are likely 
to be attracted, and these are eliminated by the very practice 
of baiting. Conversely, those who are wild and whose food 
supply is abundant tend to avoid human-scented food and are 
difficult to hunt.
    Finally, finding number 10. Now, this makes much of the 
National Park Service open dumps and hand-feeding of bears. 
This is an apples and oranges comparison. Again, you don't 
hand-feed bears in the national forest and you don't leave bait 
piles and refuse. The Alaska directors of Fish and Game stated 
that it should be noted that Juneau is one of the areas with 
the most chronic and persistent black bear problem, and it is 
located in a management unit where baiting is prohibited.
    Today or yesterday there was a news article that I ask be 
included with my testimony from the newspaper in Juneau that 
outlines the black bear being--coming in and killing a dog in a 
yard. This is a city that does not allow bear baiting or a 
management unit that does not allow bear baiting.
    Contrast that with Fairbanks where hunting, including 
baiting, is allowed in the outskirts of the community and where 
black bear problems are nil.
    Finally, the States were given the responsibility for 
managing wildlife. This legislation supersedes that State 
rights issue. Wildlife management is site-specific. Passage of 
this Act would usurp State authority and would establish an 
inappropriate and unscientific one-size-fits-all approach to 
the management of this particular species. This was succinctly 
pointed out by the esteemed gentleman that was the Chairman of 
this full Committee.
    NRA opposes this, SCI opposes this, the Sportsmen's Caucus 
opposes this, the Sportsmen's Alliance oppose this, 
International Association of Fish and Wildlife Agencies. In 
other words, virtually every group that represents sportsmen, 
that represent the people who have contributed the most to 
wildlife management and to wildlife expansions and wildlife 
populations and to habitat, all--you can say virtually all of 
them oppose this legislation.
    Mr. Gilchrest. Thank you, Mr. Marlenee.
    [The prepared statement of Mr. Marlenee follows:]

         Statement of The Honorable Ron Marlenee, Consultant, 
     Governmental Affairs, Safari Club International, on H.R. 1472

    Mr. Chairman and Members of the Subcommittee thank you for giving 
me the opportunity to address you today. My name is Ron Marlenee I am 
here on behalf of Safari Club International. SCI is the leader in 
protecting the freedom to hunt and promoting wildlife conservation 
worldwide.
    The justification for a bill is usually found in the Findings 
Section. With all due respect to those who crafted this legislation we 
find that each and every item in the Finding Section is flawed. Sound 
science and professional wildlife officials refute them. The bill is 
not needed and frankly harms both bear populations, professional 
wildlife management and increases the probability of contact between 
humans and nuisance bears. The State of Michigan states; ``This bill, 
if enacted, would severely limit the ability of the Michigan Department 
of Natural Resources to manage Michigan's black bear resource. The New 
Hampshire Wildlife Management specialists state that the loss of 
baiting would constrain our management efforts and likely result in an 
increase in bear human conflicts.
    The Findings statements are grossly misleading. Findings (1) and 
(2) attempt to tie the bureaucracies discouraging the feeding of bears 
with the management tool of baiting; they are two entirely different 
cases. The first attract bears leaving them without fear. The second is 
an effective management tool that actually enhances healthy bear 
populations by allowing selective harvests rather than spit second 
shots at moving targets in heavy brush. This preserves the females and 
cubs. Baiting diminishes the probability of a wounded bear and allows a 
humane harvest. In Grizzly country it greatly diminishes the accidental 
shooting of a threatened species.
    Findings (3) and (4) attempt to portray the baiting stations as an 
abomination in the environment. This is so misleading as to be a 
fabrication. Quote, ``A typical bait station consists of hundreds of 
pounds of food''. Would that be two pickup loads or the refuse truck 
unloading in the forest after missing the landfill? The truth is that 
sportsmen don't want any more bait than necessary because they have to 
first; haul it to the site and then secondly; clean it up and haul it 
back out. A stinky job at best, however it discredits the idea put 
forth by the animal activists that it's left in the forest. State and 
Federal laws prohibit this. Generally, the law states that you may 
place bait at no more than two bait stations. The bait must be 
biodegradable and ``you must remove bait, litter and equipment from the 
bait station when hunting is completed. This includes any contaminated 
soil''. Bottom line, you either haul out your trash or you are subject 
to citation. This is not what the Humane Society and the authors of 
this bill would have you believe.
    Finding (5) can be the subject for ridicule that reveals the extent 
the animal activists will go to eliminate hunting. It deserves a 
special quote, ``The presence of bait stations on Federal land allows 
bears to increase their food intake and results in higher birth rates 
increasing bear populations.'' Let us be realistic. Let us examine the 
fat bear myth. Michigan has a total population of 20,000 bears. 
Minnesota has a bear population of 30,000 bears. A small amount of bait 
is used by a relatively few number of sportsmen. Michigan statistics 
reveal the bait size to be from 5 to 20 pounds. Assume that every 
hunter used an average of 10 pounds of bait; further assume that the 
entire bear population had access to all the bait. It extrapolates that 
the bait consumption, per bear, per day would be less that the weight 
of one of the infamous bear Twinkies. From this we get fat bears? The 
animal activists would have you believe sportsmen had set up bagel bars 
and Twinkie feeders. The baiting seasons last for a relatively short 
time. After every hunt there is a requirement to clean it up.
    Findings (7), (8) & (9) deal with feeding bears/habituating bears/
bears and conflicts with people. When you give handouts to bears they 
are on your back step. Sportsmen are not out there to give out 
handouts. The preponderance of evidence from wildlife managers is that 
hunting bears increases their avoidance factor. The facts from State 
Fish & Game Departments and professional wildlife managers is that the 
very bears who have the potential to become problem bears or are 
nuisance bears are those who are likely to be attracted and eliminated 
by baiting. Conversely, those in the wild whose food supply is abundant 
tend to avoid human scented food and are difficult to hunt.
    Finding (10) makes much of the National Park service open dumps and 
hand feeding bears. This is an apples and oranges comparison. Again, 
you don't hand feed bears in the National Forest and two you don't 
leave bait piles and refuse. The Directors of the Alaska Fish & Game 
stated,--``It should be noted that Juneau, one of the areas with the 
most chronic and persistent black bear problems, is located in a 
management unit where baiting is prohibited. Contrasted with that in 
Fairbanks, where hunting (including baiting) is allowed in the 
outskirts of the community and where black bear problems are nil.''
    Finally, the states were given the responsibility for managing 
wildlife. This legislation super-cedes that states rights issue. 
Wildlife management is site specific. Passage of this Act would usurp 
state authority and would establish an inappropriate and unscientific 
one-size-fits-all approach to the management of this particular 
species.
    Mr. Chairman, the states have done an excellent job of expanding 
all types of wildlife. With sportsmen's dollars, with habitat expansion 
America enjoys a plethora of viewing enjoyment and hunting. The states 
and sportsmen have provided this for the American public because we 
care about wildlife and it's habitat. The animal rights groups did not 
do this. I would suggest the Resources Committee listen closely to 
wildlife specialists and evaluate sound science not the sensationalism 
and emotionalism sounds made by the animal cults.
                                 ______
                                 
               Bear kills family dog in Mendenhall Valley
  dog escaped bear, only to succumb to injuries at veterinarian clinic
                         by timothy inklebarger
                           juneau empire 2003
    A Mendenhall Valley black bear is being targeted for extermination 
after it dragged a dog out of its doghouse and left it with fatal 
wounds Monday morning.
    The attack happened at about 5 a.m. at the Montana Creek Road home 
of Tish and David Forrest.
    ``I've already cried buckets about this,'' Tish Forrest, 42, said. 
``I've got a 6-year-old son and it's pretty scary.''
    The Forrests' daughter Veida, 20, woke to the desperate yelps 
coming from the family's 11-year-old Dalmatian, Freckles.
    Veida saw a large black bear drag Freckles out of the doghouse, 
between the entryway to the home and a wooded area nearby, Tish Forrest 
said.
    She said her daughter began screaming, ``A bear got Freckles! A 
bear got Freckles!'' as the bruin pulled the struggling dog into the 
woods.
    The bear shook the dog by the head and neck, but Freckles escaped 
and limped back to the house. The family rushed the dog to a 
veterinarian, but the wounds were too severe. Freckles died at about 
8:30 a.m. that morning. The family's 14-year-old black Labrador 
retriever Elvira also was in the doghouse at the time, but was not 
injured.
    The family lives in a sparsely populated area of the Mendenhall 
Valley, just west of the Mendenhall River. Tish Forrest described the 
fish stream that runs behind the home as a major wildlife corridor, 
where bears, deer and other wildlife are commonly seen.
    ``We've seen bears eating skunk cabbage across the way, but this is 
a lot more aggressive behavior than we're used to seeing in the 
woods,'' she said.
    David Forrest, 51, reported the incident Monday to the state 
Department of Fish and Game.
    Neil Barten, a Fish and Game biologist, said the agency is working 
to capture the bear and have it killed.
    He said biologists placed a large metal trap in the area Tuesday. 
The trap, known as a culvert trap, is baited with food to lure the 
animal inside. The bear's presence inside the cage triggers a trap 
door, locking the bruin inside until Fish and Game biologists can 
retrieve the animal, Barten said. The bear will be killed after it is 
removed from the area, Barten said.
    He said it is uncommon for black bears to show aggressive behavior 
and that such attacks usually come from brown bears. Barten noted, 
though, that brown bear attacks also are uncommon. Monday's incident 
was not the first time Fish and Game has been called out for a bear 
attacking a Juneau dog.
    Bill Corbus, who lives on Thane Road south of downtown, shot and 
killed a black bear last October after it tried to carry his dog 
Bruiser into the woods.
    Corbus, commissioner of the state Department of Revenue and former 
president of Alaska Electric Light & Power, said Bruiser, a 60- to 70-
pound mixed-breed, suffered puncture wounds to the head but survived.
    Barten said the shooting was justified because the bear posed a 
threat to life and property.
    He said it can be difficult to prevent bear encounters in heavily 
wooded areas, but noted precautions can dissuade bears from returning 
to areas occupied by people.
    ``It is a case where we live in an area where there are bears 
everywhere,'' Barten said.
                                 ______
                                 
    Mr. Gilchrest. Dr. Charles Jonkel, welcome, sir.

                 STATEMENT OF CHARLES JONKEL, 
        CO-FOUNDER AND PRESIDENT, GREAT BEAR FOUNDATION

    Mr. Jonkel. Well, thank you, Mr. Chairman and Committee, 
for hearing me also. My name is Dr. Charles Jonkel. I am 
President and Scientific Advisor to the Great Bear Foundation. 
I live at 830 Evans Avenue in Missoula, Montana. I was the co-
founder of GBF 20 years ago. I have been conducting research on 
bears and bear management and educating and communicating about 
bears for 44 years, 1 month, and 12 days as of June 12th. This 
has been all over North America and Canada, the U.S., and 
Mexico.
    I have a wildlife degree and an MSC in wildlife biology 
from the University of Montana, a Ph.D. From the University of 
British Columbia in zoology with a wildlife emphasis. I did 
research on the age of sexual maturity delayed implantation in 
Pine Martin for my master's work.
    My Ph.D. Research was on the ecology and biology of black 
bears in the spruce fir forests of western Montana. Following 
my 5 years of research on black bears, I was for 8 years a 
research scientist with the Canadian Wildlife Service, studying 
polar bears. I then returned to the University of Montana to 
conduct 5 years of research on grizzly bears outside of the 
national parks. Many of my students are active in bear 
research, just about all over the world. As always in Montana, 
east and west, we differ a great deal. I am a dedicated 
sportsman and hunter. I have hunted for 65 years, since I was 6 
years old, but do I not hunt bears. For me it would be like 
hunting family.
    The GBF is not against hunting, but our main focus is to 
bears and to preserve and protect the habitat of all bear 
species of the world. Our highest priority is teaching, 
learning, and communicating about bears, primarily in 
elementary schools, field courses, and in bear news. We serve 
teachers, students, and the general public.
    I wish to especially thank Congress for the Dingell, 
Johnson, and Pitman Robertson Acts that were introduced in the 
1930's. They earmarked tax money. And that is the money that 
brought us back to wildlife abundance after the decades of 
market hunting. We owe a lot to that--wildlife does, too--to 
that aid through hunting and fishing.
    I would like to remind people though that those taxes are 
paid even by the guy, say, in New York City who buys a gun and 
some ammo to blow away his brother-in-law. He is helping 
wildlife, too. My positions are generally broader than local 
concerns. They include data from all eight species of bears, 
and follow world standards and reflect national policies.
    I have long opposed the baiting of bears for considerable 
lists of reasons. Given today's human population, the chopped-
up and reduced habitat, and the vocal objections of other users 
of bears, in my view baiting is no longer an acceptable form of 
bear management. It may have been once.
    Hunting over bait, sitting in a tree and shooting an 
unsuspecting animal is not a sporting form of hunting, whereas 
fair-chase hunting is far more ethical and more satisfying. 
Baiting and sitting in a tree is unfair to bears, since they 
look at ground level for their enemies and danger.
    Baiting bears causes extreme disfavor and contempt within 
large segments of our nonhunting citizens. This often becomes 
harmful to our heritage of hunting and to wildlife management, 
and I see tremendous problems down the line if we keep creating 
more antihunters out of nonhunters.
    Baiting pulls bears from their normal range and may pull 
bears to sites where they are vulnerable to attack by other 
bears, other species, parasites, and diseases. Michigan, for 
example, now has a terrible livestock TB infection which 
probably came from the bear- and deer-baiting stations that is 
costing that State millions of dollars.
    Now, I can't prove that. But one thing that did happen 3 
years before that outbreak happened, I warned the DNR in 
Michigan that they were liable to cause a major infection that 
could get into livestock. They ignored it. They have got it 
now. Baiting causes bears and other species, from insects and 
shrews, to congregate, creating unnatural food chains, 
interactions, fights and predation. Baiting changes each bear's 
relationship with other bears and with other species.
    And often after the baiting, it can go on for a very long 
time in a detrimental way. The Burlington Northern Railroad 
grain spill in Montana near Glacier Park is a good example, 
with bears being lost even yet, 15 years later. They come to 
feed on the tracks and they get hit by a train. We had three of 
them killed just in the last few weeks, three grizzly bears.
    Baiting bears habituates bears to people, no matter how 
careful we may be, and bear-people conflicts follow. Feeding 
bears and bait stations runs counter to our massive effort to 
teach the public not to feed the bears. Baiting may cause a 
dangerous setup for noninvolved third parties traveling through 
the same area. That was mentioned by someone else today.
    Baiting and shooting at bears may teach bears to avoid that 
area and to avoid certain foods or travel corridors, which has 
a subsequent loss of habitat and food. Some of the bears in 
northern latitudes sleep for up to 7 months; 2 or 3 of the 
feeding months are, in fact, poor for food gathering, leaving 
the bears only 2 or 3 months to grow and to get fat.
    Bears therefore are tremendously focused on foods and 
feeding and on problem-solving relative to getting lots of 
food. They can eat up to 100 pounds per day. They can gain up 
to 6 pounds a day. As a result, bears are particularly 
vulnerable to learning bad habits based on food seeking.
    They forget their natural ecofits where the food is more 
reliable. It took the Yellow Stone grizzly bears several 
generations to learn how to live again in Yellow Stone after 
the garbage dumps closed.
    The argument that baiting bears by hunters is a necessary 
management tool in my view is not true at all. Hunters 
following fair-chase and sportsmen's guidelines are successful. 
Stalking bears on oak ridges and meadows adds greatly to the 
hunting and gathering traditions of local people.
    There is also a problem where the grizzly bears occur with 
the black bear and causes a loss of grizzlies from mistaken 
identity. We must also remember that to many Native Americans 
and First Nation people in Canada, bears are culturally very 
important. This is so often left out of their viewpoint. In 
management research and hunting, we should show far more 
respect for bears than we do.
    The foods developed by the native peoples of the Americas 
feed over 60 percent of the people on Earth today. The native 
people always were quick to say we learned about these foods 
from the bears. It is time for Congress to show greater 
fairness and respect for the bears. And in my view 1472 is a 
great step in the right direction.
    I would like to add two points. One is that the baiting, 
basically from the bear's point of view--and I figure after my 
44 years I can speak for the bears to a degree--it is a dirty 
trick on the bears. They are not prepared for dealing with 
something like that. Their enemies are at ground level.
    I also would like to defend the kids in all of this. Kids 
are really smart. A lot of people don't seem to understand 
that. Kids nowadays are smarter than we ever were, than any 20 
of us were put together. Kids are exposed to so much 
information now, they know what is going on. When you tell them 
opposing viewpoints like we have many, many State and Federal 
agencies saying don't feed the bears, don't feed the bears, 
don't feed the bears; then we have got other people with the 
same agencies saying, feed the bears, feed the bears, feed the 
bears. Kids aren't dumb. They know what is going on. And they 
don't get mad and fight with you, they walk away and they turn 
off and leave you with a big mess.
    But we got to be more sensitive I think to the bears and to 
the kids in all of this. We are not doing it properly. There is 
a lot to be done. Don't forget the kids. Thank you.
    Mr. Gilchrest. Thank you, Dr. Jonkel. You come from a 
beautiful and magnificent part of the world. I spent a little 
time in the Bitterroot Mountains and I would go to Missoula 
once a month for supplies. Precious place.
    [The prepared statement of Charles Jonkel follows:]

      Statement of Dr. Charles Jonkel, Co-Founder and President, 
                  Great Bear Foundation, on H.R. 1472

    My name is Dr. Charles Jonkel, President of and Scientific Advisor 
to the Great Bear Foundation. I live at 830 Evans Ave., Missoula, MT 
59801. I was a co-founder of the GBF 20 years ago; I have been 
conducting research on bears and bear management, and educating and 
communicating about bears for 44 years, one month, and 12 days as of 
June 12, 2003.
    I have a Wildlife Tech degree, and a MSc in Wildlife Biology, both 
from the University of Montana, and a PhD from the University of 
British Columbia, in Zoology, with a wildlife emphasis. I did research 
on the age of sexual maturity and delayed implantation, in the pine 
marten, for my MSc work. My PhD research was on the ecology and biology 
of black bears in the spruce/fir forests of Western Montana.
    Following my 5 years of research on black bears, I was for 8 years 
a Research Scientist with the Canadian Wildlife Service, studying polar 
bears. I then returned to the University of Montana to conduct 5 years 
of research on grizzly bears outside of the national parks.
    I am a dedicated sportsman/hunter, but I do not hunt bears. For me, 
it would be like hunting ``family''. The GBF is not against hunting, 
but our main focus is to help bears and to preserve/protect the habitat 
of all eight bear species of the world. Our highest priority is 
teaching, learning, and communicating about bears, primarily in 
elementary schools, field courses, in the Bear News (a quarterly 
newspaper), and in children's book and video reviews. We serve 
teachers, students, and the general public.
    Through GBF, I develop ``position statements'', or ``white 
papers,'' on certain research and management topics, help to change 
regulations and management, or create new laws, all keyed to helping 
bears.
    We monitor agency actions, management plans, and law enforcement, 
and comment on needed corrections, occasionally joining in legal 
pressures to facilitate needed change. Our positions are generally 
broader than local concerns: they include data from all eight species 
of bears, follow world standards, and reflect national policies.
    I have long opposed the baiting of bears for a considerable list of 
reasons, both direct and indirect:
    1. The baiting of bears was long an acceptable form of hunting, but 
given today's human populations, the chopped-up and reduced habitat, 
the vocal objections of other ``users'' of bears, and the high-tech 
hunting techniques now common, baiting is no longer an acceptable form 
of bear management. Times have changed.
    2. Hunting over bait, sitting in a tree and shooting an 
unsuspecting animal, is not a sporting form of hunting, whereas ``fair 
chase'' hunting (though often unsuccessful) is a far more ethical and 
more satisfying form of hunting. Baiting and sitting in a tree is 
unfair to bears, since they look at ground level for their enemies and 
danger.
    3. Baiting bears causes extreme disfavor and contempt within large 
segments of our non-hunting citizens, changing them from non-hunters 
into anti-hunters, which often becomes harmful to our hunting heritage, 
and to wildlife management.
    4. Baiting ``pulls'' bears from their normal range, from their 
routines and how they use their habitats. The bears then are more 
vulnerable to a wide variety of ecological, travel, security, and other 
dangers.
    5. Baiting in some areas pulls bears to a ``low food'' habitat 
where they do not have other and convenient feeding options.
    6. Baiting may pull bears to sites where they are vulnerable to 
attack by other bears, other species, parasites, and diseases. Michigan 
for example, now has a terrible livestock tuberculosis infection which 
came from the deer, and probably from the bear/deer baiting stations.
    7. Baiting causes bears and other species, from insects and shrews 
to moose, to congregate, creating unnatural food chains and 
interactions, fights, and predation.
    8. Baiting changes each bear's relationship toward other bears, 
other species, including subtle changes hard to recognize or evaluate. 
Such changes may be detrimental long after the baiting incident or may 
build through a chain of experiences. The Burlington Northern Railroad 
``grain spills'' are a good example, with bears being lost even yet, 15 
years later. They come to feed on the tracks and get hit by trains.
    9. Baiting bears habituates the bears to people and/or human odors, 
to humans as ``company'', and to food associations, no matter how 
careful we may be. Bear/people conflicts may follow.
    10. Baiting bears makes bears more vulnerable to dangers by 
relating their experiences to similar circumstances, areas, or even 
products. They may approach odors, or avoid areas similar to where they 
had a ``bad experience'' such as roads.
    11. Baiting bears changes their behaviors to other bears, but also 
to people. Somehow, bears consider us ``another bear species''; they 
``use'' bear behavior on us. We should learn how to ``talk bear'', to 
reduce conflict. But bears also may become habituated to people, or to 
our foods, bringing them too close, and often into direct conflict with 
us.
    12. Wildlife agencies spend great amounts of money teaching people 
not to have attractants around, not to feed bears, not to let bears get 
into bird feeders, dog food, garbage, compost, stored grain, and etc. 
For some of the same agencies to SUPPORT feeding (baiting), and even to 
give hunters dog food and pastry for ``bear bait'', and to encourage 
bait stations, runs counter to our massive effort to teach the public 
NOT to feed the bears.
    13. The baiting of bears automatically creates a situation where a 
hunter approaches bear food, which can lead to a dangerous situation, 
since bears will defend ``their'' food.
    14. The baiting of bears may cause a dangerous ``set up'' for a 
not-involved, third party traveling through the same area.
    15. Baiting and shooting at bears in prime habitat may teach some 
bears to avoid that area, or certain foods, travel corridors, and 
anything similar, with a subsequent loss of habitat and food.
    Some bears sleep for up to seven months in northern latitudes. That 
means they have only five months to get all of their food for the year. 
Two to three of those ``feeding'' months are in fact poor food-
gathering periods, leaving the bears only 2 to 3 months to grow and to 
get fat. Bears, therefore, are tremendously focused on foods and 
feeding. That also means that bears are constantly exploring and 
``problem solving'' relative to getting lots of food (they can eat up 
to 100 pounds per day, and gain up to 6 pounds per day). As a result 
bears are particularly vulnerable to learning bad habits, based on 
food-seeking.
    The argument is often made that the baiting of bears by hunters is 
a necessary management ``tool'' to control bear numbers. This has not 
been true at all in places like Montana and Colorado, and more recently 
in Oregon and Washington. Our forests are tremendously thick, yet our 
hunters, following ``fair chase'' and ``sportsman'' guidelines, are 
successful. It would seem that in most areas stalking bears on oak 
ridges, meadows, river banks, or wherever, would add greatly to the 
hunting/gathering traditions of local people. Matching skill and wit 
with these remarkable bear species should be the ultimate hunter 
challenge, it would seem to me. Certainly problem bears are a 
management challenge, but to me, they are also a symptom of inadequate 
bear management, not a fault of the bears. Where grizzlies occur with 
black bears, baiting may cause the loss of grizzlies from mistaken 
identity.
    In all of this, we must also remember that for many Native 
Americans/First Nation Canadians, the bears are culturally very 
important, sometimes even in the religious sense. In management, but 
also in research and hunting, we should show far more respect for the 
bears, how we live with them, how we hunt and manage them, but also how 
we honor them, and their roles relative to people. Foods developed by 
the Native Peoples of the Americas feed over 60% of the people on Earth 
today, and the Native People always are quick to say ``we learned about 
those foods from the bears.'' It is time for our Congress, our 
agencies, to show greater fairness, and greater respect, for bears. 
H.R. 1472, in my view, is a giant step in the right direction. Thank 
you.
                                 ______
                                 
    Mr. Gilchrest. Mr. Wayne Pacelle.

   STATEMENT OF WAYNE PACELLE, SENIOR VICE PRESIDENT, HUMANE 
                  SOCIETY OF THE UNITED STATES

    Mr. Pacelle. Thank you, Mr. Chairman. And I am representing 
the Humane Society of the United States, the Nation's largest 
animal protection group. We have 7.3 million members in the 
U.S., 1 of every 40 Americans. And we want to in particular 
thank Representative Gallegly for his leadership on this issue. 
We are grateful. We support his legislation wholeheartedly.
    And, Mr. Chairman, I want to make three main points. The 
first point is that Mr. Gallegly's bill establishes interagency 
and intra-agency consistency in dealing with policies related 
to the feeding of bears on Federal lands.
    We have heard this mentioned earlier. Every year, baiters 
set out thousands of food piles on Federal lands, principally 
national forests, in the 9 States that allow baiting. Bait 
piles do consist of hundreds of pounds of human food scraps, 
rotting fruits and meats, even the carcasses of other animals.
    Hunting guides prefer baiting, because it virtually 
guarantees that a fee-paying client will have an opportunity to 
shoot a bear. One hunting Web site says, in a normal season we 
go through 10 tons of pastries and about 8 tons of meat, boasts 
one hunting guide on his Web site again. Some guides use walk-
in baits,s where they take an old mule or an old horse, pack 
the animal with a bunch of food, and then shoot the animal and 
leave the rotting carcass to add to the bait site.
    Most wildlife professionals realize that this is outrageous 
behavior. Tom Beck, who is a lifelong hunter and a bear 
biologist with the Colorado Division of Wildlife notes, quote, 
in Outdoor Life, a hunting magazine: ``I firmly believe that 
baiting creates nuisance bears.'' this is Beck speaking. 
``black bears are naturally wary, instinctively avoiding close 
contact with humans. But large amounts of tasty feed easily 
obtained defeats this wariness. By baiting we create lazy bears 
who have been rewarded, not punished, for overcoming their fear 
of humans,'' end quote.
    In 2003, Michael Soukup for the Park Service wrote, quote, 
``Human feeding of bears, whether deliberate or inadvertent, is 
a significant management problem wherever it occurs, and is an 
activity that the National Park Service works hard to prevent 
in units of the system.''
    Partly in response to the Park Service's work in this 
arena, the mantra, ``Don't feed the bears'' has become one of 
the most widely accepted precepts in modern wildlife 
management. Human-fed bears are more likely to approach people, 
to raid campgrounds, and to break into cars and cabins. And 
because bears are large and powerful, the animals can obviously 
pose a threat to people.
    Because of access to human food, bears at Yosemite National 
Park, according to the Web site, become aggressive and cause 
extensive damage to motor vehicles, trailers, tents, ice 
chests, and other camping equipment while searching for human 
food, unquote.
    Bears cost $630,000 worth in property damage in 1998 in 
Yosemite alone. Yosemite officials note, quote, ``Allowing a 
bear to obtain human food even once often results in the bear 
becoming aggressive about obtaining food in the future.''
    This is what Dr. Jonkel is talking about. Once bears learn 
bad habits, they remember them. The Park Service has noted that 
baiting in adjacent national forests causes problems for bears 
in national parks.
    Just prior to Oregon banning bear baiting in 1994, Charles 
Odegaard, the regional director of the northwest region of the 
Park Service, wrote to the Forest Service, quote: ``the 
practice of baiting on adjacent national forests has a direct 
negative impact on Crater Lake National Park. Sometimes the 
park boundary is almost ringed with bear baiting stations. 
Bears are wide-ranging animals. Stations placed within a few 
feet of the park boundary on a consistent and regular basis are 
inevitably an attractant that lures bears from the park. 
Experienced park field personnel believe the park bear 
population is on the decline,`` unquote.
    He added, quote, ``Biologically there is no difference 
between a bait station and a dump. Bait stations habituate 
bears to human-generated food, contributing to the potential 
for conflicts between bears and people in the park.''
    Consistent with these views--
    Mr. Gilchrest. Who said that, Mr. Pacelle?
    Mr. Pacelle. This is Charles Odegaard of the National Park 
Service. He was the regional director in the Pacific Northwest 
region of the National Park Service, which covers Crater Lake 
National Park which is in southern Oregon.
    The Park Service has a regulation against feeding. We 
already heard that Fish and Wildlife has also an antibaiting 
regulation. Here is the interesting part. The Forest Service 
and the BLM, along with almost every State fish and game 
agency, have expressed the same views as the folks at the Park 
Service and the Fish and Wildlife Service about the perils of 
people feeding bears.
    Mr. Gallegly had some of those posters blown up. The one 
that is lower you can't see, is the publications of the Forest 
Service, the Arizona Game and Fish Department, and the New 
Mexico Department of Fish and Game. It is called ``Be Bear 
Aware.'' it is the one that is being placed on the device 
there. It says, bears that are attracted to human food sources 
may cause property damage and injure people. Again, look at the 
forest service logo. It says ``A fed bear is a dead bear.'' it 
concludes, in the corner on the left-hand side, ``Most 
conflicts between humans and black bears arise as a result of 
human-supplied foods.''
    All four of the major Federal land management agencies have 
endorsed the ``Leave No Trace'' public awareness campaign, 
which warns that people should, quote, ``never feed wild 
animals.'' it doesn't have an asterisk that says, ``if you are 
doing it as a guide or an outfitter you are allowed to feed 
animals.'' it says, feeding wildlife damages their health, 
alters natural behaviors, and exposes them to predators and 
other dangers.
    Mr. Pacelle. Allowing bear baiting is inconsistent with 
these declarations. There is just no two ways about it. It 
makes no sense to think that providing food to bears is wrong, 
except if the feeding is associated with hunting. If it is 
wrong to set out food to lure bears for picture taking or just 
to watch bears, surely it is also wrong to lure bears with 
jelly donuts and rotting animal carcasses for the purpose of 
shooting them. Representative Gallegly pointed this out in his 
questions to the Forest Service.
    I do want to note before I move to the second point, the 
Forest Service has a history of criticizing this practice. In 
my testimony that I will just leave in the record, of course, 
in the northern regions and intermountain regions, which covers 
the three western interior bear-baiting states of Utah, Wyoming 
and Idaho, the Forest Service came out against baiting and said 
it was a dangerous practice that was harming wildlife.
    The second major point is that baiting is not needed as a 
management tool. Capable hunters do not need to hunt bears with 
bait. We have heard baiting is banned in the vast majority of 
States with bear hunting. In Pennsylvania, there are 2,000 
bears killed in a 3-day hunting season with no bait, no dogs. 
Montana hunters take in excess of 1,000 bears a year. They do 
not use bait or dogs.
    The groups represented today that you will hear from next, 
the U.S. Sportsmen's Alliance and the Safari Club, they came 
out against measures in Colorado, Oregon, and Washington to ban 
bear baiting. They said the populations would explode if you 
banned baiting and hounding. They said there is no way to 
manage the population. After voters approved these measures by 
wide margins, the bear kills in the States did not decrease and 
the number of hunting licenses for bears shot through the roof.
    Several years after voters approved the initiative to limit 
bear hunting practices in Colorado, the Colorado Division of 
Wildlife wrote, ``the passage of the 1992 initiative has had no 
detectable adverse impact on bear hunting or bear management in 
Colorado. It has clearly shown that the black bear population 
can be efficiently and effectively managed without recourse to 
bait, hounds, or a spring season. Hunters have learned to 
effectively hunt and harvest bears without using these methods, 
and the Colorado Division of Wildlife has seen a significant 
increase in revenue resulting from increased interest in bear 
hunting.''
    Please look at my testimony. The number of bear tags after 
the bear baiting ban went into effect in Washington went from 
13,000 to 38,000. In Oregon, it went from 18,000 to 41,000. In 
Colorado, it went from 3,800 bear licenses sold to more than 
14,000. What happened was that more hunters chose to 
participate because they no longer felt at a competitive 
disadvantage with other hunters who used unfair methods.
    And I do want to say quickly baiting advocates fail to note 
the role of bait stations in increasing the reproductive 
success of bears who visit bait stations. Mammals' reproductive 
rates are tied to their nutritional fitness. Bears self-
regulate quite well. Dr. Jonkel has done a lot of the 
pioneering research on this. When you put out tons of food for 
them, they are going to be fit, they are going to reproduce 
more, and, ultimately, it is a self-defeating exercise. Yes, it 
is a more efficient hunting technique, you can kill more of 
them more efficiently, but you are recruiting more animals into 
the population.
    Finally, I want to say, Mr. Chairman, the Federal 
Government has a compelling interest in halting baiting. 
Opponents of H.R. 1472 say that the measure is an attack on 
States rights. It is important to note that the States will 
continue to control bear hunting. The States will determine 
whether bears are hunted or not, where hunting is permitted, 
what bag limits are, what the season lengths are, the closer 
zones, allowed weapons. The States will set goals for annual 
take, et cetera.
    The Federal Government has established policies. Mr. 
Gallegly noted we have a Federal Airborne Hunting Act that 
limits use of aircraft in hunting animals. We have a Federal 
baiting regulation on migratory birds.
    My final point, Mr. Chairman, before I conclude, you have 
been generous in allowing me to speak, opponents of H.R. 1472 
cannot logically argue that baiting is entirely a hunting 
issue. It is also an issue of feeding, and the feeding issue is 
precisely why we are here and why this legislation was 
introduced. The Federal Government has a clear and compelling 
interest in taking control of the human feeding of bears for 
the safety of forest users and employees, for the protection of 
public and private property destroyed by habituated bears, and 
for the protection of bears labeled as nuisance animals and 
then killed.
    To illustrate the point, let's say the Forest Service--
    Mr. Gilchrest. Mr. Pacelle, I will assure you that we will 
read your testimony in its entirety.
    Mr. Pacelle. I will leave it at that, Mr. Chairman.
    Mr. Gilchrest. You also have great passion for this issue, 
and we clearly have felt your point. I appreciate your 
dedication to this issue. You have brought us a great deal of 
information, and we will continue to pursue that as time goes 
by. Thank you very much for your testimony.
    Mr. Pacelle. Thank you.
    [The prepared statement of Mr. Pacelle follows:]

 Statement of Wayne Pacelle, Senior Vice President, Communications and 
 Government Affairs, The Humane Society of the United States, on H.R. 
                           1472 and H.R. 1006

    Thank you, Mr. Chairman, for the opportunity to testify in support 
of both H.R. 1472, the ``Don't Feed the Bears Act,'' and H.R. 1006, the 
``Captive Wildlife Safety Act.'' My name is Wayne Pacelle, and I serve 
as senior vice president for communications and government affairs for 
The Humane Society of the United States (HSUS), the nation's largest 
animal protection group with 7.3 million members and constituents. One 
of every 40 Americans is a direct supporter of The HSUS. The HSUS urges 
the enactment of both bills, and we are very grateful to 
Representatives Elton Gallegly (R-CA) and James Moran (D-VA) for 
introducing H.R. 1472 and Representatives Buck McKeon (R-CA) and George 
Miller (D-CA) for introducing H.R. 1006.
    H.R. 1472 directs the U.S. Forest Service (USFS) and the Bureau of 
Land Management (BLM) to adopt anti-feeding regulations similar to 
those promulgated by the National Park Service (NPS) and the Fish and 
Wildlife Service (FWS). Exceptions are provided in ``extraordinary 
cases when the Secretary concerned determines that bear feeding is 
required for the welfare of the bear, preservation of public safety, or 
authorized wildlife research.''
    This legislation establishes interagency and intra-agency 
consistency with respect to human feeding of bears. The USFS and the 
BLM publish an array of materials that identify the problems associated 
with human feeding of bears, yet the agencies allow bear baiting in 
states that permit the activity (Attachment A). H.R. 1472 provides 
Congressional authorization for these agencies to square their emphatic 
and unequivocal declarations about the problems of people feeding bears 
with their on-the-ground management practices.
    Baiting is an unpopular and increasingly discredited method of bear 
hunting. States that have banned baiting have not experienced any 
wildlife management problems stemming from the prohibitions; actually, 
bear hunting participation has increased after states adopted the 
baiting bans. Baiting is a practice unpopular with Americans, including 
hunters, largely because it runs against norms of fairness and 
sportsmanship and against the widely recognized wildlife management 
principle that it is dangerous to make human foods available to bears. 
Most people believe that it is unfair and unsporting to lure a bear 
with food and shoot the animal while he or she is gorging on food.
    Every year, bear baiters set out thousands of food piles on Federal 
lands, principally national forests, in the nine states that allow bear 
baiting on public lands. Bait piles can consist of hundreds of pounds 
of human food scraps, rotting fruits and meats, and even carcasses of 
other animals. Hunting guides prefer baiting because it virtually 
guarantees their fee-paying clients an opportunity to shoot a bear. 
``In a normal season we will go through 10 tons of pastries and about 8 
tons of meat,'' boasts one hunting guide on his web site. (Attachment 
B) Some guides even will burn honey to attract their targets from miles 
around. Others use ``walk-in'' baits, in which they load up an old 
horse or mule with food, walk the animal into a forest, shoot him, and 
then add the carcass to the bait pile.
    Baiting takes unfair advantage of the survival strategies and life 
cycle of the black bear. In the fall, bears feed for up to 15 hours a 
day--a phase known as hyperphagia--in order to build fat reserves for a 
long period of dormancy. Baiting exploits their need to feed almost 
constantly by providing a ready source of food. In some states, the 
bait can be set out a few weeks before the actual hunting season 
starts.
    Baiting in the spring also exploits the bear's unusual life cycle. 
Bears that emerge from their dens in the spring are hungry because they 
haven't eaten since the late fall, and berries and other favored foods 
often don't ripen or develop until the late spring or early summer.
    Opponents of H.R. 1472 have argued that the measure is an attack on 
states' rights to set wildlife policy. It is important to note, 
however, that the states will continue to exercise control over bear 
hunting. The states will determine whether bears are hunted or not and, 
if hunting is permitted, will determine the bag limits, season lengths, 
closure zones, and allowed weapons. The states will set goals for 
annual take and will set license fees and the number of licenses sold. 
They can also allow bear baiting on private and state lands since H.R. 
1472 applies only to Federal lands.
    Most states have already outlawed baiting, either by administrative 
rule, legislation, or ballot initiative. Of the 27 states that allow 
bear hunting, only 10 allow baiting, and one of those states, Arkansas, 
allows baiting only on private lands. In Maine, New Hampshire, 
Michigan, Minnesota, and Wisconsin, there are no BLM lands, and USFS 
lands constitute a small percentage of the total land area that bears 
inhabit in these states. In Utah, only bowhunters are allowed to use 
bait, and in 2001, there were only three recorded bear kills over bait, 
according to the state Division of Wildlife Resources (personal 
communication with Craig McLaughlin, 3/15/03).
    Capable hunters do not need to bait bears to hunt the animals with 
success. Baiting is banned in states with various forest types, 
including in the extremely dense forests of western Oregon and 
Washington. In Pennsylvania, hunters kill 2,000 bears annually in a 
three-day hunt, and in Montana hunters take in excess of 1,000 bears 
annually. Baiting and the use of dogs are prohibited in these states.
    The groups represented here today in opposition to H.R. 1472--
primarily the Safari Club International (SCI) and the U.S. Sportsmen's 
Alliance (USSA)--argue that a ban on baiting will decrease the annual 
bear kill and allow for a rise in the bear population, resulting in an 
increase in conflicts between people and bears. But their theory has 
not proved accurate. We can simply look at the data in the states that 
have most recently banned bear baiting--Colorado, Oregon, and 
Washington--to test the theory. In these states, hunters learned to 
stalk bears without bait or dogs, and the annual bear kills match or 
exceed the kill totals that hunters amassed before voters banned 
baiting. (Attachment C)
    Several years after voters approved the initiative to limit bear 
hunting practices, the Colorado Division of Wildlife wrote, ``The 
passage of the 1992 initiative has had no detectable adverse effects on 
bear hunting or bear management in Colorado. It has shown clearly that 
a black bear population can be efficiently and effectively managed 
without recourse to bait, hounds, or a spring season. Hunters have 
learned to effectively hunt and harvest bears without using these 
methods and the Colorado Division of Wildlife has seen a significant 
increase in revenue resulting from increased interest in bear 
hunting.'' (emphasis in original) (Attachment D) Oregon and Washington 
had similar experiences.
    Hunters in these states now purchase far more bear hunting licenses 
than they did before the voters outlawed baiting. In 1996, the last 
year baiting was allowed in Washington, there were 12,868 bear tag 
purchasers. In 2000, four years after the initiative passed, 37,484 
bear tags were purchased--a three-fold increase (Attachment C). In 
Oregon, 18,412 tags were sold in 1994, the last year of baiting, and by 
2000, tag sales had more than doubled to 41,060 (Attachment C). In 
Colorado, in 1991, the last year of baiting, there were 3,852 bear 
hunters, and by 2000, there was a nearly four-fold increase in tag 
sales to 14,207. (Attachment C) It is apparent that more hunters chose 
to participate because they no longer felt at a competitive 
disadvantage with other hunters who used unfair methods.
    If baiting advocates were correct in arguing that the activity is 
needed to control bear populations, it would stand to reason that the 
states with the densest populations of people and bears would most need 
baiting. But the very states with the greatest potential for conflict 
between bears and people--including California, Massachusetts, New 
York, Pennsylvania, and Washington--outlaw bear baiting. The densely 
packed states of Florida and New Jersey not only forbid baiting, but 
they ban all bear hunting.
    Bear baiting advocates fail to note the role that their bait 
stations play in increasing the reproductive success of bears who visit 
bait stations. Thousands of bait piles not only habituate bears to 
human food sources, but they provide massive supplemental feed for the 
animals. As mentioned earlier, one bear baiting guide reports that he 
alone leaves 18 tons of food in the woods per year for bears. It is a 
well established principle that supplementally fed populations of 
mammals enjoy greater reproductive success and juvenile survivorship. 
Bears who build major fat reserves thanks to bait stations are more 
likely to produce cubs and add to the total bear population. Baiting 
is, therefore, self-defeating if the goal is population reduction.
    Some baiting advocates argue that the practice is self-correcting 
because baited bears are shot and eliminated from the population. This 
line of argument is severely flawed. Bait piles are often set out for 
months at a time, and replenished with food stuffs as they are depleted 
by bears and other animals who feed at the stations. Hunters do not 
stay continuously at their bait sites, and leave them unattended most 
of the time. Consequently, most bears that visit the bait site are 
neither observed nor shot. The bears that feed at the bait station and 
are not shot become ``nuisance'' animals.
    There has been a change in attitude among most hunters and wildlife 
policy makers in states that have banned baiting. For example, the 
Colorado Division of Wildlife noted, ``While the [Colorado Wildlife] 
Commission opposed the initiative prior to and during the campaign, the 
results of its passage have brought about a definite change in 
attitude. There is no sentiment in the Colorado Wildlife Commission in 
favor of altering the present parameters of Colorado bear hunting. 
Colorado has learned that bears can be effectively managed without the 
use of bait or hounds and without a spring season.'' (Attachment D)
    Public attitude surveys conducted within the last decade in states 
that allow bear baiting--Idaho, Maine, Utah, and Wyoming--all reveal 
widespread public opposition (including among hunters) to bear baiting, 
even if policy makers have not yet recognized or embraced the public's 
view. (Attachment E) In addition, major newspapers in many of these 
states--including the Anchorage Daily News, the Wyoming Eagle-Tribune, 
the Salt Lake Tribune, and the Duluth News Tribune--have expressed 
their support for bear baiting bans. (Attachment F)
    I want to highlight results from one of the most recent public 
attitude surveys. A 2002 study, conducted by researchers from Utah 
State University, examined Utah stakeholders' attitudes toward selected 
cougar and black bear management practices. The survey reveals 
widespread opposition to baiting among all groups surveyed. It shows 
that 22% of hunters support baiting, while 64% oppose it. Among 
anglers, 11% support baiting, while 78% oppose it. Among non-
consumptive users, 6% support baiting, while 83% oppose it. The survey 
reveals that only 16% of rural residents approve of baiting, while 71% 
disapprove. Among urban residents, 11% approve of baiting, and 77% 
disapprove. Among men, 16% of Utahns approve of baiting, while 79% 
disapprove of the activity. For women, only 9% approve, while 84% 
disapprove (Attachment G).
    Most wildlife professionals recognize that human feeding of bears, 
including baiting, contributes to conflicts between people and bears. 
Tom Beck, a lifelong hunter and bear biologist with the Colorado 
Division of Wildlife, notes, ``I firmly believe that baiting creates 
``nuisance'' bears. Black bears are naturally wary, instinctively 
avoiding close contact with humans. But large amount of tasty food, 
easily obtained, defeats this wariness. By baiting, we create lazy 
bears who have been rewarded, not punished, for overcoming their fear 
of humans.'' (Attachment H)
    In April 2003, Michael Soukup, associate director for National 
Resource Stewardship and Science with the NPS, wrote, ``Human feeding 
of bears, whether deliberate or inadvertent, is a significant 
management problem wherever it occurs and is an activity that the 
National Park Service works very hard to prevent in units of the 
National Park System.'' (Attachment I)
    Partly in response to the Park Service's work in this area, the 
mantra ``Don't Feed the Bears'' has become one of the most widely 
accepted precepts in modern wildlife management. Human-fed bears are 
more likely to approach people, to raid campgrounds, and to break into 
cars and cabins. Because bears are large and powerful, the animals can 
pose a threat to people if they have lost their innate fear of humans.
    Because of access to human food, for example, bears at Yosemite 
National Park ``become aggressive and cause extensive damage to motor 
vehicles, trailers, tents, ice chests, and other camping equipment 
while searching for human food,'' according to park authorities. Bears 
caused over $630,000 in property damage in 1998 in Yosemite.
    On its web site, Yosemite officials note, ``Allowing a bear to 
obtain human food even once often results in the bear becoming 
aggressive about obtaining food in the future.'' Officials at 
Yellowstone National Park admonish, ``Never leave food or garbage 
unattended.'' (Attachment J) Glacier National Park authorities warn, 
``Human foods are one of the chief culprits in the creation of problem 
bears.'' (Attachment K)
    The NPS has noted that baiting in adjacent national forests causes 
problems for bears in national parks. Just prior to the voter-approved 
ban on baiting in Oregon in 1994, Charles Odegaard, the Regional 
Director of the Pacific Northwest Region of the NPS, wrote the 
following to the Forest Service: ``The practice of bear baiting [on 
adjacent national forests] has a direct negative impact on Crater Lake 
National Park. At some times the park boundary is almost ringed with 
bear baiting stations. Bears are wide-ranging animals. Stations placed 
within a few feet of the park boundary on a consistent and regular 
basis are inevitably an attractant that lures bears from the park. 
Experienced park field personnel believe that the park bear population 
is on the decline.'' (Attachment L)
    Mr. Odegaard added. ``Biologically, there is no difference between 
a bait station and a dump. Bait stations habituate bears to human-
generated food, contributing to the potential for conflicts between 
bears and people in the park.''
    Consistent with these views, the NPS has a regulation barring the 
feeding of any wildlife, including bears. (Attachment M) There is a 
similar rule administered by the U.S. Fish and Wildlife Service, and it 
reads, ``The unauthorized distribution of bait and the hunting over 
bait is prohibited on national wildlife refuge areas.'' (Attachment N)
    The USFS and the BLM, along with most state fish and wildlife 
agencies, have expressed the same views as their colleagues at the NPS 
and FWS on the practice of people feeding bears. A publication of the 
USFS, the Arizona Game & Fish Department, and the New Mexico Department 
of Game & Fish entitled ``Be Bear Aware'' declares, ``Bears that are 
attracted to human food sources may cause property damage and injure 
people.'' (Attachment A) The publication continues, ``A fed bear is a 
dead bear,'' and concludes, ``Most conflicts between humans and black 
bears arise as the result of human supplied foods.''
    The four major Federal land management agencies have endorsed the 
``Leave No Trace'' public awareness campaign, which warns that people 
should ``never feed wild animals.'' (Attachment O). The campaign 
materials say, ``Feeding wildlife damages their health, alters natural 
behaviors, and exposes them to predators and other dangers.'' In the 
same publications, Federal agencies address waste disposal in the woods 
saying, ``Pack out all trash and garbage, including leftover food.''
    Allowing bear baiting is inconsistent with these declarations. It 
just makes no sense to think that providing food to bears is wrong, 
except if the feeding is associated with hunting. If it is wrong to set 
out food to lure bears for picture-taking, or just to watch the bears, 
surely it is also wrong to lure bears with jelly doughnuts and rotting 
animal carcasses for the purpose of shooting them.
    Baiting proponents argue that baiters engage in selective killing 
that protects females and their nursing cubs. Bear biologists from six 
western states disputed this argument in a paper that was published in 
the 1995 Proceedings of the Western Black Bear Workshop. They wrote: 
``The conclusion of most biologists is that it is quite difficult to 
accurately determine nursing status on free-ranging black bears, even 
when a bear is in a tree on at a bait. The appearance of nursing 
females in the kill each spring supports this notion. During the last 
year of spring bear hunting in Colorado, the number of nursing female 
black bears checked was within three of the number predicted based on 
breeding rate of females and total female kill. In other words, there 
was no selection even with regulations prohibiting the taking of 
nursing females.'' (Attachment P) Data from the Idaho Department of 
Fish and Game also do not support the argument that hunters are more 
selective in their kills over bait. (personal communication with John 
Beecham, 6/6/03). If the goal is to protect nursing cubs, the most 
effective policy response is to outlaw any bear hunting in the spring, 
when the shooting of a lactating female will invariably doom her cubs.
    The idea of halting bear baiting is hardly a notion that most USFS 
forest supervisors would find alien or unworkable. In fact, Federal 
forest supervisors in bear baiting states have a history of opposing 
the practice and making their views known to the states. In November 
1990, Stan Tixier, regional forester for the Intermountain Region of 
the USFS, which covers Idaho, Utah, and Wyoming--the only western 
states in the conterminous United States that still allow baiting--
noted in a letter to the Idaho Fish and Game Commission that the 
Northern and Intermountain Regions of the USFS ``oppose the 
continuation of bear baiting as a sport hunting practice.'' (Attachment 
Q)
    Tixier cited concerns that baiting is publicly unpopular, 
contributes to conflicts between people and wildlife, and amounts to 
littering in the woods. He added, ``We feel it is important that 
hunting be conducted in a manner that reflects well on hunter conduct. 
The use of salt as an attractant to draw elk and other game animals is 
illegal for ethical reasons. The Forest Service believes that these 
same standards should apply to all game species, including the black 
bear.''
    In April 1991, in a letter to the director of the Utah Division of 
Wildlife Resources, William Burbridge of the USFS wrote, ``the Forest 
Supervisors [of national forests] in Utah asked me to pass on to the 
Division and the Utah Wildlife Board their opposition to the 
continuation of bear baiting for sport hunting in Utah.'' (Attachment 
R)
    Despite the support for a ban on baiting among on-the-ground forest 
supervisors who witnessed the deleterious impacts of baiting, political 
leaders at the USFS adopted a policy that leaves bear baiting decisions 
on national forests to the states. It is important to note that the 
USFS, in adopting this policy, never stated that baiting was in any way 
necessary for management purposes, nor even an appropriate use of 
Forest Service lands. Although the process by which the USFS enacted 
the baiting policy was subsequently upheld by the Court of Appeals for 
the District of Columbia Circuit in Fund for Animals v. Thomas, the 
court never addressed the merits of bear baiting, nor the wisdom of the 
USFS's decision to allow bear baiting on USFS's lands.
    Given that USFS administrators have decided to take no action to 
halt baiting on national forests--even in light of emphatic past 
declarations from key field personnel that baiting is inconsistent with 
agency standards and even though the agency continues to publish 
materials warning visitors that it is dangerous to set out any food for 
bears--it is appropriate that the Congress now instruct the agency, and 
the BLM, to adopt policies to ban any human feeding of bears. The 
argument for the ban on bear feeding is only buttressed by the fact 
that the public considers the practice of baiting bears to be so 
unsporting and unfair.
    The Federal Government has established policies to limit inhumane 
and unsporting hunting practices where it determines it has a 
compelling interest. In 1971, Congress adopted the Federal Airborne 
Hunting Act, forbidding the shooting of animals for sport from 
aircraft. The Federal Government also adopted a regulation banning the 
baiting of migratory birds, and that prohibition has been in place for 
decades.
    The massive and all but unrestricted feeding of bears on Federal 
lands by baiters creates a compelling Federal interest. Opponents of 
H.R. 1472 cannot logically argue that baiting is entirely a ``hunting'' 
issue; it is also an issue of feeding, and the feeding issue is 
precisely the component of bear baiting that has triggered the 
introduction of H.R. 1472. The Federal Government has a clear and 
compelling interest in taking control of the human feeding of bears--
for the safety of the forest users and employees, for the protection of 
public and private property destroyed by habituated bears, and for the 
protection of bears labeled as nuisance animals and then killed.
    To illustrate the point, consider the hypothetical of a state that 
did not forbid the shooting of bears from off-road vehicles. If the 
USFS felt that use of off-road vehicles was generally a bad practice 
because of its aesthetic effect on the landscape, its impact in 
uprooting plants and causing soil erosion and run-off, and its role in 
diminishing the quality of the recreational experience for other forest 
users, would the agency be obligated to defer to the states and make an 
exception for shooting of bears from off-road vehicles because hunting 
was an element of the recreational exercise? I think not, and I am 
confident even the USFS would agree if it were presented with a similar 
circumstance. In this case, the dumping of food in the woods is 
inconsistent with agency declarations and warrants a prohibition on the 
activity, even if it happens in this case to be associated with an 
activity generally controlled by the states.
    Finally, in terms of a compelling Federal interest, I want to 
emphasize why consistency on the bear feeding issue on Federal lands 
truly matters. The situation mentioned earlier, where managers at 
Crater Lake National Park identified major problems with bear baiting 
stations set up just over the line in adjoining national forests, could 
play out in Yellowstone, Grand Teton or other park service units that 
border national forests or BLM lands in bear baiting states. If it is a 
problem to feed bears on one side of the park boundary, it is also a 
problem to feed bears a few feet away, on the other side of the divide. 
Bears do not know boundaries; consequently, bears fed in a national 
forest may become a nuisance in a national park, damaging property and 
threatening people. And bears principally living in a park may be lured 
out of the park by bait sites and killed in considerable numbers by 
commercial baiters, diminishing the experience of park visitors who 
hoped to see a bear. Common sense and consistency demand Federal action 
to bring USFS and BLM policy in line with that of NPS and FWS. I urge 
your support for H.R. 1472.
    I'd now like to turn my attention to H.R. 1006, the ``Captive 
Wildlife Safety Act.'' For every tiger roaming free in the forests of 
Asia, another languishes in grim confinement in a backyard cage 
somewhere in America. The world's largest cat, a powerful and solitary 
predator that numbered around 100,000 at the turn of the century, is 
now a highly endangered species on the brink of extinction. Its 
fragmented populations number somewhere between 5,000 and 7,000 animals 
in the wild. In the United States, roughly the same number are thought 
to be held in private hands, along with perhaps 3,000 lions, cougars, 
and other big cats.
    These magnificent carnivores--particularly easy-to-breed tigers--
have become one of the nation's hottest new exotic pets, animal status 
symbols, advertising gimmicks, and roadside attractions. They are 
imprisoned in tiny wire mesh cages, tethered or chained in basements 
and barns, displayed outside gas stations and convenience stores to 
attract customers, used as guard animals by drug dealers, and held in 
squalid, unaccredited roadside zoos. Astonishingly, they are also 
carted around to schools and shopping malls for photo ops and petting 
opportunities.
    Genetically programmed to range over 100 miles a day, swim rivers, 
and bring down prey twice their size, tigers are hard-wired to attack 
and kill. They may appear to be tame and friendly, but the reality of 
recent attacks--many on children--reinforces their omnipresent danger 
to their owners and anyone who comes into close contact.
    In the past five years, at least nine people have been mauled to 
death by tigers, scores have been attacked, and many have suffered 
grievous injuries. Twice as many people die each year from dog bites 
but with 50 million dogs, the threat from tigers is proportionately far 
greater. A new study finds that tigers are between 360 and 720 times 
more likely to be involved in a fatal attack than a pit bull or other 
domestic canine. Consider these incidents:
    <bullet> Six weeks ago on March 31, a Hennepin, Illinois man was 
killed by two tigers as he moved them between cages on his property. 
One of the cats had previously mauled a seven-year-old girl, causing 
extensive injuries.
    <bullet> Two days later at a roadside zoo in Adair, Oklahoma, a 
tiger reached through a small slot in the cage and ripped off the arm 
of a woman keeper standing outside. She bled to death.
    <bullet> Last September in Santa Cruz County, California, a young 
200-pound Bengal tiger exhibited in a grade school classroom by a 
company called Zoo To You attacked a 6-year-old boy, severely injuring 
the youngster and traumatizing his classmates. It took 55 staples to 
close the boy's head wounds.
    <bullet> In Texas, thought to hold perhaps half of the nation's 
backyard tigers, a string of attacks over the past four years 
underscores the threat to youngsters. A 10-year-old girl helping her 
stepfather groom the animal died after a tiger clamped her head in its 
jaws. A four-year-old girl's arm was torn off, and a three-year-old boy 
posing for a photograph inside the cage was fatally savaged by his 
grandfather's pet.
    A study on tiger attacks to be published in the journal Zoo Biology 
documents incidents in 19 states (Ark., Calif., Colo., Fla., Idaho, 
Ill., Ind., Kan., Mass., Minn., Miss., Neb., Nev., N.D., N.M., Ohio, 
Okla., S.D. and Tex.) between 1998 and 2001. (Attachment S) Most 
fatalities and serious injuries occurred either in private backyard 
menageries or in small roadside zoos that are not accredited by the 
American Zoo and Aquarium Association (AZA).
    It also outlines in chilling detail the unpredictability of these 
alpha-predators and their threat to humans, particularly children. 
``Despite the appearance among some trained animals of pseudo-
domestication, [they] retain their predatory instincts and neural-
visceral reflexes and they can inflict serious wounds using their teeth 
or claws suddenly and without forewarning.
    ``A child's smaller body size increases the potential for serious 
or lethal injury. Size also appears to influence the attack response of 
tigers. Large cats instinctively strike the neck and shoulder of prey 
to disable them, resulting in serious craniofacial and cervical spinal 
injuries. The small size of children [and their movements] may help to 
trigger the attack response . . . making human children particularly 
stimulating as prey.''
    The threat to humans is reiterated by the United States Department 
of Agriculture, which calls big cats ``dangerous animals'' whose care 
and handling should be confined to professionals. (Attachment T) 
``Because of these animals' potential to kill or severely injure''. an 
untrained person should not keep them as pets,'' the USDA states. That 
unequivocal position is also supported by The American Veterinary 
Medical Association, the AZA, and all reputable animal welfare 
organizations.
    The rapid rise in the popularity of pet tigers is a stunning 
cultural phenomenon. In the hands of untrained exotic pet fanciers, 
roadside zoo owners, and even celebrities like Michael Jackson and Mike 
Tyson who got rid of their pet tigers because they were too difficult 
to manage, tigers are not only a danger to people. They are also 
victims.
    Tigers kept as pets or held in roadside zoos suffer from abuse, 
ignorance, poor diet, lack of veterinary care, inadequate enclosures, 
and painful physical ailments from random inbreeding. A few lucky ones 
end up in accredited sanctuaries. Most are dumped into pseudo-shelters 
that operate like puppy mills. They breed the big cats to churn out 
cubs for sale on the Internet or at exotic animal auctions. They cost 
as little as $300--the price of a pure-bred puppy. These are a few of 
the consequences:
    <bullet> In April 2003, 90 tiger carcasses including 58 cubs, 
along with 11 live tigers and other animals, were discovered at an 
unaccredited facility called Tiger Rescue in Riverside County, Calif. 
Two of the cats were euthanized and the owner has been charged with 16 
animal cruelty felonies based on the condition of the live animals 
found on his property. An investigation continues into why he had 90 
dead tigers in a freezer.
    <bullet> Federal authorities in March prosecuted a 16-member, 8-
state ring of roadside zoo owners, taxidermists, and animal black 
marketeers that had purchased, shot, and butchered dozens of tigers and 
other big cats. By selling mounted heads, skins, meat, bones, and blood 
to trophy collectors, butchers and the Asian medicine trade, they 
turned a live tiger worth a few hundred dollars into body parts that 
were sold for up to $10,000--making the cats literally worth more dead 
than alive.
    <bullet> Also in April, San Antonio police were forced to shoot 
and kill a lioness that escaped from an accredited sanctuary after 
vandals opened her cage. She had been rescued from a decrepit roadside 
zoo in Iowa closed down after other big cats had starved to death or 
had been killed and eaten by cage mates. The USDA reported that a male 
Bengal tiger fed on turkey carcasses died after splintered bones 
punctured its intestines. It had no drinking water to flush the bones 
through its system and in its agony, had chewed its metal water bowl to 
pieces.
    The current mania for exotic pet bragging rights is spurred in part 
by their easy availability and low cost. Tigers breed readily even in 
the worst conditions of captivity, but they aren't tabbies. As they 
grow and become increasingly hard to handle, their novelty quickly 
wears off. The difficulties of caring for these apex-predators quickly 
compounds the cruelties they suffer beyond the cramped squalor many 
exist in, and the widespread ignorance of their physical, behavioral, 
and nutritional needs.
    For example, tigers need up to 60 pounds of red meat a week, and 
feeding them a healthy diet is expensive. Many owners substitute 
cheaper poultry parts like chicken backs and necks which don't provide 
vital vitamins and minerals. The result can be severe malnourishment 
and painful ailments like metabolic bone disease that causes their legs 
to break. Veterinary care for these big cats is difficult, and often 
impossible, to obtain.
    Many tigers end up being dumped on local animal shelters that are 
ill-equipped to care for them. Humane officers reports a catalogue of 
misery suffered by the animals--from untreatable ailments requiring 
euthanasia, to cats mutilated and crippled by ignorant owners who tried 
to declaw their pets with garden shears.
    Owners often insist they are ``saving an endangered species,'' but 
that is a false argument. Their so-called ``generic'' tiger pets, the 
result of random mating in backyard cages and roadside zoos, are 
genetically inferior hybrids that cannot be used in the programs 
conducted by accredited zoos. In a word, they are inbred mutts--
magnificent alley cats, if you will--but worthless for use in the AZA's 
Tiger Species Survival Plan that manages close to 300 tigers in its 
North American computer-matched breeding program.
    The growing public safety threat, the widespread abuse of these 
animals, and the patchwork of state and local exotic animal laws 
underscore the need for Federal action. Twelve states (Alaska, Calif., 
Colo., Ga., Hi., Mass., N.H., N.M., Tenn., Utah, Vt., and Wyo.,) 
prohibit the private possession of exotic animals. Seven states (Conn., 
Fla., Ill., Md., Mich., Nev., Va.,) have a partial ban. Fifteen states 
(Ariz., Del., Ind., Maine, Miss., Mont., N.J., N.Y., N.D., Okla., Ore., 
Pa., R.I., S.D. and Tex.,) require a license or permit to possess them.
    However, enforcement is spotty, loopholes are wide, and local 
ordinances are a regulatory mish-mash. USDA does not regulate private 
ownership of these animals. From the squalid backyard menagerie to the 
seedy roadside zoo to the illegal black market in tiger parts, it's 
time for Congress to step in and complement the efforts of the states 
by banning interstate movement of big cats for the pet trade.
                                 ______
                                 
    Mr. Gilchrest. Next on the panel, since my glasses do not 
work anymore, Mr. Haleen, National Bear Hunting Defense Task 
Force.

                STATEMENT OF STEPHEN J. HALEEN, 
                NATIONAL BEAR HUNTING TASK FORCE

    Mr. Haleen. Mr. Chairman, members of the Subcommittee, I am 
Steve Haleen, appearing to testify in opposition to H.R. 1472. 
I am the past President of the Michigan Bear Hunters 
Association and have been hunting black bears for over 25 years 
and represent the National Bear Hunting Defense Task Force. We 
appreciate this opportunity to be here today. With me are two 
members of the task force, Rick Posig, President of Wisconsin 
Bear Hunters Association, and Rob Sexton, Vice President of the 
U.S. Sportsmen's Alliance.
    The task force represents 17 organizations across the 
United States. One of the unique aspects of this task force is 
that more than half of these members are hound hunting 
organizations, myself included, which means that I prefer to 
hunt bears with hounds rather than to still hunt over bait.
    In normal circumstances, bait hunters and houndsmen are, 
for lack of a better term, friendly rivals, each one preferring 
their own method of hunting. Yet today we have put aside our 
rivalry and present a unified front of bear hunters in 
opposition to H.R. 1472. In fact, four task force members, 
Arkansas, California, North Carolina and Virginia Bear Hunters 
Associations, are houndsmen organizations from States where 
bait is not even allowed.
    You might ask why would all of these hound hunting 
organizations rally to support still hunting over bait? Because 
they understand this bill is only one part of a bigger picture. 
Backers of this bill, the Humane Society of the United States, 
the Fund for Animals, PETA, and the Animal Protection Institute 
have provided Members of Congress with arguments criticizing 
bait hunting. What they haven't divulged to you is that they 
make similar arguments about every method of bear hunting that 
exists. They don't just oppose bait hunting or bow hunting or 
spring hunting, they oppose all hunting of bears.
    We have defended ourselves in the courts of California, on 
the ballots of Colorado, Idaho, Massachusetts, Michigan, 
Oregon, and Washington, and in countless state legislatures and 
in Federal courts. The arguments of the anti-hunter radicals 
are all over the board: Dogs are cruel. Baiting is unsporting. 
It is unfair in the spring. Black bears look too much like 
grizzly bears. Hunting is unsafe.
    In the end, there is one common theme: These groups do not 
like any kind of hunting. Dog organizations join this task 
force in opposition to H.R. 1472 because they know if this bill 
becomes law some other form of anti-hunting bill will be the 
next target. The antis will not be satisfied until all hunting 
is banned.
    For example, in Minnesota where hound hunting is not 
permitted, these same groups are arguing now just as strongly 
as they are against baiting to prevent hound hunting in the 
State of Minnesota. So, from a hunter's perspective, bait and 
hound hunting alike, we believe that H.R. 1472 is one step in 
an attempt to end all traditional bear hunting in this country.
    The second issue is wildlife management. There are many 
reasons why State wildlife managers permit certain hunting 
methods: effectiveness, selection, safety, terrain, culture, 
just to name a few. In Michigan, the Natural Resources 
Commission and the Department of Natural Resources have 
concluded that the proposed ban, H.R. 1472, would cause a 
significant decline in the State's annual bear harvesting--the 
estimate is 10 to 30 percent--and that under a sustained 
decline annually would result in a significant increase in the 
bear population, particularly in the western UP where there are 
large tracts of Federal land. That increase would result in 
increased human and bear conflict, conflicts that Maryland and 
New Jersey are now facing in two States where bear hunting is 
not allowed.
    The ban would also not accomplish what the slogans suggest: 
Do not feed the bears. For you see that in the State of 
Michigan and in many other States it is also legal to bait deer 
on Federal lands. There are 50 deer hunters to every bear 
hunter in Michigan. They hunt at the same time that bear 
hunters do. They are feeding the bears much more than what the 
bear hunters are so the ban would not accomplish what they are 
trying to accomplish. What it would accomplish is preventing 
bear hunters from still hunting over bait.
    The last point I want to make has to do with States rights. 
Some States have decided to ban the practice of still hunting 
over bait. Other States have decided to allow it. In 1996 when 
these same groups came to the State of Michigan and asked the 
voters in the State of Michigan to ban the use of bait hunting 
and ban the use of hound hunting, by a two-to-one margin these 
voters decided there was no need to stop either one of these 
forms of hunting. Furthermore by a nine-to-one margin, nine out 
of ten voters said that these kinds of decisions should be left 
in the hands of the Michigan Department of Natural Resources 
and the Michigan Natural Resources Commission.
    I will conclude by saying there is no reason to believe 
that the voters in the State of Michigan have changed their 
minds.
    I appreciate the opportunity to appear.
    Mr. Gilchrest. Thank you very much.
    [The prepared statement of Mr. Haleen follows:]

 Statement of Steve Haleen, National Bear Hunting Defense Task Force, 
                              on H.R. 1472

    Mr. Chairman, members of the Subcommittee, I am Steve Haleen, 
appealing to testify in opposition to H.R. 1472. I am past President of 
the Michigan Bear Hunters Association and represent the National Bear 
Hunting Defense Task Force. We appreciate the opportunity to be here 
today and with me are two other members of the task force, Rick Posig, 
President of the Wisconsin Bear Hunters Association and Rob Sexton, 
Vice President of the U.S. Sportsmen's Alliance.
    The task force represents 17 organizations across the United 
States. A complete list is included with my written testimony. One of 
the unique aspects of this task force is that more than half of its 
members are hound-hunting organizations. Myself included, that means we 
prefer to hunt bears with dogs rather than use bait.
    In normal circumstances, bait hunters and houndsmen are, for lack 
of a better term, rivals, each one believing their method of hunting is 
the ``right'' way of doing so. Yet today, we have put aside our rivalry 
and present a unified front of bear hunters in opposition to H.R. 1472. 
Four task force members, the Arkansas, California, North Carolina and 
Virginia Bear Hunters Associations, are houndsmen organizations from 
states where bait is not even allowed. Why would all these hound 
hunting organizations rally to support bait hunting? Because they 
understand that this bill is only one part of a bigger picture. You 
see, black bear hunters have been fighting for the right to exist for 
nearly twenty years.
    Backers of this bill, the Humane Society of the United States, the 
Fund for Animals, PETA and the Animal Protection Institute, have 
provided members of Congress with arguments criticizing bait hunting. 
What they have not divulged to you is that they make similar arguments 
about every method of bear hunting that exists. You see, they don't 
just oppose bait hunting or hunting with dogs or bow hunting or spring 
hunting of bears . . . they oppose all hunting of bears. That's made 
things rough for bear hunters over the past two decades.
    We have defended ourselves in the courts of California, on the 
ballot in Colorado, Idaho, Massachusetts, Michigan, and Washington, in 
countless state legislatures and in Federal court. The arguments of the 
anti-hunting radicals are all over the board: dogs are cruel; bait is 
unsporting; it's unfair in the spring; black bears look too much like 
grizzly bears; hunting is unsafe.
    In the end, there is one common theme. These groups just don't like 
hunting--any kind of hunting. The dog organizations joined this task 
force in opposition to H.R. 1472 because they know if this bill becomes 
law, some other form of bear hunting will become the next target. The 
antis won't be satisfied until all hunting is banned.
    In Minnesota for instance, the use of dogs is prohibited, while 
bait is permitted. These same animal rights extremists are speaking out 
against dogs in St. Paul just as vigorously as they have lobbied you 
here on bait.
    These issues are being fought and debated in each state. In my home 
state of Michigan, the voters rejected a ban on baiting by a 2-1 margin 
in 1996. In Wisconsin, my colleague here has successfully defended the 
use of dogs in the state legislature several times. That is what makes 
the United States great. The people in Arkansas can do things one way, 
while the folks in Alaska do it another. Unless there is some 
overriding issue, such as endangered species or the species are 
migratory, he Federal Government has stayed out of resident wildlife 
management and that's the way it should remain.
    There are many reasons why state wildlife managers permit certain 
hunting methods. Effectiveness, selection, safety, terrain, and 
culture, just to name a few. I would hope that I don't have to come 
here to tell you why bait hunting is good. I would hope that our 
opponents would have to show you why it is bad enough for you to pre-
empt state management authority, and I know they can't do that.
    There is no evidence that baiting habituates bears to people. The 
picture of bait hunting they have painted for you does not come from 
experience. Bait hunting is challenging. Bears don't grow old and 
heavily populate the states like they do, by being easy prey. They are 
smart and elusive. Today we are seeing bears in more states and in 
greater numbers than anytime in the last 100 years. That is causing 
some of the debate. Folks in New Jersey and Maryland are having to 
decide what to do with an exploding bear population. You see, they 
don't have a hunting season and people are having run-ins with bears.
    In Michigan, we believe that the use of bait and dogs provide the 
most effective means of controlling bears, while providing a source of 
recreation for thousands of our citizens.
    This bill is an unfair, unwarranted attack on bear hunters and 
state wildlife authority and I ask the members of the Subcommittee to 
defeat it.
    Thank you again for the opportunity to appear.
                                 ______
                                 
    Mr. Gilchrest. Mr. William P. Horn, U.S. Sportsmen's 
Alliance.

            STATEMENT OF WILLIAM P. HORN, DIRECTOR, 
           FEDERAL AFFAIRS, U.S. SPORTSMEN'S ALLIANCE

    Mr. Horn. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear today and register our very strong 
opposition to H.R. 1472.
    This bill is an absolutely unnecessary and dangerous 
measure. It constitutes an unwarranted assault on the long-
established distribution of authority between the State and the 
Federal Government regarding the regulation of the taking of 
resident fish and wildlife.
    For over two centuries control over resident fish and 
wildlife has been vested in the States, and Congress has 
repeatedly in a wide variety of statutes--most notably and 
recently with the National Wildlife Refuge System Improvement 
Act of 1997--reiterated very expressly that the taking of 
resident species of fish and wildlife, even on Federal land, 
remains a State prerogative.
    Now, of course, this relationship that has existed since 
the founding of our Republic, grounded in the Federalism 
between the Feds and the States, of course is quite distinct 
from other areas where Congress has asserted Federal preemption 
from the very beginning. Two noteworthy examples would be 
Federal preemption of regulation of airspace through the 
Federal Aviation Administration or preemption of regulation of 
the use of the airwaves as regulated by the Federal 
Communications Commission. Those are areas where Congress said 
from the outset we will have Federal primacy and preemption, 
very, very different from the 200-year history that has existed 
vis-a-vis the regulation of wildlife.
    Clearly, the Federal Government does have certain 
preemptive powers regarding wildlife, powers that it has used 
very judiciously and sparingly over the last century. Primary 
examples are the 1918 Migratory Bird Treaty Act to govern the 
conservation and taking of migratory birds. Another example is 
the Endangered Species Act and the Marine Mammal Protection 
Act, both enacted over 30 years ago.
    No significant legislation providing for Federal preemption 
of State wildlife authority has been enacted in decades. It is 
clear that Congress has exercised its preemptive authority 
infrequently and only in extraordinary circumstances either 
involving wildlife on the verge of extinction or endangerment 
or for migratory species that move over State boundaries, such 
as ducks and geese, or for species that exist and migrate 
outside of traditional boundaries, such as whales and dolphins 
and other marine mammals.
    In very sharp and marked contrast, black bears are abundant 
and nonmigratory. They do not fit the bill for any of the prior 
circumstances where Congress has seen fit to exercise its 
preemptive authority. Based on that precedent, based on the 
facts, uncontroverted facts, there is absolutely nothing that 
justifies Federal preemption in the case of black bears or 
hunting techniques for such black bears. We submit that passage 
of H.R. 1472 would represent an unprecedented break with a 
century of judicious wildlife policy and thrust Congress 
directly into proscribing highly specific forms of hunting and 
fishing.
    If Congress determines that this particular specific 
practice justifies the exercise of its extraordinary and unique 
preemptive authorities, what other specific fishing, hunting or 
trapping activities will be the subject of the next preemptive 
act? Baiting of fish through the use of chum is a very common 
practice for fishing for migratory striped bass in the 
Chesapeake Bay or for fishing for migratory bluefish off the 
coast of New Jersey. If some find this practice unethical or 
unsporting, and there are many in the animal rights community 
who find all forms of fishing are unethical and unsporting, 
should Federal legislation prohibit this form of angling in 
navigable Federal waters? We would submit not.
    This bill will so lower the threshold for Federal 
preemption that virtually any form of controversial fishing, 
hunting or trapping activity will be subject to direct 
congressional intervention; and we are persuaded that is a 
Pandora's box that this Congress shouldn't open.
    Let me close with a couple of other observations.
    Picking up on Steve's prior comments, I hope the Committee 
or the Subcommittee took note of Mr. Pacelle's comments in 
which he opened up with an attack on baiting; and we noticed 
that throughout the conversation and the testimony that we end 
up hearing references to baiting, the use of dogs, and spring 
seasons beginning to be used almost interchangeably. Make no 
mistake many of the opponents of this bill--or the proponents 
of this bill are as adamantly opposed to these other forms of 
State-sanctioned activity as they are of baiting; and I would 
fully expect if Congress passes this measure we will see 
someone persuaded to introduce a bill to outlaw the use of dogs 
in bear hunting, as is now provided in eight States, including 
Virginia and West Virginia, if someone finds these particular 
activities to be repugnant to their sense of aesthetics and 
ethics.
    We believe it is absolutely necessary for Congress to 
retain the judicious use of its preemptive authority that has 
typified its activities in the Federal wildlife field for over 
a century and not pass this bill and confine its focus to those 
areas of migratory species where it has determined that 
preemption is warranted.
    Mr. Gilchrest. Thank you, Mr. Horn.
    [The prepared statement of Mr. Horn follows:]

 Statement of William P. Horn, U.S. Sportsmen's Alliance, on H.R. 1472

    Mr. Chairman. My name is William P. Horn, Federal Affairs Director 
and Washington Counsel for the U.S. Sportsmen's Alliance. I appreciate 
the opportunity to appear today and express our strong opposition to 
H.R. 1472. The Alliance is a national non-profit entity committed to 
protecting our heritage of hunting, angling and trapping. It represents 
over 1.2 million sportsmen and women through its members and affiliated 
organizations. We are also pleased to be coordinating the efforts of 
the Natural Bear Hunting Defense Task Force.
    H.R. 1472 is an absolutely unnecessary and dangerous measure that 
would preempt the authority of state fish and wildlife authorities to 
regulate the taking of highly abundant black bears. Specifically, the 
bill would mandate new Federal regulations to prohibit the authorized 
use of bait and the related hunting of black bears on all Federal lands 
notwithstanding state law, regulations, or practices to the contrary. 
As such the bill constitutes an unwarranted assault on the long 
established distribution of authority between the states and the 
Federal Government regarding the regulation of resident fish and 
wildlife.
    Beginning with the rise of our states in the 1600 and 1700's, 
control over fish and wildlife resources has been vested in those 
states. Express recognition of state primacy in this field first 
occurred in the 1800's and Congress has continually determined that 
regulation of the taking of resident species of fish and wildlife, even 
on Federal land, remains a state prerogative (e.g., National Wildlife 
Refuge System Improvement Act of 1997, P.L. 105-57, Oct. 9, 1997: 
Section 8 (a) ``Nothing in this Act shall be construed as affecting the 
authority, responsibility of the several States to manage, control, or 
regulate fish and resident wildlife under State law or regulations in 
any area of the [Refuge] System.'').
    The Constitution does vest the Federal Government with preemptive 
power but in the realm of wildlife law this authority has been used 
judiciously and sparingly. The first significant Federal preemptive act 
was the 1918 Migratory Bird Treaty Act to govern the conservation and 
taking of migratory birds. However, even in the case of migratory 
birds, the Federal Government sets a framework for hunting and leaves 
the specifics to be implemented by the individual states fish and 
wildlife authorities. Other examples of preemption are the Endangered 
Species Act and the Marine Mammal Protection Act both enacted 30 years 
ago. No significant legislation providing for Federal preemption of 
state wildlife authority has been enacted in decades.
    It is clear that Congress has exercised this authority infrequently 
and only in extraordinary circumstances involving wildlife on the verge 
of extinction or for migratory species that move across state 
boundaries (i.e, ducks) or that exist outside of traditional state 
boundaries (i.e., whales, dolphins).
    Nine states authorize the use of bait in the taking of black bears: 
Alaska, Idaho, Maine, Michigan, Minnesota, New Hampshire, Utah, 
Wisconsin, and Wyoming. Fish and wildlife authorities in these states 
have made a considered professional judgement that this method of 
taking is a legitimate means of hunting abundant black bears. Of 
course, other states have come to a different conclusion and are free 
to do so in under our 214 year old system of Federalism. We should add 
too that those who disapprove of the use of bait are also completely 
free to exercise their rights and approach or petition the authorities 
in these nine states to change their rules.
    Black bears are abundant and non-migratory. Populations are growing 
and in many areas the animals are a nuisance, and sometimes a hazard, 
to people. Most states with black bears have hunting seasons designed 
to keep bear populations in check to minimize or reduce nuisances and 
hazards. And in nine cases, states have decided that the use of bait is 
an important tool to be employed in pursuit of these goals.
    Absolutely nothing justifies Federal preemption in the case of 
black bears or hunting techniques for such bears. Black bear 
populations number in the hundreds of thousands in the nine states that 
authorize the use of bait. Populations in other states are as high if 
not higher. This is a not a species in any trouble. In addition, these 
animals are also highly resident spending virtually all of their lives 
in defined territories. Black bears are not moving among the states in 
flocks or herds necessitating a direct Federal management role.
    Passage of this bill would represent an unprecedented break with a 
century of judicious wildlife policy and thrust Congress directly into 
proscribing, or prescribing, highly specific forms of hunting or 
fishing. If Congress determines that this highly specific practice 
justifies the exercise of its constitutional Property Clause power, 
what other specific fishing, hunting, or trapping activities will be 
the subject of the next preemptive act? ``Baiting'' of fish through the 
use of chum is a common practice for migratory striped bass in 
Chesapeake Bay, for migratory bluefish off the New Jersey coast and for 
migratory Spanish mackerel off Florida. If some find this practice 
unethical or unsporting, should Federal legislation prohibit these 
forms of angling? Wisconsin routinely allows the use of bait for 
hunting whitetail deer; should Wisconsin hunters anticipate preemptive 
Federal law to ban this practice? Passage of H.R. 1472 will so lower 
the threshold for Federal preemption of state regulation of fish and 
resident wildlife that virtually no form of state sanctioned fishing, 
hunting, or trapping activity will be exempt from direct Congressional 
meddling. The Sportsmen's Alliance is persuaded that neither the 
Subcommittee nor Congress will want to open this Pandora's Box.
    The anti-hunting zealots and animal rights radicals behind this 
legislation will not rest until all forms of hunting, fishing, and 
trapping are totally prohibited. Obviously they cannot achieve their 
radical agenda at once and have adopted a different more stealthy 
tactic--target more controversial and less popular practices one by 
one. That is clearly the purpose of H.R. 1472 and we strongly urge the 
Subcommittee to simply stop this unwarranted and dangerous bill and to 
not advance the animal rights agenda.
    Thank you again for the opportunity to appear and the U.S. 
Sportsmen's Alliance looks forward to working with the Subcommittee to 
stop this dangerous measure.
                                 ______
                                 
    Mr. Gilchrest. We have a vote. We have to leave in 5 
minutes. We will have members without objection who are here or 
have left to come up with questions which we would like to 
submit to the record and submit to the panel.
    I yield now to the gentleman from California.
    Mr. Marlenee. Mr. Chairman, I neglected to introduce the 
wildlife biologist, Dr. Dwayne Etter, from the State of 
Michigan. He is the biologist--the bear management specialist 
adjutant professor at the University of Michigan. He has a 
statement I would like to enter into the record.
    Mr. Gilchrest. Without objection, and we will continue our 
conversation with the gentleman as we pursue the legislation.
    [The prepared statement of Dr. Etter follows:]
                           state of michigan
                    DEPARTMENT OF NATURAL RESOURCES
                                lansing

                             June 10, 2003

The Honorable Wayne Gilchrest
Chairman, Subcommittee on Fisheries Conservation, Wildlife and Oceans
Committee on Resources
U.S. House of Representatives
Room H2-187, Ford House Office Building
Washington, DC 20515

Dear Chairman Gilchrest:

SUBJECT: Written Testimony, ``Don't Feed the Bears Act of 2003 (H.R. 
1472)

Introduction
    The residents of Michigan have long lived with and hunted black 
bear. The Michigan Department of Natural Resources (MDNR) is mandated 
to manage this valuable and important Michigan resource. If enacted, 
the proposed ``Don't Feed the Bears Act of 2003 (H.R. 1472)'' would 
severely limit the ability of the MDNR to meet this mandate.
Black Bear Social Issues in Michigan
    The black bear is an integral part of forested ecosystems in 
Michigan; however, public concerns require that the MDNR manage the 
number of bear in the state at a socially acceptable level. In the 
absence of hunting, Michigan's bear population would be expected to 
increase at a rate of approximately 15-20 percent per year.
    Approximately one million people and an estimated 16,000 black bear 
live in close proximity in the northern two-thirds of Michigan. Bear 
are expanding their range also into the highly populated areas of 
southern Michigan. This, in conjunction with the large influx of people 
living and vacationing in northern Michigan, increases incidents of 
human-bear encounters. Bears sometimes become a nuisance by searching 
for food in garbage cans and at bird feeders. Bears also can cause 
damage to buildings and crops and sometimes kill pets and livestock. On 
rare occasions, bears injure people. Regulating the size of the bear 
population can reduce the likelihood of negative bear-human 
interactions.
Bear Research in Michigan
    The MDNR has a long commitment to research the biology of the black 
bear, its population dynamics, and habitat requirements. One of the 
pioneer black bear research projects in the country began in the Upper 
Peninsula (UP) in the early 1950s, at which time methods of live 
trapping and handling black bear were developed. In more recent years, 
radio-telemetry projects have allowed researchers to track black bear 
movements and assess the effects of human activity on bear behavior in 
Michigan. Using bait to attract bears into traps is the most effective 
way to capture bears for research purposes. In the 1990s, this 
technique was used extensively by MDNR and United States Forest Service 
(USFS) biologists on the Huron-Manistee National Forest (HMNF) to 
capture and radio-collar bears. This project is outlined in Memorandum 
of Understanding (MOU) R9-04-MU-92-007 between the MDNR and HMNF-USFS. 
Information from this project is used extensively for management of 
bears in the northern Lower Peninsula (NLP). Inability to bait and 
capture bears on Federal lands would limit severely the effectiveness 
of future bear research projects under this MOU.
    Michigan biologists have used bear baiting as a population trend 
estimator for the past 15-20 years. Baits (usually consisting of one- 
to two-pound packs of bacon and cans of sardines) are suspended from 
trees six to eight feet above the ground to ensure that only bears can 
take baits. Survey routes are established systematically to assure that 
all bears in a given survey area have a chance to be recorded. Baits 
are checked one to two weeks later, and those taken by bears are 
recorded. By comparing the number of baits taken by bears among years, 
biologists are able to project trends in bear population size. However, 
projecting trends requires multiple years of replicating the same 
survey routes. Existing survey routes in Michigan's UP and NLP include 
bait sites located on Federal lands. Eliminating these bait sites from 
future surveys would make comparisons with past surveys impractical. In 
areas where Federal lands make up a significant portion of available 
bear habitat, eliminating bait sites on Federal lands would render this 
survey technique useless.
    Advances in genetic technology provide an additional tool for 
estimating bear population size in Michigan. The MDNR and Michigan 
State University are currently conducting a research project to 
estimate bear population size in the NLP using baited hair snares to 
collect genetic material from bears. As described above, baited hair 
snares are placed systematically on private, state, and Federal lands 
to ensure potential sampling of all bears within the region. This 
research is being conducted in cooperation with the USFS and Tribal 
biologists from the region. Year one of this project shows promise for 
its future use to estimate bear populations; however, the inability to 
bait bears on Federal lands will likely limit its usefulness in most 
areas of Michigan.
Problem Bears
    The MDNR strives to minimize conflicts between bears and people. In 
2001, the ``Black Bear Work Group'' developed the ``Michigan Problem 
Bear Policy and Management Guidelines'' outlining specific procedures 
for managing human-bear conflicts. Social intolerance of bears and 
their behavior sometimes warrants the need to capture and relocate 
problem bears.
    The MDNR began documenting bear complaints on a statewide basis in 
1991. From 1991 to 2002, over 3,000 bear complaints were documented. In 
response, bear traps were set on approximately 800 occasions resulting 
in over 350 problem bears being captured. Additionally, the MDNR 
cooperates with the USFS to trap problem bears on Federal lands in 
Michigan. The most effective means for capturing nuisance bears is in a 
baited trap.
    Critics contend that baiting habituates bears to human foods thus 
increasing nuisance bear activity. It is unclear whether baiting 
increases or decreases nuisance bear activity. Bears that are attracted 
to hunter's baits and are not harvested may be more likely to seek out 
other human sources of food. However, bears that are already adapted to 
using human foods are more likely to be harvested over bait.
    It is unclear whether baiting increases the likelihood of bears 
attacking people. However, reported bear attacks are extremely rare in 
Michigan, and the last reported human fatality from a bear was recorded 
in 1978. The MDNR personnel tend hundreds of bear baits annually for 
research purposes. No bear attacks have been reported in association 
with this activity.
Bear Hunting in Michigan
    Regulated bait hunting helps to maintain precision in the number of 
bears harvested annually because it provides consistency in bear hunter 
success rates. (From 1996 to 2002, bear hunter success rates in 
Michigan ranged from 23 to 27 percent.) Each winter, biologists use 
population models in conjunction with indexes derived from bear bait 
surveys to estimate the bear population in Michigan. Biologists then 
use average hunter success rates from previous seasons to determine the 
number of permits required to achieve the desired harvest in the 
upcoming season. Using this technique, the actual number of bears 
harvested has fluctuated less than 6 percent from the desired harvest 
since 1998. Over the past decade, the annual number of bear harvested 
in Michigan has been adjusted annually to allow the population to 
increase at a rate of 2-3 percent per year. To achieve this, the bear 
harvest in Michigan has increased approximately 5-15 percent each of 
the last eight years.
    Bear baiting has always been a legal harvest method in Michigan, 
and it is integral to the management of the species. In 2002, 
approximately 83 percent of Michigan hunters relied on baiting to 
attract bears to their hunting area. An additional 7 percent of hunters 
used a combination of bait and dogs to locate a bear. In 1985, a formal 
baiting season was established in Michigan; since then, baiting to 
attract bears has been highly regulated. It is illegal for any person 
or their authorized representatives to establish or tend more than 
three bait stations per hunter. No metal containers, plastic, wood, 
glass, fabric cloth, tires, or paper may be used at a bait station. 
Bait can only be placed on the ground. As required by state law, any 
containers used to transport bait to the baiting site must be removed 
and disposed of properly. If using grains, the hunter is limited to no 
more than two gallons, and the bait must be made inaccessible to deer 
and elk. For the 2003 bear hunting season, the baiting period is 
limited to five weeks (August 19 to September 25) in the Lower 
Peninsula (LP) and 10 weeks (August 10 to October 26) in the UP.
    Approximately 14 percent of land open to bear hunting in Michigan 
is Federally owned. Additionally, 22 percent of the land base in the 
western end of the UP (Amasa, Baraga, and Bergland Bear Management 
Units) is in Federal ownership. In 2002, these three units combined for 
approximately 48 percent of the state's total bear harvest. 
Furthermore, 45 percent of Michigan's bear hunters hunted on public 
lands, and an additional 19 percent hunted on both public and private 
lands in 2002. Clearly, the elimination of baiting for bear on 
Federally owned lands in Michigan would affect a significant decline in 
the state's annual bear harvest.
    The harvest of black bears in Michigan is managed in ten bear 
management units (BMU). The BMUs help to distribute the bear harvest 
throughout the entire subsection, rather than allowing hunters to 
target animals in only optimal habitats. Baiting is an effective method 
for attracting bears that exist in less than optimal habitats and at 
lower densities. The BMUs also help to assure that biological 
information obtained from harvested bears is representative of the 
entire subsection population. Since 1990, a ``quota'' system has been 
used to limit the number of hunters in each BMU each year.
    Contrary to the belief of many non-bear hunters, harvesting a bear 
over bait is not easy (e.g., bear hunter success rates in Michigan 
average approximately 25 percent). Bears have a keen sense of smell and 
hearing and generally are wary of humans, so bait hunters must be 
skillful and patient to harvest a bear. Hunters can place baits at 
close range for more effective shots thus resulting in less wounded 
animals. Additionally, hunters using bait can be selective and thus 
avoid shooting young bears or mothers with cubs. (Harvesting a cub bear 
or mother with cubs is illegal in Michigan).
    Hunting bears with bait is a legal and important method of 
harvesting bears in one-third of the states that have bear hunting (9 
of 27 states) and in 8 of 11 Canadian provinces. States and provinces 
that do not allow bait for hunting bears tend to: 1) have habitat 
conducive to spot and stalk hunting (e.g., Montana and Colorado); or 2) 
have a large pool of hunters (e.g., New York and Pennsylvania); or 3) 
have climates that are conducive for bears to den late in the year, so 
they can be hunted during deer and elk seasons (e.g., Oregon and 
Washington). Ideal bear habitat in Michigan consists of densely wooded 
lowland conifers where visibility is severely limited. For the past 
three years, the bear hunter pool in Michigan has been approximately 
50,000 hunters. This is less than one-half of the number of bear 
hunters in several states that do not allow bait hunting (e.g., 
approximately 120,000 people hunted bear in Pennsylvania in 2002). Most 
bears in Michigan are already in dens by the time deer season begins in 
mid-November. Michigan had a bear season that overlapped gun deer 
season until 1990. This season was closed due to the concerns that many 
bears were being taken when they were in the den, a method considered 
unsporting to most hunters.
    In Michigan, it is legal to bait deer and most furbearers (e.g., 
coyotes, foxes, etc.) for the purpose of hunting or trapping. 
Enforcement of changes to bear baiting laws on Federal lands might be 
confounded by the difficulty of discerning bear baiting from baiting 
for other species. Furthermore, changes to bear baiting laws on Federal 
lands could influence also the MDNR's ability to manage other wildlife 
species.
Baiting/Feeding and Bear Ecology
    Bears are omnivorous and opportunistic feeders, taking the easiest 
and best foods available. Bears prefer foods with high protein and fat 
content. They show preference for specific foods, but not necessarily 
bait. Hard and soft mast (nuts and berries) are important natural 
foods, and bears are known to move long distances to obtain them. In 
years of abundant natural foods, harvest of bears over bait is known to 
decrease. This suggests that if given the opportunity, bears prefer 
natural foods to bait.
    Critics of bear baiting suggest that bears with access to bait have 
increased reproduction resulting in an increased number of bears. 
Research conducted in Michigan indicates higher productivity for 
females from the LP compared to those from the UP even though the 
baiting period on the UP is twice as long as it is in the LP. This 
suggests that factors other than bear baiting are influencing 
reproduction in Michigan bears. Furthermore, the argument that bear 
populations increase because of baiting fails to consider the increased 
mortality of bears that feed at bait sites.
State's Rights to Manage Wildlife Resources
    The Federal Government manages harvest methods used to take 
migratory species (such as waterfowl) because these species frequently 
cross state and international boundaries. The management of resident 
animals (such as bears) has long been left to individual states. 
Research in Michigan and neighboring states indicates that the vast 
majority of bears that are born in Michigan live their entire lives 
within the boundaries of the state. Baiting is an important tool for 
managing this valuable and important Michigan resource.
    In 1996, voters in Michigan overwhelmingly defeated a proposal to 
ban bait and hound hunting for bears. Furthermore, voters 
overwhelmingly supported a proposal granting the Natural Resources 
Commission (NRC) the exclusive authority to regulate the taking of game 
(including bear), and required that the NRC use ``principles of sound 
scientific management'' in making decisions concerning the taking of 
bear and other wildlife.
Summary
    Proposed H.R. 1472 would reduce the annual bear harvest in 
Michigan. As bears become more numerous and expand their range into 
areas that are more densely populated by humans, many would likely be 
killed in bear-vehicle collisions or shot as nuisance animals. The bear 
population could eventually reach a ``biological carrying capacity'' 
where natural mechanisms such as cannibalism, starvation, and 
emigration would regulate population growth. However, these natural 
population control mechanisms are viewed as a waste of the resource by 
many Michigan constituents. Furthermore, the number of bears that can 
be supported biologically in Michigan likely exceeds the number that is 
socially tolerable. Furthermore, proposed H.R. 1472 would significantly 
influence the MDNR's ability to conduct present and future bear 
research and to estimate bear population levels in the state. This 
would erode the ability of the MDNR to manage the bear resource in a 
sound, scientific manner as mandated by the constituents of Michigan.

                               Sincerely,

                         Dwayne R. Etter, Ph.D.

                      Wildlife Research Biologist

                           Wildlife Division

                              517-373-1263

                                 ______
                                 
    [NOTE: An attachment to Mr. Etter's letter entitled ``2003 
Michigan Bear Hunting Guide'' has been retained in the 
Committee's official files.]
                                ------                                

    Mr. Gilchrest. Mr. Gallegly.
    Mr. Gallegly. Thank you, Mr. Chairman. I understand there 
will be 5 votes, so, obviously, we won't be coming back 
afterwards.
    It is good to see my old friend, Ron Marlenee. We used to 
fight a lot of battles side by side; and normally we were on 
the same side, if I recall history correctly. I also heard that 
you were introduced as the sheriff of Montana, the de facto 
sheriff; is that correct?
    Mr. Marlenee. Probably not the sheriff but the gunslinger.
    Mr. Gallegly. If you were the sheriff in Montana, bear 
baiting is illegal in Montana, if you caught someone in Montana 
bear baiting, would you arrest them?
    Mr. Marlenee. There would be no choice. You adhere to the 
laws, just like you would adhere to the laws of littering, et 
cetera.
    Mr. Gallegly. And I know you to be a good, law-abiding 
citizen. I appreciate that.
    Mr. Haleen, I have to take a little exception with a couple 
of things that you mentioned. You talked about the genesis of 
this bill; and you said this organization, this organization, 
this organization as the one that is sponsoring this bill. You 
mentioned PETA in that list. Let me just remind you that I have 
never met--I have heard about PETA, but to my knowledge there 
has never been a PETA person in my office.
    Let's set the record clear from the get-go. Elton Gallegly 
is the sponsor of this bill. If there are others who support it 
who historically may not be aligned with me on other issues, I 
welcome their support, but for the credibility of the witness I 
think it is important that we set the record straight on that 
issue who the sponsor of the bill is.
    Mr. Horn, you had a lot to say about States rights and so 
on and so forth. You check my voting record over 17 years you 
will find that I have been a very strong proponent of States 
rights in almost every issue. The issue of--and, of course, 
reasonable minds can differ from time to time as it may be the 
case on this bill. But on the Airborne Hunting Act, would you 
say that you would be opposed to that? You think that was a 
wrong decision for Congress to be involved in that?
    Mr. Horn. Congress has asserted preemptive authority over 
regulation of the airspace from the beginning of the aviation 
industry and concluded for a variety of reasons, including 
public safety and other ethical issues, that it was going to 
determine to ban airborne hunting; and that was done over 30 
years ago. I noted in reality I think the last major statute 
passed that had preemptive effect on the States was the Marine 
Mammal Protection Act in 1972, and Congress has been 
extraordinarily sparing in the use of its preemptive authority 
in the intervening three decades.
    Mr. Gallegly. I think that it would be obvious that my 
record would be supporting that thesis. The issue is that 41 of 
50 States in this Nation oppose bear baiting as a method of 
hunting bear; and as Mr. Marlenee from his home State--his own 
home State, one of the most beautiful places on the face of the 
earth, outlaws bear baiting--Ron, you mentioned that this 
procedure, that they never use any more than is absolutely 
necessary; and to quote you--correct me if I am wrong--this is 
a stinky, messy job, to bait bear; and they use absolutely no 
more than is necessary. How much is necessary?
    Mr. Marlenee. We are told by the specialist--and I would 
refer this to the Michigan Department of--the biologists. But 
in from Minnesota we get the word from the management 
specialists they use from 5 to 10 pounds.
    Mr. Gallegly. That is fine.
    Again, this timing situation is making this very difficult 
because we have 5 votes pending on the floor, and I would like 
to have more time, but that isn't going to happen. One of the 
things that seems to be somewhat of a contradiction, you 
mentioned that the bait has to be biodegradable and it has to 
be removed. Why would it have to be biodegradable if it has to 
be removed?
    Mr. Marlenee. Could I refer to Dr. Etter?
    Mr. Gallegly. Well, if he could give me a quick answer.
    Mr. Marlenee. Being a professor, I don't know.
    Dr. Etter. I can speak on behalf of Michigan only. In 
Michigan, you do not have to remove the bait at the end of the 
bear baiting season.
    Mr. Gallegly. In other words, you can let it sit there and 
rot.
    Dr. Etter. In most cases, it would be removed by bears or 
other animals in the area, including fish or martin, cats, 
bobcats.
    Mr. Gallegly. But in Michigan it is OK to just leave it 
there?
    Mr. Marlenee. How much would you use?
    Dr. Etter. In Michigan, it is OK to leave it there. Most 
hunters do not use more than 5 to 10 gallons of bait. For 
research purposes I can attract bears with as little as one 
pound of bait.
    Mr. Gallegly. There is a difference in 5 to 10 gallons and 
5 to 10 pounds, about eight times.
    I yield back. Thank you very much.
    Mr. Gilchrest. I apologize to the witnesses for the voting 
schedule, but we probably won't be done voting for another hour 
or more. We will take all of your thoughts into consideration. 
Thank you very much.
    I have to ask unanimous consent that a statement by George 
Miller be submitted into the record. Without objection.
    [The prepared statement of Mr. Miller follows:]

Statement of The Honorable George Miller, a Representative in Congress 
               from the State of California, on H.R. 1006

    Members of the Committee and witnesses, I want to state my strong 
support for H.R. 1006, the Captive Wildlife Safety Act.
    As many of you know, I introduced similar legislation last year and 
worked with Rep. McKeon on this year's proposal.
    This bipartisan bill represents a firm commitment to protect the 
safety of the American public and to protect the welfare of wild 
animals that are increasingly being maintained as pets.
    Our bill identifies and provides a solution to a growing national 
problem that must be addressed.
    The Captive Wildlife Safety Act would amend the Lacey Act and bar 
the interstate and foreign commerce of dangerous exotics, including 
lions, tigers, leopards, cheetahs, and cougars, for use as pets.
    The legislation would not ban all private ownership of these 
prohibited species; rather, it would outlaw the commerce of these 
animals for use as pets.
    The legislation specifically exempts zoos, circuses, and others 
that are currently regulated by the U.S. Department of Agriculture 
under the provisions of the Animal Welfare Act. Instead, the bill is 
specifically aimed at the unregulated and untrained individuals who are 
maintaining these wild animals as exotic pets.
    According to best estimates, there are more than 5,000 tigers in 
captivity in the United States. There are perhaps more tigers in 
captivity than there are tigers in their native habitats throughout the 
range in Asia.
    While some tigers are held in zoological institutions, most of the 
animals are pets, kept in cages behind someone's home in a state that 
does not restrict private ownership of dangerous animals.
    And it's not just tigers: there is widespread private ownership of 
other dangerous animals, including lions, cougars, and cheetahs. At a 
time when almost anything can be bought on the Internet, it is not 
surprising that the animals can all be purchased through the more than 
1,000 web sites that promote private ownership of wild animals.
    Problems arise because most owners are ignorant of a wild animal's 
needs. Local veterinarians, sanctuaries, animal shelters, and local 
governments are ill equipped to meet the challenge of providing proper 
care.
    People living near these animals are also in real danger.
    There is a laundry list of incidents of dangerous exotics seriously 
injuring and killing people.
    In Loxahatchee, Florida, a 58-year-old woman was bitten in the head 
by a 750-pound pet Siberian-Bengal tiger mix.
    In Lexington, Texas, a three-year-old boy was killed by his 
stepfather's pet tiger.
    There is also the possibility that captive wildlife can become 
vectors for exotic diseases as is the case with the recent monkeypox 
outbreak and the link between civet cats and SARS.
    The Captive Wildlife Safety Act represents an emerging consensus on 
the need for comprehensive Federal legislation to regulate what animals 
can be kept as pets.
    A wide range of groups and institutions oppose the private 
ownership of carnivores. The U.S. Department of Agriculture states, 
``Large wild and exotic cats such as lions, tigers, cougars and 
leopards are dangerous animals...Because of these animals' potential to 
kill or severely injure both people and other animals, an untrained 
person should not keep them as pets. Doing so poses serious risks to 
family, friends, neighbors, and the general public.''
    The American Veterinary Medical Association also ``strongly opposes 
the keeping of wild carnivore species of animals as pets and believes 
that all commercial traffic of these animals for such purpose should be 
prohibited.''
    This bill is just one part of the solution to help protect people 
and exotic animals. States will continue to play a major role.
    I hope to see a continued grassroots effort directed at the state 
and local government level, to increase the number of states and 
counties that ban private ownership of dangerous exotic animals.
    Already, 12 states ban private possession of large exotic animals, 
while 7 states have partial bans.
    The Captive Wildlife Safety Act is supported by the Association of 
Zoos and Aquariums, The Humane Society of the United States, The Fund 
for Animals, and the International Fund for Animal Welfare.
    I want to thank the actress Tippi Hedron for raising awareness of 
this issue on Capitol Hill.
    Tippi operates an animal sanctuary, and often has the sad and 
expensive task of rescuing these animals after their owners realize the 
lion or tiger is a safety risk and cannot be properly cared for.
    I also wanted to take a moment to state my support for the ``Do Not 
Feed the Bears Act.''
    I applaud Rep. Gilchrest and Rep. Gallegly for bringing the issue 
of bear baiting on public lands before this Committee for discussion.
    In closing, I am grateful that Chairman Gilchrest has scheduled a 
hearing on the Captive Wildlife Safety Act and I hope that this 
legislation will move through the legislative process quickly.
                                 ______
                                 
    Mr. Gilchrest. And testimony by the International Fund for 
Animal Welfare and the Congressional Sportsmen's Caucus, 
National Rifle Association, State of Wisconsin Department of 
Natural Resources and the Michigan House of Representatives, 
and the United Sportsmen's Alliance.
    Mr. Gilchrest. Gentlemen, thank you. Have a safe trip home.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]

    [The information submitted for the record follows:]

Statement submitted for the record by Cindy Milburn, Director, Animals 
     in Crisis and Distress, International Fund for Animal Welfare

    My name is Cindy Milburn and I am the Director of the Animals in 
Crisis and Distress Program for the International Fund for Animal 
Welfare (IFAW). IFAW is a non-profit organization with over two million 
supporters around the world. Our global headquarters is in 
Massachusetts, and we have offices in Australia, China, Japan, Russia, 
Germany, France, The Netherlands, the United Kingdom, Canada, India, 
Belgium, Kenya, South Africa, Mexico, and in Washington, D.C.
    IFAW's mission is to work to improve the welfare of wild and 
domestic animals throughout the world by reducing commercial 
exploitation of animals, protecting wildlife habitats, and assisting 
animals in distress. IFAW seeks to motivate the public to prevent 
cruelty to animals and to promote animal welfare and conservation 
policies that advance the well being of both animals and people.
    I am pleased to submit this statement for the official hearing 
record in support of H.R. 1006, the ``Captive Wildlife Safety Act'' and 
want to commend Representatives McKeon, Miller and the forty other co-
sponsors for their support of this much needed legislation.
    Humans have kept pets, or companion animals, for centuries. While 
the majority of pets are domesticated animals such as cats and dogs, 
there are a rising number of ``exotic'' animals that were either 
removed from the wild, often illegally, or bred in captivity from wild 
animals. The worldwide exotic pet trade--the buying and selling of 
exotic animals as pets--is a major component of the global trade in 
wildlife. This global industry is second only to the international 
trade in arms and narcotics. The exotic pet trade threatens the 
survival of many species worldwide while undermining international 
conservation efforts. IFAW has been very active in public educational 
programs regarding amphibians and reptiles as exotic pets. We are all 
too familiar with cruelty and safety problems associated with the 
exotic pet trade.
    H.R. 1006 focuses on captive wildlife and amends the Lacey Act to 
bar the interstate and foreign commerce of dangerous exotics cats, 
including lions, tigers, leopards, cheetahs, jaguars and cougars. While 
not prohibiting the private ownership of these animals as pets, the 
bill is intended to halt the trade in these animals as pets. As you are 
aware, the ``pet farm'' industry has flourished in recent years and in 
just 5 minutes on the internet you will discover hundreds of web sites 
specializing in the sale and promotion of lions and leopards and 
cheetahs as domestic pets. We hope that H.R. 1006 will severely curtail 
this trade in exotic cats.
    Keeping large exotic cats as pets is dangerous not only to the pet 
owners but to the communities where they are raised or maintained. 
Authorities shot and killed three African lions after they terrified 
the community of Quitman, Arkansas in 2002. Last October police killed 
a Bengal tiger that escaped from a roadside truck stop in Bloomington, 
Indiana and in Texas a three year old boy was killed by his 
stepfather's pet tiger. These are just of few recent examples of why 
captive wildlife should not be raised or kept as pets.
    We at IFAW know from our experiences in the field that exotic pets 
are subjected to inhumane treatment and cruel living conditions. Large 
cats such as lions and cheetahs are born to run free, not be locked up 
in some small cage. Because the vast majority of exotic pet owners have 
neither the training to handle and care for these animals or the space 
to keep them, they are all too often abused and abandoned. Wildlife 
such as tigers and lions should stay in the wild and not abused as 
pets.
    We are also concerned about the proliferation of pseudo 
``sanctuaries'' which claim to breed large cats in order to conserve 
the species. These captive bred animals would never be able to be 
released into the wild and are essentially inbred specimens of a lower 
DNA stock than wild cats. The discovery on April 24th of this year of 
dozens of corpses of young and adult tigers and other big cats in 
freezers at a nonprofit ``sanctuary'' called Tiger Rescue in Riverside, 
California is the latest example of unfortunate and tragic incidents 
spawned by a growing desire to own and exploit dangerous wild animals 
for pleasure or profit.
    Public safety and cruelty are the two major reasons why twelve 
states have banned the possession of large exotic animals and seven 
states have adopted partial bans. Because these state laws go further 
than H.R. 1006 in eliminating exotic wildlife as pets, IFAW strongly 
supports the provision of the bill that ensures that state law will not 
be pre-empted or superseded.
    While IFAW supports the inclusion of large cats in the definition 
of ``prohibited wildlife species'' we are disappointed that similarly 
dangerous wildlife such as bears, alligators and crocodiles are not 
included, especially when bears were included in last year's version of 
the bill (H.R. 5226). While we appreciate the political realities of 
the situation, IFAW urges the Subcommittee to expand the list of 
prohibited species to include bears and other carnivorous wildlife.
    With respect to enforcement, IFAW requests the Subcommittee to make 
sure that the Fish and Wildlife Service has adequate resources to 
enforce the provisions of the legislation. We are very aware of the 
fiscal restraints of the Fish and Wildlife Service's enforcement 
program and we hope that the Service will make every effort to use 
cooperative law enforcement agreements with state and local authorities 
to help enforce the law.
    Lastly, IFAW has concerns about the welfare and disposition of the 
animals covered by this bill that are currently pets. We expect that 
large cats that are currently maintained as pets will be abandoned by 
pet owners that can no longer transport their pets when they change 
their residence to another state. We are very concerned about the 
ability of state and local authorities, zoos and other exempted 
entities to absorb these animals into their facilities. We know, for 
example, that many of the more than 5,000 tigers in captivity are kept 
as pets and we should expect that some of these will be abandoned. 
While IFAW will commit resources to assist in relocation efforts we 
remained concerned that the ``system'' will not be able to absorb these 
exotic pets. We ask the Subcommittee to monitor this situation closely 
and consider adding a provision to the bill that would require the Fish 
and Wildlife Service after one year to report back to the Subcommittee 
on the impacts of the legislation.
    Thank you for the opportunity to submit these comments in support 
of H.R. 1006.
                                 ______
                                 
    [A letter submitted for the record by Christopher Cox, 
Executive Director, Institute for Legislative Action, National 
Rifle Association, follows:]

                              June 9, 2003

The Honorable Richard Pombo
Chairman
House Resources Committee
1324 Longworth House Office Building
Washington, DC 20515

Dear Chairman Pombo:

    As the leading voice for millions of American gun-owners and 
hunters, the National Rifle Association wishes to advise you of our 
opposition to H.R. 1472, the ``Don't Feed the Bears Act of 2003.'' This 
legislation would prohibit the use of bait in bear hunting on all 
Federal lands.
    Although H.R. 1472 addresses one method of bear hunting, the real 
issue here is about who manages resident wildlife. H.R. 1472 opens the 
door to Federal preemption of the rights of the fifty states to manage 
resident wildlife, including establishing the means and methods of 
hunting in a safe and ethical manner. The NRA is unalterably opposed to 
such Federal infringement.
    Congress has passed legislation giving the Federal Government 
management authority over certain categories of wildlife which it felt 
required a national focus: migratory birds, marine mammals, and 
endangered and threatened species. At no time in its history has 
Congress selected an individual species for Federal management. H.R. 
1472 sets this unwise precedent.
    This legislation is being advocated by organizations opposed to all 
methods of hunting, not just the use of bait in bear hunting. Nothing 
could better achieve their goal of ending hunting in the United States 
than a bill that Federalizes wildlife management. Rather than having to 
promote their views in each of the fifty states, the anti-hunting 
community is seeking to have Congress preempt the field.
    Those states that allow the use of bait in hunting do so because 
they have concluded that it is a humane method of hunting, that it 
meets the ethical standard of ``fair chase,'' and that it is a 
necessary tool for management of their bear populations. H.R. 1472 
places Congress in the position of being a wildlife biologist, making 
decisions for states on how certain wildlife populations must be 
managed. If Congress were to adopt this legislation, it would be 
placing itself in the position of having to address every issue 
pertaining to wildlife management, not just one method of bear hunting.
    Mr. Chairman, the NRA strongly urges you to oppose H.R. 1472 
because of its attempt to preempt the authority of the states to manage 
resident wildlife. Thank you for your consideration of our views on 
this important issue.

                               Sincerely,

                            Christopher Cox

                           Executive Director

                  NRA Institute for Legislative Action

cc: Members of the House Resources Committee
                                 ______
                                 
    [A letter submitted for the record by the Wisconsin 
Department of Natural Resources on H.R. 1472 follows:]

           State of Wisconsin DEPARTMENT OF NATURAL RESOURCES
                         101 s. webster street
                                box 7921
                     madison, wisconsin 53707-7921
                       telephone: (608) 266-2621
                          fax: (608) 267-3579

                           February 13, 2003

The Honorable David Obey
2314 Rayburn House Office Building
Washington, DC 20515

Subject: Bear Baiting on Federal Lands

Dear Representative Obey:

    During the Fiscal Year 2003 appropriations process, Congressman 
James Moran unsuccessfully attempted to attach a rider to the 
Department of Interior Appropriations bill prohibiting the use of bait 
for bear hunting on Federal lands. It is our understanding that he may 
make a similar attempt in the Fiscal Year 2004 budget. We request your 
assistance to discourage this action.
    At the national level, we recognize that hunting bears over bait is 
controversial. However, as a policy issue it should be addressed 
separate from the budget process, as a stand alone bill.
    States authority to control placement of bait on Federal lands has 
been decided in U.S. District Court and upheld in U.S. Court of 
Appeals. In 1995 and 1997 court cases regarding Wyoming and eight other 
states decided that the states have the responsibility of regulating 
bear baiting as a hunting practice, including on Federal lands. 
Congress and case law has long upheld that managing resident species of 
wildlife is a state's right.
    Hunting bears with bait is a legal and important method of 
harvesting bears in one-third of the states which have bear hunting (9 
of 27 states). These states are generally in the north, including the 
Great Lakes states of Minnesota, Wisconsin and Michigan as well as 
Alaska, Idaho, Maine, New Hampshire, Wyoming and Utah. Eight of 11 
Canadian provinces allow hunting bears with use of bait. This 
geographic distribution follows bear biology. Bear are hunted in the 
early fall, because as early as October bears are starting to become 
lethargic and moving towards hibernation. Mountain states, or states 
with more moderate temperatures have other options. In mountain states 
using binoculars to scan mountainsides can be an effective means of 
locating bears. This is not an option in the Great Lake states 
especially before leaf fall, when bears are active.
    Bears in West Coast states or more southerly states remain active 
later into the fall, into and through the other big game seasons for 
elk and deer. Many bears are taken incidental to other hunting. In 
Wisconsin or other Great Lakes States this again is not an option. 
Bears are mainly denned up by gun deer season. (Wisconsin once had a 
bear season which overlapped gun deer season, however, it was ceased 
due to the perception that many bears were being taken when either very 
lethargic, or actually in the den.)
    Another method used by one state, Pennsylvania, is a short 3-day 
season, with many hunters. Pennsylvania is a populous state, and is 
able to put 100,000 hunters in the woods for those 3 days, and take 
about as many bears as Wisconsin does. Wisconsin has less than half as 
many bear hunters, and needs to maintain a good harvest to manage the 
bear population at goal.
    Baiting for bears in Wisconsin is also highly regulated, both on 
Federal lands and elsewhere. All bait must be biodegradable, and no 
honey bones, fish, meat, solid animal fat or parts of animal carcasses 
are allowed. The volume is limited to 10 gallons. No paper, packaging 
or other litter is allowed. Baiting must cease at the end of season in 
early October. Baits may not be placed near trails, roads, or campsites 
used by the public. It has been common practice for bear hunters to 
cover the bait so that smaller animals cannot access it. This practice 
has recently been made law in Wisconsin, with the discovery of bovine 
tuberculosis in deer in Michigan and chronic wasting disease in 
Wisconsin deer, the Department intends to prevent deer from close 
contact over bait. Disease spread within in a bear population has not 
been documented to be associated with bait.
    If you have questions or would like addition information, please 
contact Tom Hauge, Director, DNR Bureau of Wildlife Management at 608-
266-2193 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb9f8486c5838a9e8c8eab8f8599c5989f8a9f8ec59c82c59e98c5">[email&#160;protected]</a>

                               Sincerely,

                             Scott Hassett

                               Secretary

cc: Wisconsin Congressional Delegation
    Steve Oestricher, Wisconsin Conservation Congress
    Rich Posig, Wisconsin Bear Hunters Association
                                 ______
                                 
    [A letter submitted for the record by the United 
Sportsmen's Alliance. follows:]

[GRAPHIC] [TIFF OMITTED] T7680.007

    [A letter submitted for the record by the Michigan House of 
Representatives follows:]

[GRAPHIC] [TIFF OMITTED] T7680.008

[GRAPHIC] [TIFF OMITTED] T7680.009

    [A letter submitted for the record by Thomas L. Albert, 
Vice President, Government Relations, Feld Entertainment, 
follows:]

[GRAPHIC] [TIFF OMITTED] T7680.010

[GRAPHIC] [TIFF OMITTED] T7680.011

[GRAPHIC] [TIFF OMITTED] T7680.012

[GRAPHIC] [TIFF OMITTED] T7680.013

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
